<html>
<title> - H.R. 2499, ``PUERTO RICO DEMOCRACY ACT OF 2009''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
           H.R. 2499, ``PUERTO RICO DEMOCRACY ACT OF 2009''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, June 24, 2009

                               __________

                           Serial No. 111-26

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
50-610                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 24, 2009.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................    10
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     8
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee.....................................     9
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     4
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     8
    Pierluisi, Hon. Pedro R., the Resident Commissioner in 
      Congress from Puerto Rico..................................     4
        Prepared statement of....................................     6
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1
        Prepared statement of....................................     3
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     9

Statement of Witnesses:
    Berrios-Martinez, Hon. Ruben, President, Puerto Rican 
      Independence Party.........................................    50
        Prepared statement of....................................    52
    Bhatia, Hon. Eduardo, Senator, Commonwealth of Puerto Rico...    74
        Prepared statement of....................................    76
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana.................................................    11
        Prepared statement of....................................    12
    Dalmau-Santiago, Hon. Jose L., Minority Leader of the Popular 
      Democratic Party, Senate of Puerto Rico....................    67
        Prepared statement of....................................    68
        Letter from Barack Obama dated February 12, 2008.........    70
    Ferrer Rios, Hon. J. Hector, President, Popular Democratic 
      Party......................................................    40
        Prepared statement of....................................    42
    Fortuno, Hon. Luis G., Governor of Puerto Rico...............    23
        Prepared statement of....................................    25
        Letter from President-Elect Barack Obama dated January 2, 
          2009...................................................    28
    Gonzalez-Colon, Hon. Jenniffer, Speaker, Puerto Rico House of 
      Representatives............................................    71
        Prepared statement of....................................    73
    Grayson, Hon. Alan, a Representative in Congress from the 
      State of Florida...........................................    12
        Prepared statement of....................................    13
    Rivera-Schatz, Hon. Thomas, Senate President, Senate of 
      Puerto Rico................................................    63
        Prepared statement of....................................    65
    Romero Barcelo, Hon. Carlos, Former Governor of Puerto Rico 
      (1977-1982)................................................    33
        Prepared statement of....................................    37
Additional materials supplied:

    Hogan, J. Aloysius, Esq., Government Relations Director, 
      English First, Statement submitted for the record..........    86
    Hoyer, Hon. Steny H., a Representative in Congress from the 
      State of Maryland, Statement submitted for the record......    87
    Ramirez, Miriam J., MD, San Juan, Puerto Rico, Statement 
      submitted for the record...................................    15
    Velazquez, Hon. Nydia M., a Representative in Congress from 
      the State of New York, Statement submitted for the record..    88


LEGISLATIVE HEARING ON H.R. 2499, ``PUERTO RICO DEMOCRACY ACT OF 2009''

                              ----------                              


                        Wednesday, June 24, 2009

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:06 a.m. in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall, II 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Kildee, Faleomavaega, 
Napolitano, Bordallo, Sablan, Christensen, Baca, Sarbanes, 
Pierluisi, Hastings, Young, Duncan, Brown, and Bishop.

 STATEMENT OF THE HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources will come 
to order, please. The Committee is meeting today to commence 
with the consideration of H.R. 2499, the Puerto Rico Democracy 
Act of 2009, introduced by our colleague from Puerto Rico, very 
dear friend and valued member of our Committee, Pedro 
Pierluisi. I would like to start out this morning by 
recognizing the great contribution that the people of Puerto 
Rico have made to the defense of our United States.
    To the families who have lost a husband, a father, a 
daughter or son in our wars, I would take this moment to salute 
each of you. We can debate political status, but what is not 
subject of debate is the patriotism of the people of Puerto 
Rico. The island's century-long history with the American 
family has been significant. Ceded by Spain as a result of war, 
Puerto Rico was one of the first areas outside of the 
continental U.S. where the American flag was raised.
    To the United States, it marked a milestone in our own 
political development. When our union of states was comprised 
of renegade English colonies, we then stepped into a role that 
we previously had fought against. Given our own experience, 
would anyone have imagined that our new colony would be 
disenfranchised and kept unequal in our political framework? 
Our commitment to Puerto Rico's advancement under the 1898 
Treaty of Paris would be our judge.
    If our measure of success is today's Puerto Rico, then I 
say Puerto Rico has done well by the United States. It is a 
showcase of democracy in the Caribbean. Having some of the 
highest voter turnout rates in our nation, Puerto Rico shames 
with many of our states its energy and enthusiasm in electing 
its leaders. Economically, it is a powerhouse in the Caribbean 
and considered a home away from home for many mainland Fortune 
500 companies. Equal in importance to Puerto Rico's political 
and economic prowess is the island's contributions to our own 
social fabric.
    Every aspect of American art, music, theater and sport has 
been influenced by Puerto Rico's own culture and by its people. 
And beyond such contributions, there remains Puerto Rico's 
patriotism, beginning in World War I when thousands of Puerto 
Ricans were serving in our U.S. military. There is no doubt 
that many more thousands are currently serving in our armed 
forces, fighting our wars and dying for our country.
    The Committee convenes this morning because in spite of 
what we have gained from each other, there has been no ultimate 
achievement in Puerto Rico's political status, which really is 
the greatest commitment the United States has to all of our 
territories.
    Since the establishment of the current commonwealth status 
in 1952, four popular votes have been held on the status of 
Puerto Rico in three plebiscites and one referendum, but none 
of them were sanctioned by the Congress of the United States. 
Going back just to the 1970s, at least 40 separate measures 
have been introduced in the Congress to resolve or clarify 
Puerto Rico's political status. In addition, Congress has held 
at least 12 hearings and four measures have received either 
House or Senate action.
    In the last Congress, the Bush Administration issued the 
President's Task Force Report on Puerto Rico's Status, which 
served as a basis for legislation introduced by our former 
colleague and current Governor of Puerto Rico, The Honorable 
Luis Fortuno. With this history behind us, I join those who say 
it is time for Congress to provide the people of Puerto Rico 
with an unambiguous path toward permanently resolving its 
political status that is consistent with the U.S. Constitution.
    When this Committee considered similar legislation in the 
last Congress, we exhaustively examined the question of the 
constitutionality of the various status options available under 
the Constitution. What emerged from that process was a clear 
consensus that settled on the permanent status options that are 
reflected in the bill we are considering today. The Resident 
Commissioner is to be congratulated for carefully crafting a 
bill that seeks to ``authorize a fair, impartial and democratic 
process for self-determination for the people of Puerto Rico.''
    Today's meeting of the Committee is to hear from the 
political leaders from the island of Puerto Rico. I want to 
welcome all of our witnesses, especially our former colleagues, 
the current Governor of Puerto Rico and former Governor Carlos 
Romero Barcelo. Both Governors worked tirelessly to advance the 
resolution of the Puerto Rico status question when they served 
with us in this body. In closing, let me reaffirm my continuing 
commitment to press for self-determination for the people of 
Puerto Rico.
    We have arrived at the mountain and can see the promised 
land on the other side and, for my part, I pledge to do all I 
can to see that we get there soon. Thank you, and I now 
recognize our Ranking Member, the gentleman from Washington, 
Mr. Hastings.
    [The prepared statement of Mr. Rahall follows:]

       Statement of The Honorable Nick J. Rahall, II, Chairman, 
                     Committee on Natural Resources

    The Committee on Natural Resources is meeting today to commence 
with the consideration of H.R. 2499, the ``Puerto Rico Democracy Act of 
2009'', introduced by our colleague from Puerto Rico, Pedro Pierluisi.
    I would like to start out this morning by recognizing the great 
contribution the people of Puerto Rico have made to the defense of the 
United States. To the families who have lost a husband, a father, a 
daughter, or a son, in our wars, I take this moment to salute you. We 
can debate political status. But what is not subject of debate is the 
patriotism of the people of Puerto Rico.
    The Island's century long history within the American family has 
been significant. Ceded by Spain as a result of war, Puerto Rico was 
one of the first areas outside of the continental United States where 
the American flag was raised. To the U.S., it marked a milestone in our 
own political development. When once our union of States was comprised 
of renegade English colonies, we then stepped into a role that we 
previously had fought against.
    Given our own experience, would anyone have imagined that our new 
colony would be disenfranchised and kept unequal in our political 
framework? Our commitment to Puerto Rico's advancement under the 1898 
Treaty of Paris would be our judge.
    If our measure of success is today's Puerto Rico, then I say Puerto 
Rico has done well by the United States. It is a showcase of democracy 
in the Caribbean. Having some of the highest voter turnout rates in our 
Nation, Puerto Rico shames many of our own States with its energy and 
enthusiasm in electing its leaders. Economically, it is a powerhouse in 
the Caribbean and considered a home away from home for many mainland 
Fortune 500 companies.
    Equal in importance to Puerto Rico's political and economic prowess 
is the Island's contributions to our own social fabric. Every aspect of 
American art, music, theater, and sport has been influenced by Puerto 
Rico's own culture and its people.
    And beyond such contributions, there remains Puerto Rico's 
patriotism, beginning in World War I when thousands of Puerto Ricans 
served in the U.S. military. There is no doubt that many more thousands 
are currently serving in our armed forces; fighting our wars and dying 
for our country.
    The Committee convenes this morning because in spite of what we 
have gained from each other, there has been no ultimate achievement in 
Puerto Rico's political status--which really is the greatest commitment 
the U.S. has to all of our territories.
    Since the establishment of the current Commonwealth status in 1952, 
four popular votes have been held on the status of Puerto Rico in three 
plebiscites and one referendum. But none of them were sanctioned by the 
Congress of the United States.
    Going back just to the 1970's, at least 40 separate measures have 
been introduced in Congress to resolve or clarify Puerto Rico political 
status. In addition, Congress has held at least 12 hearings and four 
measures have received either House or Senate action.
    In the last Congress, the Bush Administration issued the 
President's Task Force Report on Puerto Rico's Status, which served as 
the basis for legislation introduce by our former colleague and current 
governor of Puerto Rico, The Honorable Luis Fortuno.
    With this history before us, I join those who say it is time for 
Congress to provide the people of Puerto Rico with an unambiguous path 
toward permanently resolving its political status that is consistent 
with the U.S. Constitution.
    When this committee considered similar legislation in the last 
Congress, we exhaustively examined the question of the 
constitutionality of the various status options available under the 
constitution.
    What emerged from that process was a clear consensus that settled 
on the permanent status options that are reflected in the bill we are 
considering today.
    The Resident Commissioner is to be congratulated for carefully 
crafting a bill which seeks to ``authorize a fair, impartial and 
democratic process for self-determination'' for the people of Puerto 
Rico.
    Today's meeting of the committee is to hear from the political 
leaders from the island of Puerto Rico. I want to welcome all the 
witnesses, especially our former colleagues, the current governor of 
Puerto Rico, Luis Fortuno, and former governor, Carlos Romero Barcelo. 
Both governors worked tirelessly to advance the resolution of the 
Puerto Rico status question when they served with us in the House.
    In closing, let me reaffirm my continuing commitment to press for 
self-determination for the people of Puerto Rico. We have arrived at 
the mountain and can see the promise land on the other side. And for my 
part, I pledge to do all I can to see to it that we get there soon.
    Thank you.
                                 ______
                                 

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, and I appreciate 
very much your scheduling and having this hearing today. I know 
this issue has been around for some time. I know the whole time 
I have been here, there have been many changes in the 
legislation that has been introduced from time to time, but 
there is one noticeable change this year from the past. That is 
the election in Puerto Rico of a very young, energetic, and 
highly intelligent reform-minded Governor and, of course, I am 
speaking about our former colleague, Mr. Fortuno.
    So I look forward to hearing the testimony. I know this 
legislation differs in part from legislation that has been 
introduced in the past. Nothing unusual about that. There are 
differing views and it is an issue that I know that this 
Congress needs to address, so with that, Mr. Chairman, I just 
want to say I look forward to hearing the testimony of all the 
members, and with that, I will yield back my time.
    The Chairman. The Chair recognizes the gentleman from 
Puerto Rico, Mr. Pierluisi, whose bill we are considering today 
and whose leadership on this issue has been very valuable to 
us. I certainly salute his determination and dedication.

    STATEMENT OF THE HON. PEDRO R. PIERLUISI, THE RESIDENT 
 COMMISSIONER IN CONGRESS FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Pierluisi. Thank you, Chairman Rahall. Thank you, 
Ranking Member Hastings. I want to begin by expressing my 
appreciation to Chairman Rahall. Both of us believe that after 
111 years, it is imperative that the 111th Congress finally ask 
the people of Puerto Rico for their views on the island's 
future. Patience is a virtue, but my constituents have been 
patient enough. Since its introduction just over one month ago, 
H.R. 2499 has obtained more cosponsors than any other Puerto 
Rico status bill in history.
    I want to thank the 150 Members of Congress who have 
cosponsored this legislation. The strong bipartisan support for 
the bill is proof positive that Puerto Rico's status dilemma 
troubles men and women all along the political spectrum. The 
subject of Puerto Rico's political status is fraught with 
history and passion. The island's political parties are divided 
on the status question and the debates between them can be 
ferocious. Because of these divisions, some Members of Congress 
who support the principle of self-determination have 
nonetheless been reluctant to become involved. I hope that 
today's hearing will help convince those members that this bill 
is a just solution to an unjust state of affairs.
    I would now like to address my fellow Puerto Ricans in 
leadership positions who have expressed concerns with the bill. 
I know your love for Puerto Rico is as great as my own. Because 
the destiny of millions is at stake, we must overcome our 
differences, not surrender to them. I am certain we can reach a 
fair compromise, and I fear history will not forgive us if we 
don't. President Obama said it best in a letter to Governor 
Fortuno when he wrote ``I am fully aware of the difficulties 
that Puerto Rico has faced in the past when dealing with this 
issue, but self-determination is a basic right to be addressed, 
no matter how difficult.''
    Mr. Chairman, through this bill, Congress would formally 
consult the people of Puerto Rico regarding the island's 
political status, something that has never been done since 
Puerto Rico came under the U.S. flag in 1898. This bill 
authorizes the government of Puerto Rico to conduct a 
plebiscite. Voters would be asked whether they wish to maintain 
the current political status or to have a different status. If 
a majority favors the current status, the government of Puerto 
Rico would be authorized to ask voters this threshold question 
again at eight-year intervals.
    The purpose of this provision is for Congress to regularly 
consult the people of Puerto Rico to obtain their continued 
consent to an arrangement that, whatever its merits, denies 
them self-government at the national level. If on the other 
hand a majority favors a different status, the bill authorizes 
a second plebiscite among the three non-territorial status 
options recognized under U.S. and international law: 
independence, statehood and national sovereignty in association 
with the United States.
    The bill does not define this last option, except to say 
that it would entail an agreement between two sovereigns that 
is not subject to the territorial clause. As will be true of 
any bill that seeks to address an issue of such importance, 
there are some dissenting voices. While consensus is ideal, the 
most relevant question is whether the arguments against the 
legislation have any merit. The search for consensus cannot 
become justification for inaction because, while we wait, four 
million American citizens remain voiceless.
    The strength of this bill is that it sponsors a referendum 
process based on legally valid status options, but leaves it to 
the people of Puerto Rico to decide which of those options they 
prefer. Some critics of the bill may argue that by informing 
the people of Puerto Rico about their valid status options and 
limiting the ballots to only those options, Congress is somehow 
dictating the self-determination process to my constituents. 
This reasoning is misguided.
    Although couched in language intended to convey respect for 
the island's residents, this argument, if allowed to prevail, 
would resign the people of Puerto Rico to yet another century 
of voicelessness. For too long, many on the island have been 
led to believe that if they bargain wisely enough, they can 
have U.S. citizenship and national sovereignty, receive all 
Federal funds and have veto power over Federal law. For the 
Federal government to perpetuate this comforting but false 
belief would be wrong. This bill shows the highest respect for 
the people of Puerto Rico by refusing to mislead them. This 
bill will enable the people of Puerto Rico to choose among 
viable status options through one or more popular votes. Some 
argue that the bill should provide for a constitutional 
convention rather than a plebiscite process, but it is hard to 
see how this mechanism would be a better way to resolve the 
status question than hearing directly from the people.
    The fact is that the valid status choices available to 
Puerto Rico are crystal clear. The people of Puerto Rico do not 
need to elect delegates to propose status options. All the 
people of Puerto Rico need is the opportunity to express 
themselves directly at the ballot box. Finally, this 
legislation does not exclude or favor any status option. Yet, 
today you will hear testimony from certain witnesses that the 
bill is intended to stack the deck in favor of statehood.
    Specifically, there are theories that voters who support 
statehood and voters who support independence will vote in 
favor of a different political status in the first plebiscite, 
creating a so-called artificial majority against the current 
status. This argument is flawed. Before a single vote has been 
cast, these critics have used their crystal ball to predict the 
results. The reality is that none of us has any real way of 
knowing how most voters will respond to the options on the 
ballot.
    In any event, the bedrock principle of our system is 
government by consent, and the first plebiscite informs 
Congress whether a majority consents to the present 
arrangement. If a majority of the people do not wish to 
maintain the current status, they should have the chance to 
express their preference among the viable alternatives. This 
bill would, at long last, provide them with this opportunity.
    Let me say something in plain terms. I support statehood, 
because I believe the people of Puerto Rico have earned the 
right, should they choose to exercise it, to become full and 
equal citizens of the United States, but I was elected to 
represent all of the people of Puerto Rico, including those 
whose vision for the island's future differs from my own. The 
intention of this bill is to sponsor a fair self-determination 
process, not to predetermine the outcome of that process.
    In closing, while I do not find the arguments against the 
bill persuasive, I am open to any amendments that would result 
in a fair process. I will not let the perfect become the enemy 
of the good. Opponents of this legislation should make a 
similar pledge. In our democracy, elections have consequences. 
Last November, the people of Puerto Rico, by historic margins, 
spoke clearly in favor of self-determination and against those 
who would obstruct it. We must allow their voices to be heard.
    I welcome the witnesses, and I thank you again, Mr. 
Chairman.
    [The prepared statement of Mr. Pierluisi follows:]

            Statement of The Honorable Pedro R. Pierluisi, 
         the Resident Commissioner in Congress from Puerto Rico

    Thank you, Chairman Rahall. I want to begin by expressing my 
appreciation to you. Both of us believe that, after 111 years, it is 
imperative that the 111th Congress finally ask the people of Puerto 
Rico for their views on the Island's future. Patience is a virtue, but 
my constituents have been patient enough.
    I also want to thank former Chairman Don Young, who has done as 
much as any member of this body to seek self-determination for the 
people of Puerto Rico--and who has the scars to prove it. In addition, 
I want to convey my gratitude to Majority Leader Steny Hoyer and to 
Congressmen Dan Burton, Patrick Kennedy, Lincoln Diaz-Balart, and Alan 
Grayson, all of whom have been such strong champions of H.R. 2499. 
These gentlemen come from different political parties and different 
parts of the country, but they are bound together by their fierce 
desire to secure fair treatment for the four million U.S. citizens of 
Puerto Rico.
    Since its introduction just over one month ago, H.R. 2499 has 
obtained more co-sponsors than any other Puerto Rico status bill in 
history. I want to thank the 150 Members of Congress--106 Democrats and 
44 Republicans--who have co-sponsored this legislation. This strong 
bipartisan support is proof positive that Puerto Rico's status dilemma 
troubles men and women of conscience all along the political spectrum.
    The subject of Puerto Rico's political status is fraught with 
history and passion. The Island's political parties are divided on the 
status question and the debates between them can be ferocious. As a 
result of these divisions, some Members of Congress who support the 
principle of self-determination have nonetheless been reluctant to 
become involved. I hope that today's hearing will help convince those 
members that this bill represents a just solution to an unjust state of 
affairs.
    I would now like to address my fellow Puerto Ricans in leadership 
positions who have expressed concerns with the bill. I know your love 
for Puerto Rico is as great as my own. Because the destiny of millions 
is at stake, we must overcome our differences, not surrender to them. I 
am certain we can reach a fair compromise. And I fear history will not 
forgive us if we don't. President Obama said it best in a letter to 
Governor Fortuno when he wrote: ``I am fully aware of the difficulties 
that Puerto Rico has faced in the past when dealing with this issue, 
but self-determination is a basic right to be addressed no matter how 
difficult.''

                                 * * *

    Mr. Chairman: Through H.R. 2499, Congress would formally consult 
the people of Puerto Rico regarding the Island's political status--
something that has never been done since Puerto Rico came under the 
United States flag in 1898. This bill authorizes the government of 
Puerto Rico to conduct a plebiscite. Voters would be asked whether they 
wish to maintain the current political status or to have a different 
status. If a majority favors the current status, the government of 
Puerto Rico would be authorized to ask voters this threshold question 
again at eight-year intervals. The purpose of this provision is for 
Congress to regularly consult the people of Puerto Rico to obtain their 
continued consent to an arrangement that, whatever its merits, denies 
them self-government at the national level.
    If, on the other hand, a majority favors a different status, the 
bill authorizes a second plebiscite among the three non-territorial 
status options recognized under U.S. and international law: 
independence, statehood, and national sovereignty in association with 
the United States. The bill does not define this last option, except to 
say that it would entail an agreement between two sovereigns that is 
not subject to the Territorial Clause.
    As will be true of any bill that seeks to address an issue of such 
importance, there are some dissenting voices. While consensus is ideal, 
the most relevant question is whether the arguments against the 
legislation have any merit. The search for consensus cannot become a 
justification for inaction. Because while we wait, four million 
American citizens remain voiceless.
    The strength of H.R. 2499 is that it sponsors an orderly referendum 
process based on legally-valid status options, but leaves it to the 
people of Puerto Rico to decide which of those options they prefer. You 
may hear some opponents of the bill argue that, by informing the people 
of Puerto Rico about their valid status options and limiting the 
authorized ballots to only those options, Congress is somehow 
``dictating'' the self-determination process to my constituents. This 
line of reasoning is misguided. Although couched in language intended 
to convey respect for the Island's residents, this argument--if allowed 
to prevail--would resign the people of Puerto Rico to yet another 
century of voicelessness. For too long, many on the Island have been 
led to believe that if they bargain wisely enough, they can have U.S. 
citizenship and national sovereignty, receive all federal funds and 
have veto power over federal law. For the federal government to 
perpetuate this comforting but false belief would be wrong. This bill 
shows the highest respect for the people of Puerto Rico by refusing to 
mislead them.
    H.R. 2499 will enable the people of Puerto Rico to choose among 
legally-viable status options through one or more popular votes. Some 
have argued that the bill should provide for a ``constitutional 
convention'' rather than a plebiscite process. But it is hard to see 
how this mechanism would be a better way to resolve Puerto Rico's 
political status question than hearing directly from the people. The 
fact is that the legally-viable status choices available to Puerto Rico 
are crystal clear, no matter how loudly some may insist otherwise. The 
people of Puerto Rico do not need to elect delegates to propose status 
options. All the people of Puerto Rico need is the opportunity to 
express themselves directly at the ballot box.
    Finally, H.R. 2499 does not exclude or favor any status option. 
Yet, today you will hear testimony from certain witnesses that this 
bill is intended to ``stack the deck'' in favor of statehood. 
Specifically, their theory is that voters who support statehood and 
voters who support independence will vote in favor of a different 
political status in the first plebiscite, creating a so-called 
``artificial majority'' against the current status.
    This argument is flawed. Before a single vote has been cast, 
critics of the bill have used their crystal ball to predict the 
results. The reality, of course, is that none of us has any real way to 
know how most voters will respond to the options on the ballot. In any 
event, the bedrock principle of our system is government by consent, 
and the first plebiscite informs Congress whether a majority consents 
to the present arrangement. This is a fundamental question of 
democracy: if a majority of the Puerto Rican people do not wish to 
maintain the current status, they should have the chance to express 
their preference among the viable alternatives. H.R. 2499 would--at 
long last--provide them with this opportunity.
    Let me say something in plain terms. Like Governor Fortuno, over 
60% of the Island's 78 municipal mayors, and nearly 70% of the Puerto 
Rico Legislature, I am a strong proponent of statehood for Puerto Rico. 
Residents of Puerto Rico have contributed immeasurably to the life of 
this nation in times of peace and war. They serve as U.S. government 
officials, ambassadors and federal judges. For generations, our sons 
and daughters have served alongside their fellow citizens from the 
states on battlefields in Europe, Asia and the Middle East. During a 
late-night patrol in enemy territory, as soldiers from San Juan, 
Sacramento and San Antonio watch each other's backs, the differences 
between them mean nothing. What matters is that the flag stitched to 
their uniform is the same. I support statehood because I believe the 
people of Puerto Rico have earned the right, should they choose to 
exercise it, to become full and equal citizens of the United States.
    But I was elected to represent all of the people of Puerto Rico, 
including those whose vision for the Island's future differs from my 
own. The intention of H.R. 2499 is to sponsor a fair, neutral and 
democratic process of self-determination in Puerto Rico, not to 
predetermine the outcome of that process.
    In closing, I want to reiterate that while I do not find the 
arguments against the bill persuasive, I am open to any amendments that 
would result in a fair process of self-determination. I will not let 
the perfect become the enemy of the good. Opponents of this legislation 
should make a similar pledge. In our democracy, elections have 
consequences. Last November, the people of Puerto Rico--by historic 
margins--spoke clearly in favor of self-determination and against those 
who would obstruct it. We must allow their voices to be heard.
    I welcome the witnesses and I thank you again, Mr. Chairman.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Brown, South Carolina?

STATEMENT OF THE HON. HENRY E. BROWN, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Mr. Chairman, for holding this 
hearing today. I will submit my full text for the record, but I 
just would like to welcome the former member of this Committee, 
now the Governor of Puerto Rico, and all the other folks that 
have traveled such a distance to come to be a part of this 
process. I am original cosponsor of the bill and so I look 
forward to the dialogue. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Michigan, Mr. Kildee?

   STATEMENT OF THE HON. DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you very much for having this hearing. 
This is an issue that has been before this Congress for a long 
time. I think we should give the people of Puerto Rico the 
right to make their decision. I think this is a good vehicle 
that has been introduced Mr. Pierluisi. I worked with Carlos 
Romero Barcelo for a long time and Luis Fortuno, and I welcome 
their presence here today and I hope we wind up with a bill 
that will be satisfactory to the people of Puerto Rico.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Tennessee, Mr. Duncan?

   STATEMENT OF THE HON. JOHN J. DUNCAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Well, thank you very much, Mr. Chairman. I have 
had the great privilege of visiting Puerto Rico on three 
different occasions over the years and I think it is a 
wonderful place and the people have been so kind to me, so I 
have nothing but positive and good feelings toward Puerto Rico 
and its people, and I also was able, fortunately, to establish, 
I think, good friendships with former Congressman Romero 
Barcelo and also former Congressman Acevedo Vila and also with 
the current Governor Fortuno, and I join Congressman Brown in 
welcoming Governor Fortuno back to be with us today.
    I have also tried to help Puerto Rico on several bills in 
other committees, but I don't really have strong feelings, I am 
not really for statehood or against statehood or for 
commonwealth or against commonwealth. The main thing I would 
like to see is a fair process set up or a fair vote. I have met 
with people over the years on both sides of this issue and I do 
have difficulty in understanding why we have to have two votes, 
why you don't just put one simple thing out there and say, 
statehood, commonwealth, independence, just have it plain and 
simple, one vote, and then I do have some concern, I have read 
or heard and read over the years that about 80 percent of the 
people in Alaska and Hawaii voted to become a state, and I do 
have some concern about having a state where half or less than 
half want the statehood.
    I would feel more comfortable with it if we had 80 or 85 
percent or more of the people of Puerto Rico who wanted to be a 
state, but with those questions, I am willing to listen, and I 
do have to go to another committee shortly, but I am willing to 
listen and consider all of the arguments on this issue. Thank 
you very much.
    The Chairman. The gentlelady from California, Ms. 
Napolitano? If not, the gentleman from CNMI, Mr. Sablan?

 STATEMENT OF THE HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS 
     FROM THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much. Good morning, Mr. 
Chairman, Chairman Rahall and Ranking Member Hastings. Good 
morning, Mr. Pierluisi. Ladies and gentlemen, I am here in 
support of H.R. 2499, the Puerto Rico Democracy Act of 2009. I 
am from the Commonwealth of the Northern Mariana Islands, which 
is a commonwealth that has a permanent relationship with the 
United States. The commonwealth status in the Marianas was 
derived from looking at the Puerto Rico status.
    Puerto Rico and the Northern Mariana Islands have a long 
history. We were a part of Spain just prior to the Spanish-
American War, but prior to the covenant approval between the 
U.S. and the CNMI, the Political Status Commission had to 
decide the future political status for all the people of the 
Northern Mariana Islands. This was no easy feat for a group of 
Pacific Islanders who had been colonies for hundreds of years, 
and by an act of political self-determination, we chose a 
permanent relationship with the United States.
    We too had a plebiscite to decide whether we wanted to vote 
for commonwealth status or reject it with the caveat to 
participate in the determination of an alternative future 
political status. I feel that H.R. 2499 allows the people of 
Puerto Rico more opportunities to define their political 
status. Thank you.
    The Chairman. The gentleman from Utah, Mr. Bishop, who I 
might say looks a lot better today than he did last night for 
votes. Glad you found your coat and tie.
    Mr. Bishop. Yeah, but I can't play softball in this suit, 
so I am sorry about that. And Mr. Chairman, we won't talk about 
footwear, will we?
    The Chairman. No, we won't.
    Mr. Bishop. OK, all right. Fair enough.
    The Chairman. The Ranking Member, though, wants to know if 
you can play without.
    [Laughter.]
    Mr. Bishop. You know, I can get abuse in other places 
besides--no.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. I just want to--appreciate your being here. I 
appreciate Pedro, what he is doing here, and I just want to 
welcome the Governor of Puerto Rico back. It is just not the 
same since your office was through the wall of my office, but I 
have moved as well, so it is good to have you back here again. 
Welcome, and I am looking forward to the testimony, and just 
for the record, I think I look good in shorts.
    [Laughter.]
    The Chairman. Without objection, all members, of course, 
will have the usual opportunity to insert their remarks in the 
record, and we will proceed now with our first panel. The first 
panel is composed of two of our distinguished colleagues. The 
first is from Indiana, The Honorable Dan Burton, and our second 
panelist, the new member, I am very happy to have him before us 
today, from the great State of Florida, The Honorable Alan 
Grayson.
    Gentlemen, we welcome you both to the Committee, and as 
with all members, we have your prepared testimony. It will be 
made part of the record as if actually read. You may proceed in 
the manner which you desire. Dan, do you want to go first?
    Mr. Burton. Thank you, Mr. Chairman, and the picture of our 
colleague in shorts really wakes me up this morning.
    [Laughter.]
    Mr. Burton. I wish you would send a copy of that to my 
office.
    [Laughter.]

STATEMENT OF THE HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Burton. Chairman Rahall, Ranking Member Hastings, 
Governor Fortuno, Governor Romero Barcelo, thank you very much, 
all of you, for this hearing and for the hard work that the 
Governors have put into this. Puerto Rico has been a U.S. 
territory for 111 years and is the longest existing U.S. 
territory. Puerto Ricans have fought in all our wars as proud 
U.S. citizens. In fact, Puerto Ricans have sent more of their 
sons and daughters to serve in the United States military than 
all but one other state in the whole union.
    Puerto Rico is a very special and significant part of the 
makeup of this great nation, and as I have been saying for 
years, I believe that they deserve the opportunity to express 
their status preference in relation to the United States. 
Through this past 111 years, we have been debating what to do 
about Puerto Rico, whether it should continue to be a U.S. 
territory or whether we should allow the people of Puerto Rico 
to work with Congress to determine whether they would like to 
have a more permanent status.
    We have never given the people of Puerto Rico an 
opportunity to declare their preference in this democratic way, 
and that is why I am a strong supporter of H.R. 2499, the 
Puerto Rico Democracy Act of 2009, that my friend Resident 
Commissioner Pedro Pierluisi has introduced. The Puerto Rico 
Democracy Act of 2009 is a fair and democratic piece of 
legislation. In simple terms, the bill provides the 4 million 
people of Puerto Rico with a chance to determine their own fate 
through a two-part popular vote or plebiscite.
    During the first part, the Puerto Rican people will vote on 
whether to preserve the status quo and remain a U.S. territory 
or to pursue a path toward permanent, non-territorial status. 
Should they decide to go forth with the latter option, the 
second plebiscite would present them with a choice of 
independence, sovereignty in association, or it could become 
the 51st state of the United States. If the Puerto Rican people 
wish to maintain current territorial status, they may, but we 
will continue to poll the people of Puerto Rico in years to 
come to make sure that that is still what they want.
    This bill doesn't force them into anything that they do not 
want or something that they may regret 10 or 15 years later, 
and that is why I support this bill. Congress should not 
dictate to the people of Puerto Rico what is best for them. The 
people themselves must be allowed to decide their fate. 
Congress doesn't face the same realities day in and day out 
that the people of Puerto Rico face, realities like serving in 
the United States military without being able to elect its 
Commander-in-Chief, and I would just like to make a comment 
about that.
    For people to serve in this country and give their lives 
and risk their lives and put their families through all kinds 
of heartache and not be able to vote for the Commander-In-Chief 
I think is just almost criminal. So many men and women from 
Puerto Rico have given their lives for American freedom but 
don't have the opportunity to vote for their President, and 
although Congress makes laws that govern Puerto Rico, they have 
no voting representation.
    Our role in Puerto Rico is to be sure that the Puerto Rican 
people are able to determine exactly what it is they want to do 
with their great island. It is our responsibility to ensure the 
self-determination process is free and fair. We need to provide 
the Puerto Rican people the same chance for the full democracy 
we advocate for the rest of the world, but first we need to 
allow them to tell us how and what they want to do about going 
about getting it, and with that, Mr. Chairman, thank you very 
much. I will be happy to answer any questions.
    [The prepared statement of Mr. Burton follows:]

  Statement of The Honorable Dan Burton, a Representative in Congress 
                       from the State of Indiana

    Puerto Rico has been a U.S. territory for 111 years, and is the 
longest existing U.S. territory. Puerto Ricans have fought in our wars 
as proud U.S. citizens. In fact, Puerto Ricans have sent more of their 
sons and daughters to serve in the United States military than all but 
one other state. Puerto Rico is a very special and significant part of 
the makeup of this great nation and, as I have been saying for years, I 
believe that they deserve the opportunity to express their status 
preference in relation to the United States.
    Through this past 111 years, we have been debating what to do about 
Puerto Rico; whether it should continue to be a U.S. territory, or 
whether we should allow the people of Puerto Rico to work with Congress 
to determine whether they would like to have a more permanent status. 
We have never given the people of Puerto Rico an opportunity to declare 
their preference in this democratic way. That is why I am a strong 
supporter of the H.R. 2499, the Puerto Rico Democracy Act of 2009 that 
my friend, Resident Commissioner Pedro Pierluisi has introduced.
    The Puerto Rico Democracy Act of 2009 is a fair and democratic 
piece of legislation. In simple terms, the bill provides the four 
million people of Puerto Rico with a chance to determine their own 
fate, through a two-part popular vote or ``plebiscite.'' During the 
first part, the Puerto Rican people will vote to either preserve the 
status quo and remain as a U.S. territory, or to pursue a path toward 
permanent non-territorial status. Should they decide to go forth with 
the latter option, the second plebiscite would present them with the 
choice of independence, sovereignty in association, or to become the 
51st state of the U.S.
    If the Puerto Rican people wish to maintain current territorial 
status they may, but we will continue to poll the people of Puerto Rico 
in years to come, to make sure that is still what they want. This bill 
doesn't force them into anything they do not want, or something they 
may regret in 10 or 15 years time. That is why I support this bill.
    Congress shouldn't dictate to the Puerto Rican people what is best 
for them; the people themselves must be allowed to decide their fate. 
Congress doesn't face the same realities day in and day out that the 
people of Puerto Rico face; realities like serving in the United States 
military without being able to elect its Commander-in-Chief. So many 
men and women from Puerto Rico have given their lives for American 
freedom, but don't have the opportunity to vote for their President. 
And although Congress makes laws that govern Puerto Rico, they have no 
voting representation.
    Our role in Puerto Rico is to be sure the Puerto Rican people are 
able to determine exactly what it is they want to do with their great 
island. It is our responsibility to ensure the self-determination 
process is free and fair. We need to provide the Puerto Rican people 
the same chance for the full democracy we advocate to the rest of the 
world, but first we need to allow them to tell us how they want to go 
about it.
                                 ______
                                 
    The Chairman. Alan?

    STATEMENT OF THE HON. ALAN GRAYSON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Grayson. Thank you, Mr. Chairman. I appreciate the 
opportunity that you allow me today to testify before the 
Committee about this important matter. I am proud to be one of 
the original cosponsors of the Puerto Rico Democracy Act of 
2009. This legislation is about what is right and about what is 
fair. Under this legislation, voters will be asked by Congress 
whether they wish to maintain Puerto Rico's present form. If a 
majority of the voters cast their ballots and favor a different 
political status, the government of Puerto Rico will be 
authorized to conduct a second vote among three options, 
independence, statehood or sovereignty in association with the 
United States.
    Since 1898, residents of Puerto Rico have been deprived of 
full and equal political representation. Though its residents 
are American citizens, the island is not a state and its 
residents have no equal voting representation in Congress. 
Given the choice, Puerto Ricans might opt to change the 
situation. Some in Puerto Rico might opt for statehood for the 
island, some might opt for independence, and some might opt for 
sovereign association, but Puerto Ricans have never been 
invited by Congress to make this choice.
    They are American citizens but they are deprived of their 
fundamental voting rights. If Puerto Rico were a state, it 
would have six representatives in Congress instead of only one 
who cannot be the deciding vote on the Floor of the House. If 
Puerto Rico were a state, it would have two senators instead of 
none. If Puerto Rico were a state, their people could help to 
choose our President. Now they cannot. A host of policy 
decisions are made in Puerto Rico's name on behalf of Puerto 
Rico's people without their full and equal input or consent.
    This is deeply, deeply unfair. Whether Puerto Ricans decide 
in favor of statehood or not, there is an existing inequality 
that needs to be addressed. The people of Puerto Rico could 
have more representatives in Congress than they have today, 
with or without statehood. While I do not represent Puerto 
Rico, there is a very large Puerto Rican population in central 
Florida, and I am here because the people of Puerto Rico have 
the right to full and equal representation.
    Residents of Puerto Rico have laid down their lives in 
defense of American democratic values for over nine decades. In 
that time, they have never been given the chance to express 
their views about their political relationship with the United 
States by means of a fair, neutral and democratic process 
sponsored by Congress. This must change. Our history, our 
American history, is a history of progress toward equality, 
diversity and tolerance.
    Originally, our Constitution provided that black slaves 
counted as only three-fifths of a human being. We needed to 
fight a civil war to change that and to end that. In 1958, we 
admitted the first state, Hawaii, that was a state, most of 
whose people are not white. Now we have a Supreme Court nominee 
who is a Puerto Rican and we have our first African-American 
president. This is our progress toward equality, diversity and 
tolerance. The people of Puerto Rico deserve no less.
    In any case, we owe it to them to let them make their 
choice. This is what democracy means. This is what freedom 
means. Thank you for allowing my testimony before the 
Committee.
    [The prepared statement of Mr. Grayson follows:]

 Statement of The Honorable Alan Grayson, a Representative in Congress 
                       from the State of Florida

    Thank you for allowing me to testify before this committee on such 
an important matter. This legislation is about what is right and what 
is fair.
    Since 1898, residents of Puerto Rico have been deprived of full and 
equal political representation. Though its residents are American 
citizens, the island is not a state, and its residents have no equal 
voting representation in Congress. Given the choice, Puerto Ricans 
might opt to change this situation. Some in Puerto Rico might opt for 
statehood for the island, some might opt for independence, and some 
might opt for sovereign association of the status quo. But Puerto 
Ricans have never been invited by Congress to make this choice. They 
are American citizens, but deprived of voting rights.
    If Puerto Rico were a state, it would have six Representatives in 
Congress, instead of one who cannot vote on the floor of the House. If 
Puerto Rico were a state, it would have two Senators instead of none. 
If Puerto Rico were a state, the people there could help choose our 
President. Now they cannot. A host of policy decisions are made in 
Puerto Rico's name, on behalf of Puerto Rico's people, without their 
full and equal input or consent. That is deeply, deeply unfair.
    Whether Puerto Ricans decide in favor of statehood or not, there is 
an existing inequality that needs to be addressed. The people of Puerto 
Rico could have more representatives in Congress than they have today, 
with or without statehood.
    While I do not represent Puerto Rico, there is a very large Puerto 
Rican population in Central Florida. And I'm here because the people on 
the island of Puerto Rico have the right to be full and equal 
representation. Under this legislation, voters will be asked by 
Congress whether they wish to maintain Puerto Rico's present form. If a 
majority of voters cast their ballots in favor of a different political 
status, the government of Puerto Rico will be authorized to conduct a 
second vote among three options: independence, statehood, or 
sovereignty in association with the United States.
    Residents of Puerto Rico have laid down their lives in defense of 
American democratic values for over nine decades. In that time, they 
have never been given the chance to express their views about their 
political relationship with the United States by means of a fair, 
neutral, and democratic process sponsored by Congress. This must 
change. I am proud to be one of the original co-sponsors of the Puerto 
Rico Democracy Act of 2009.
    In any case, we owe it to the people of Puerto Rico to let them 
make this choice. This is what democracy means. This is what freedom 
means.
    Thank you for allowing this testimony before the committee.
                                 ______
                                 
    The Chairman. Thank you, gentlemen. The Chair would also 
ask unanimous consent at this point in the record to insert the 
statement of our Honorable Majority Leader of the House, Steny 
Hoyer, in support of this legislation.
    The Chair recognizes the Ranking Member, Mr. Hastings?
    Mr. Hastings. I will yield to the gentleman from Alaska.
    Mr. Young. I thank the gentleman for yielding, and thank 
you, Mr. Chairman, for this hearing. I want to thank the 
witnesses that are going to be on the panel. I notice we have 
the distinguished Governors and ex-Governors. This is not a new 
subject to this congressman. Everybody knows where I stand on 
this issue. I have promoted this bill, passed it through this 
Committee and onto the Floor of the House and when I got to the 
Floor the day of the vote, we had a 45-vote margin. By the time 
the vote was taken, it passed by one vote.
    I don't think the issue is, frankly, what we were trying to 
do. At that time, it was the English only language that really 
killed us and hopefully this won't come up again, but again, I 
thank the witnesses. This is something that is long overdue, 
and we should do it, give them a chance to do what is right, 
give us a chance to do what is right, and I thank you, Mr. 
Chairman, for having the hearing. At this time, though, I would 
like to ask unanimous consent to submit for the record Miriam 
J. Ramirez's statement, if I could.
    The Chairman. Sure. Without objection, so ordered.
    Mr. Young. And I yield back.

     Statement submitted for the record by Miriam J. Ramirez, MD, 
                         San Juan, Puerto Rico

    Honorable Nick J. Rahall, Chairman of the Natural Resources 
Committee, Honorable Members and staff,
    I have prepared this statement with the sincere hope that it is 
useful to the Members of this Committee and to other Members of 
Congress who need to understand the urgency of Self Determination for 
the territory of Puerto Rico; so as to improve the life of the U.S. 
Citizens who reside there.
    I am very disappointed that no time is available to hear mine and 
others' oral testimony during the National Resources Committee 
Hearings. Having spent the last 30 years of my life working directly 
with Congress and the various White House Administrations on this issue 
has given me the experience and knowledge to contribute positively to 
the process. I am therefore requesting that my statement be introduced 
for the record.
    I praise the efforts of Congressman Young and others, who organized 
and conducted hearings around the island during the Young Bill 
legislative process. Not only hundreds of my fellow citizens were able 
to express their views, but the process also served to educate all 
involved.
    I also urge this Committee to search and analyze the thousands of 
pages of documents, including remarkable and expensive studies made by 
the GAO, the CRS, the various Administrations and the testimonies of 
many in hearings, which have touched and reported on all issues 
regarding this process. (I am including a partial list of those at the 
end of my written statement).
    But, I am not too optimistic. Those who might want to help us will 
have to overpower the economic powers that benefit from the actual 
relationship of the U.S. with Puerto Rico. They have total control over 
our dear island, to the extreme of intervening in our elections and 
have participation designing our laws and government programs for their 
own convenience. I'm still trying to find out where the many millions 
of dollars came from, to lobby and campaign in Congress against the 
Young bill.
    I am totally convinced, and have tons of material to sustain my 
theory, that we would probably be more successful if we held these 
hearings and negotiated directly with the immense economic powers that 
control Puerto Rico. Perhaps we would be better served by testifying 
somewhere in Wall Street, or wherever it is that they have their U.S. 
tax shelters offices; be it Brussels or K Street.
    Since I know they are monitoring these hearings, I take the 
opportunity to offer these Corporations a better deal than what they 
have now, which results in bilking the U.S. Treasury. After losing 
Section 936, they now came up with the gimmick to operate under the IRS 
code as CFC's which gives them tax benefits for operating in a foreign 
country. Yes, that's right!
    Many of you don't know that CFC's operate in PR under the premise 
of being domestic Corporations established in a foreign country. And 
GUESS WHAT? The Territory of Puerto Rico is the foreign country they 
operate on! BINGO! So you wonder why the status question does not move 
in over a hundred years.
    While the U.S. Tax payer is unemployed, sweating it out and losing 
their homes, the U.S. actually rewards these corporations with tax 
benefits to operate in foreign countries and do business! So for them, 
it is convenient to convert Puerto Rico, as far as the IRS, to a 
foreign country! I have found their fingerprints all over every attempt 
at self determination we have had, so as to prevent a process that 
would convert Puerto Rico into a state. I beg Congress and: President 
Obama's Administration, to give incentives to the so called CFC's to do 
their operations in the 50 states plus the U.S. territories.
    Take some time out also to see what this gimmick is costing the 
U.S. Treasury! And while you're doing that, think of the real cost to 
the $10k per capita and double digit unemployment of the U.S. citizens 
in Puerto Rico.
    The CFC's were once known as the ``Corporate Welfare'' Section 936 
companies and they thought a bunch of ladies and old people from Puerto 
Rico who lobbied against them were harmless. I guess they never heard 
the phrase ``never underestimate your enemy.''
    Oh... and I just love to see the leaders, with their generously 
funded campaigns, from all parties, recently helping them to lobby to 
get better tax credits under said IRS Code. They justify their actions 
saying it helps the economy. If you believe that, I'd like to sell you 
a bridge I have in San Francisco.
    Have you been informed that all elected leaders in Puerto Rico, 
from all parties, have reached a very good consensus on that issue? 
That's right... those leaders who never seem to reach consensus on 
anything are now peaches and cream in a united front to raise the 
benefits for the CFC's!!
    But, relax! I have come up with a way to stop all the fighting and 
bring my BP down. After all, I am now a 68 years old retired medical 
doctor and lately I have had some difficulty raising the trillions of 
$$ needed to beat the CFC's which we beat before when they had a 
different disguise..
    Therefore, I will use this opportunity to formally ask these 
companies to join us in our quest for Statehood. I will personally work 
with them to negotiate a good enabling act that will allow them to 
operate with benefits until PR's economy comes at par with the rest of 
the states.
    I also advise them to think twice before refusing my offer... Some 
in Washington are very familiar with my persistence and determination.
REGARDING H.R. 2499:
    I have studied the language on the bill and consulted with many of 
my legal advisors and constitutional experts. We have come to the 
conclusion that it is probably the worst designed bill that has been 
introduced in Congress to provide for a process of Self Determination 
for Puerto Rico, We supported Congressman's Serrano's Bill, the Puerto 
Rico Democracy Act of 2007 and cannot understand why it was not re-
introduced.
    As it now appears, H.R.2499 promises to be the worst and most 
confusing bill ever presented thus far in Congress. If approved as it 
is, I am sure the people of Puerto Rico will not know, or make an 
informed decision on what they are voting for.
    I will assume that the bill in this language is the result of 
inexperience. However, I cannot discard that this might be a well 
planned concocted process, controlled by those who are served well 
economically by Puerto Rico's actual relationship, with the purpose of 
legalizing the status quo,
    In order to resolve the obvious defects of H.R. 2499, we suggest 
the following language to substitute language in H.R. 2499:
 SEC. 2. FEDERALLY SANCTIONED PROCESS FOR PUERTO RICO'S SELF-
        DETERMINATION.
    SEC. 2. (a) First Plebiscite--The Government of Puerto Rico is 
authorized to conduct a plebiscite in Puerto Rico. The 2 options set 
forth on the ballot shall be preceded by the following statement: 
`Instructions: Mark one of the following 2 options:
    `(1) Puerto Rico should continue to have its present form of 
political status. If you agree, mark here XX.
    `(2) Puerto Rico should have a different political status. If you 
agree, mark here XX.'.
 PROPOSED SUBSTITUTE LANGUAGE:
    SEC. 2. (a) Plebiscite--The Puerto Rico State Elections Commission 
shall conduct a plebiscite in Puerto Rico not later than December 31, 
2010. The two options set forth on the ballot shall be preceded by the 
following statement:
Instructions: Mark one of the following two options:
    (1)  Puerto Rico should continue to have a territorial relationship 
with the United States. If you agree, mark here __
    (2)  Puerto Rico should pursue a constitutionally-viable permanent 
non-territorial status. If you agree, mark here __
Reasoning behind decision to strike out Sections 2.a (1) and (2)
    The phrase ``present form of political status'' will confuse people 
in Puerto Rico into thinking that the present relationship has been 
defined as an acceptable permanent status by Congress.
    By changing the first question, Sec. a(2) makes sense.
 SEC. 2 (b) Procedure if Majority in First Plebiscite Favors Option 1--
        If a majority of the ballots in the plebiscite are cast in 
        favor of Option 1, the Government of Puerto Rico is authorized 
        to conduct additional plebiscites under subsection (a) at 
        intervals of every 8 years from the date that the results of 
        the prior plebiscite are certified under section 3(d).
PROPOSED SUBSTITUTE LANGUAGE:
 SEC. 2 (b) Procedure if Majority in First Plebiscite Favors Option 1--
        If a majority of the ballots in the plebiscite are cast in 
        favor of Option 1, the Government of Puerto Rico is authorized 
        to conduct additional plebiscites as deemed necessary.
Reasoning behind decision to strike out (b):
    Congress should not, by law, rule legislate intervals of eight 
years before the U.S. citizens of Puerto Rico can initiate a self 
determination process.

SEC. (c) Procedure if Majority in First Plebiscite Favors Option 2--If 
a majority of the ballots in a plebiscite conducted pursuant to 
subsection (a) or (b) are cast in favor of Option 2, the Government of 
Puerto Rico is authorized to conduct a plebiscite on the following 3 
options:
    (1) Independence: Puerto Rico should become fully independent from 
the United States. If you agree, mark here __
    (2) Sovereignty in Association with the United States: Puerto Rico 
and the United States should form a political association between 
sovereign nations that will not be subject to the Territorial Clause of 
the United States Constitution. If you agree, mark here XX.
    (3) Statehood: Puerto Rico should be admitted as a State of the 
Union. If you agree, mark here XX. completely and keep (1) and (3).
Reasoning behind decision to striking out all of Sec. C.(2):
    People already voted on the territorial relationship in the first 
question.
    A sovereign association with the U.S. cannot be negotiated into 
permanent status.
WARNING
    If the language for (Sec. c.2) remains as is, the following may be 
heard during the campaign pre-referendum process:
``Sovereignty in Association with the United States:''
    (WOW! That means I will keep getting food coupons, welfare, Pell 
grants, and unemployment and continue not paying taxes permanently? 
YEAH! I'm voting for that one!)
 ``Puerto Rico and the United States should form a political 
        association between sovereign nations ``
    (This gets better... that means I will keep my U.S. citizenship, 
with all its benefits! Is this permanent? Whadda you mean No? I don't 
believe you... Congress passed that bill!)
 On ....``That will not be subject to the Territorial Clause of the 
        United States Constitution. If you agree, mark here''.
    (Great! Then we will be under some other section of the U.S. 
Constitution! NO? Then why is that mentioned? ``.I don't believe you. 
Can someone from Congress clarify please?)
    Our heartfelt and sincere thanks to our friends and heroes, 
President George H.W. Bush, President Bill Clinton, President George W. 
Bush, and Congressmen Don Young, Dan Burton, Elton Gallegly, Jose 
Serrano, Bob Lagomarsino, and to our dedicated friends, Mr. Manase 
Mansur, Mr. Jeffrey Farrow, Mr. Andrew Card, and Mr. Ruben Barrales, 
who with many others, have dedicated an outstanding portion of their 
time trying to help the people of Puerto Rico.
    Oh, and if you decide to have a hearing to hear the people, please 
include me. In the meantime I am adding to my statement, a summary of 
historical data that I hope may be useful to you.
    Thank you,
    Miriam J. Ramirez MD
                                 ______
                                 
    Dr. Miriam J. Ramirez is Past Vice President of the New Progressive 
Party in Puerto Rico until her resignation in November of 2008. She was 
also National Committeewoman for the Republican Party in Puerto Rico, 
President of the Republican Women of Puerto Rico and former Puerto Rico 
State Senator (2000-2004).
    In addition; of founder and President of Puerto Ricans in Civic 
Action, a non-partisan organization working to secure political and 
economic equality for the four (4) million United States citizens 
resident on the island and who delivered 350,000 individually signed 
petitions to Congress to address the statehood issue.
    Since 1982, Dr. Ramirez spearheaded the grassroots lobbying efforts 
of the group in the United States Congress. She was instrumental in 
scaling back Section 936 tax exempt benefits in the Omnibus Budget 
Reconciliation Act of 1993. Tax Sparing benefits have played a 
significant role, and influence, in the political and economic life of 
Puerto Rico. She was also instrumental in the introduction and passage 
of H.R.856, also known as the Young Bill.
    Dr. Ramirez also spearheaded the effort to support of the 
permanence and training of the U.S. Armed Forces and the Navy in 
Vieques, Puerto Rico.
    Dr. Ramirez, is an Army brat, a widow, a mother of five children, 
cherishes six grandchildren and is retired from a gynecological medical 
practice located in Puerto Rico.

[GRAPHIC] [TIFF OMITTED] T0610.005

[GRAPHIC] [TIFF OMITTED] T0610.006

      HISTORICAL EVENTS REGARDING PUERTO RICO'S RELATIONSHIP 
                         WITH THE UNITED STATES
Treaty Of Paris: December 10, 1898
    Article II--Spain ceded Puerto Rico to the United States.
    Article IX--``In case they (Spanish subjects) they remain in the 
territory they may preserve their allegiance to the Crown of Spain by 
making before a court of record, within a year from the date of the 
exchange of ratifications of this treaty, a declaration of their 
decision to preserve such allegiance; in default of which declaration 
they shall be held to have renounced it and to have adopted the 
nationality of the territory in which the may reside. The civil rights 
and political status of the native inhabitants of the territories 
hereby ceded to the United States shall be determined by the 
Congress.''
First Organic Act Of Puerto Rico--1900
    Enacted temporarily to provide revenues and civil government for 
Puerto Rico, and for other purposes
    Section 7: ``That all inhabitants continuing to reside therein who 
were Spanish subjects on the eleventh day of April, eighteen hundred 
and ninety-nine (April 11, 1899) and then resided in Puerto Rico, and 
their children born subsequent thereto, shall be deemed and held to be 
citizens of Puerto Rico, and as such entitled to the protection of the 
United States, except such as shall have elected to preserve their 
allegiance to the Crown of Spain on or before the eleventh day of April 
nineteen hundred, in accordance with the provisions of the treaty of 
peace between the United States and Spain entered into on the eleventh 
day of April, eighteen hundred and ninety nine;''
Organic Act Of 1917, As Amended ( Jones Act )
    Section 5: That all citizens of Puerto Rico, as defined by section 
seven of the Act of April 12th, nineteen hundred...... and are not 
citizens of any foreign country, are hereby declared, and shall be 
deemed and held to be, citizens of the United States.''
Public Law 600--Approved by the 81st. Congress, July 3, 1950
                                ADDENDUM
            HISTORICAL CONGRESSIONAL AND EXECUTIVE ACTIONS 
                  REGARDING THE STATUS OF PUERTO RICO.
Roosevelt Administration: (1933-1945)
    As a result of a personal relationship between then Senator Munoz 
Marin (the ``creator'' of Commonwealth ) and a reporter by the name of 
Ruby Black, and in turn through this reporter's close relationship with 
Mrs. Roosevelt, they convinced President Roosevelt that in the 40's, 
Puerto Rico was on a verge of a revolution.
    Munoz also enlisted the support of then Secretary of Interior, 
Harold Ickes, who sent President Roosevelt a memo on March 3, 1943, 
urging him to announce the decision to order a revision of the Organic 
Act so as to provide for the election of a governor. He recommended 
Munoz Marin as the leader of the Puerto Rican group. Finally on March 
5, 1943, Pres. Roosevelt sends a letter to Congress urging the revision 
of the Organic Act.
Truman Administration: (1945-52)
    1947--Congress authorized the people of Puerto Rico to elect their 
own governor.
    1949--Under President Truman, Munoz Marin became the first elected 
governor of Puerto Rico. (By now Munoz Marin is the man with good ties 
to Washington.) He succeeds in convincing President Truman that the 
people of Puerto Rico be allowed to adopt a Constitution.
    1950--A bill, S. 3336, was introduced in Congress to authorize the 
people of Puerto Rico to adopt their own Constitution and to organize a 
local government.
        Senate Report No. 1779 and the House Report No. 2275 of S. 3336
         (Pgs. 2682-2683) ``It is important that the nature and general 
        scope of S. 3336 be made absolutely clear. The bill under 
        consideration would not change Puerto Rico's fundamental, 
        political, social and economical relationship to the United 
        States. Those sections of the Organic Act of Puerto Rico 
        pertaining to the political, social, and economic relationship 
        of the United States and Puerto Rico concerning such matters as 
        the applicability of United States laws, customs, internal 
        revenue, Federal judicial jurisdiction in Puerto Rico, Puerto 
        Rican representation by a Resident Commissioner, etc., would 
        remain in force and effect, and upon enactment of S. 3336 would 
        be referred to as the Puerto Rican Federal Relations Act. The 
        sections of the Organic Act which section 5 of the bill would 
        repeal are the provisions of the act concerned primarily with 
        the organization of the local executive, legislative, and 
        judicial branches of the government of Puerto Rico and other 
        matters of purely local concern''.

         (Pg. 2684) ``Puerto Rico is unincorporated territory''

         (Pg. 2684) Sen. Joseph C. O'Mahoney said: ``Nor will it in any 
        way preclude a future determination by the Congress of Puerto 
        Rico's ultimate status. The bill merely authorizes the people 
        of Puerto Rico to adopt their own constitution and to organize 
        a local government
<bullet>  1950--Public Law 600--Approved by the 81st. Congress July 3, 
        1950
<bullet>  1951--President Truman writes Governor Munoz:
        ``It gives me great pleasure to receive word from you that the 
        overwhelming majority of the voters of Puerto Rico desire to 
        draft their own constitution.''... ``It seems to me in fairness 
        to the people of Puerto Rico, that only when these economic and 
        social goals are clearly in sight can they decide as to what 
        ultimate relationship with the United States they desire.''
<bullet>  1952--Resolution 22:
        The PDP controlled Puerto Rico Constitutional Convention 
        purposely approves an erroneous translation of Commonwealth 
        into ``Free Associated State'' (Estado Libre Asociado).
<bullet>  1953--January 16: (THE UNITED NATIONS)
        Gov. Munoz exerts political pressure on President Truman, days 
        before Truman leaves the Presidency on January 19, 1953, to 
        inform the United Nations that Puerto Rico should not be 
        included among the non-self governing areas. Truman does this, 
        hours before leaving office, on the eve of Eisenhower's 
        swearing in ceremony.
Eisenhower Administration: (1953-1960)
    (This is exactly the moment in history when Munoz Marin and the 
Commonwealth Party, truly begins to misinform Washington and the people 
of Puerto Rico, regarding Puerto Rico's relationship with the US.)
        Puerto Rico's Resident Commissioner, at Munoz' urging, 
        introduces the Fernos-Murray bill to culminate Commonwealth. 
        Its pretensions were so outrageous that it was defeated in 
        Congress.
<bullet>  January 17, 1953:
        Governor Munoz sent a letter to the President Eisenhower, who 
        swore office on January 19th, where he misconstrues the facts 
        on Puerto Rico's relationship with the United States.

        Among other things, the letter said:.
<bullet>  ``On July 25, 1952, the Commonwealth of Puerto Rico was 
        formally installed in response to the wish of an overwhelming 
        majority of the people of Puerto Rico pursuant to a compact 
        between them and the Government of the United States. Puerto 
        Rico became a Commonwealth in free and voluntary association 
        with the United States.''
      <all>  False: The United States did not create a status in the 
nature of a compact with Law 600.
<bullet>  ``In the 1948 elections the three alternatives were fully 
        presented to the electorate by the three main political 
        parties''. The preference of the people, expressed in an 
        election which was as democratic as any in the world, was 
        unmistakably expressed in favor of the third alternative: a 
        free commonwealth associated with the United States on the 
        basis of mutual consent.
      <all>  False: No plebiscite on the status formulas was ever held 
in Puerto Rico until 1967. The 1948 election was a general election, 
authorized by Congress, where the people were given for the first time 
the opportunity to elect a governor in Puerto Rico.
<bullet>  ``Their choice is aptly summed up in the Spanish name for the 
        new body politic, ``Estado Libre Asociado. On July 3, 1950, the 
        81st. Congress enacted Public Law 600. This was, in effect, an 
        offer by the Congress to the people of Puerto Rico, which we 
        might accept or reject, to enter into a compact defining the 
        status of Puerto Rico and the relationship between the 
        respective communities.''
      <all>  False: The Constitutional Convention specified that Free 
Associated State would signify Commonwealth, not a compact of free 
association. No public hearings were held for Law 600, and the House 
and Senate Reports on Law 600 specifically say that Puerto Rico's 
status would not change.
<bullet>  ``Our status and the terms of our association with the united 
        States cannot be changed without our full consent''
      <all>  False: Law 600 in no way precluded a future determination 
by the Congress of Puerto Rico's ultimate status
<bullet>  ``The government of the Commonwealth of Puerto Rico will be 
        ready at all times to cooperate with the United States in 
        seeking to advance the purposes and principles of the United 
        Nations.''
      <all>  False: The United States citizens in Puerto Rico do not 
``Cooperate with the United States'' we are part of the United States 
and as such, have fought in all wars since World War I.
    Governor Munoz Marin, the man in charge of federal funds and 
programs since Roosevelt's New Deal, was too powerful in Puerto Rico 
for anyone to question his party's assertions.
Kennedy Administration: (1961-1963)
    Through Governor Munoz Marin, relationship with the Democrat Party 
and President John Kennedy, the PDP Party pushed for a ``new compact'' 
with greater powers for Puerto Rico.
    When this was proposed to the Kennedy Administration, Harold F. 
Reiss, a member of Robert Kennedy's staff said:--If that's what you 
want, ask for independence and we'll favor it.''
    (Puerto Rico--Whither Commonwealth? J. Garcia Pasalacqua, Orbis, 
Vol 15 #3, 1971) According to Pasalacqua, all efforts between 1959 and 
1969, to make permanent the creation of Commonwealth permanent, failed.
<bullet>  1961: THE KENNEDY MEMORANDUM
        The political relationship of the Munoz administration with 
        President Kennedy paid off. He issued a Presidential Memorandum 
        in 1961, based on information given to him by Munoz, which 
        called Puerto Rico's relationship with the United States 
        ``unique'' and in the nature of a ``compact.''
<bullet>  Johnson Administration: (1964-1968)
        As a mandate left from the Kennedy Administration, a Commission 
        on Status was created to look into the status issue. This 
        Commission was composed of Members of Congress and appointed 
        individuals from Puerto Rico.

        During the Congressional debate, the Congressmen noted in their 
        findings, that PR Law 95 would be a safety net for the people 
        since it provided for a plebiscite by petitions from the 
        people, if the people wanted a change in status. However, when 
        the Law calling for a plebiscite in 1967 was passed by the 
        local legislature, they derogated Law 95 so as to take away 
        that right from the United States citizens in Puerto Rico.
 Note: All of our efforts to have Law 95 reintroduced from 1980 to 
        1992, failed. We were blocked by the PDP's Resident 
        Commissioner at the time. This would give a powerful tool to 
        the UJS citizens in Puerto Rico to resolve the status issue
<bullet>  1967--A locally defined plebiscite was held in 1967 where, 
        even though commonwealth was defined with all the privileges of 
        a state of the Union without taxation, statehood received a 
        good number of votes. With extraordinary benefits without 
        taxation, Commonwealth won easily. The Republican statehood 
        party and many statehooders boycotted the process, claiming it 
        was stacked and would not solve the final status for Puerto 
        Rico. Under Luis Ferre, a group of statehooders bolted from the 
        Republican Party and participated in the plebiscite.
    From that moment on, the information on Puerto Rico became very 
confusing, both for members of the United States Congress and for the 
Executive branch. This alteration of the historical facts regarding the 
political relationship of Puerto Rico with the United States created 
the turbulent atmosphere from where Congress started new discussions in 
1985.
    The pro-statehood groups organized in a new political party, called 
the New Progressive Party (NPP), which won the 1968 elections and Luis 
Ferre became Governor. The NPP did not initiate any processes during 
the next 20 years to further the debate and achieve Congressional 
action to resolve the Status of Puerto Rico.
    It is no wonder that people in Washington and in Puerto Rico are 
confused about the relationship between Puerto Rico and the United 
States. This has been a well planned process, which goes back fifty 
years, to attempt to by pass the U.S. Constitution and the laws of the 
United States, to create a unique unconstitutional status for the 
territory of Puerto Rico, without the U.S. approval or the people 
voting for it.
 1967-1985 No significant status actions were made either by Congress 
        or the Executive.
Reagan Administration: (1981-1988)
<bullet>  1985--Puerto Ricans in Civic Action, a grassroots 
        organization organized in Puerto Rico which delivered 350,000 
        petitions for Statehood to the United States Congress. This 
        effort sparked the discussion and definite actions by Congress. 
        As a first response, Congressman Robert Lagomarsino and Senator 
        Bob Dole introduced similar bills in the House and Senate to 
        discuss statehood for Puerto Rico. Congressional action has 
        continued until today.
George H.W. Bush Administration: (1989-1992)
    <bullet>  President Bush mentioned Puerto Rico in his first State 
of the Union message at the request of Puerto Ricans in Civic Action.
    <bullet>  Senator Bennett Johnston introduced a bill in the Senate 
to discuss Puerto Rico's status. This effort failed when then Governor 
of Puerto Rico, Hernandez Colon, President of the Popular Democratic 
Party (PDP), bolted from the process because of the PDP's 
unsatisfaction with Congress' definition of Commonwealth.
    <bullet>  BUSH MEMORANDUM--President Bush signs a new Memorandum, 
derogating the Kennedy Memorandum, to clarify Puerto Rico's 
relationship with the United States to the various agencies.
William Clinton Administration: (1993-2000)
    <bullet>  Created the Task Force on Puerto Rico at the request of 
then Governor Pedro Rossello.
George W. Bush Administration: (2001-2008)
    <bullet>  TASK FORCE REPORT--President Bush continued the work 
begun by his predecessor and ordered the Task Force to deliver a final 
report. This was presented in December 2005 and is the topic of this 
Committee's hearing today.
                                 ______
                                 
    The Chairman. The gentleman from Puerto Rico?
    Mr. Pierluisi. Unless we are going to be posing questions, 
I am fine. I just want to thank both of you for appearing. It 
is my privilege to have both of you as cosponsors, and so this 
is a good day for Puerto Rico, and I am happy you are being 
part of it.
    The Chairman. Do any members wish to ask questions of their 
colleagues? What did you say, Don? If not, then gentlemen, we 
thank you very much. Of course, as our fellow colleagues, you 
are welcome to join the Committee if you wish and listen to the 
remaining witnesses and participate however fashion you wish.
    Mr. Burton. Mr. Chairman, as we leave the table, I would 
just like to say, I hope all of my colleagues get a chance to 
go and visit Puerto Rico and talk to the people down there. I 
think if they do, they will have a very positive attitude about 
Puerto Rico and what they really should be doing.
    The Chairman. The Chair will second those comments. OK, 
thank you, gentlemen. I will now call up panel number two, 
composed of our former dear colleague yet still dear friend and 
a member of this Committee on Natural Resources, now the 
Governor of Puerto Rico, Luis Fortuno. Governor, we are happy 
to have you with us today. We appreciate your many visits back 
to your old stomping grounds to work on this issue and your 
dedicated leadership on behalf of the people of Puerto Rico.
    We do have your prepared testimony. It will be made part of 
the record as if actually read, and you may proceed as you 
desire. Luis?

                 STATEMENT OF LUIS G. FORTUNO, 
                    GOVERNOR OF PUERTO RICO

    Mr. Fortuno. Thank you Mr. Chairman and certainly Ranking 
Member Hastings and the other members of the Committee for the 
opportunity to appear before this Committee to express my 
support of H.R. 2499, the Puerto Rico Democracy Act of 2009. 
Mr. Chairman, I appear before you as Governor of Puerto Rico. 
As you know, I am also President of the New Progressive Party, 
which advocates statehood as a final solution for the island's 
more than a century old status issue, but today, as Governor, I 
appear before this Committee in representation of all of the 
residents of the island.
    I have asked former Governor and former Resident 
Commissioner and long-time member of this Committee, Carlos 
Romero Barcelo, to present the official position of the New 
Progressive Party, and he will do so later on this morning. Mr. 
Chairman and Ranking Member Hastings, I want to commend both of 
you for your leadership in bringing forward the discussion of 
this fundamental issue of American democracy. I also want to 
thank, commend Resident Commissioner Pierluisi for his 
leadership in introducing this bill, thus bringing his 4 
million strong constituency of disenfranchised American 
citizens one step closer to true self-determination.
    As you know, the right of the U.S. citizens of Puerto Rico 
to decide their political future was one of my priorities when 
I served in Congress and on this Committee from 2005 until last 
year when I was elected Governor, and continues to be a top 
priority of my administration. For that reason, I was 
especially grateful to President Obama for his commitment, the 
commitment he expressed not just to me, but the people of 
Puerto Rico on the occasion of my inauguration as Governor, to 
work together to ensure that the issue of Puerto Rico's 
ultimate political status is finally resolved during the first 
four years of his administration.
    With your permission, Mr. Chairman, I would like to submit 
President Obama's letter for the record along with my entire 
written testimony.
    The Chairman. Without objection.
    Mr. Fortuno. Mr. Chairman, the reasons to support this bill 
are so self-evident they should not have to be argued. 233 
years after the Declaration of Independence, and 220 after the 
ratification of the U.S. Constitution, our nation continues to 
sanction an arrangement of governance over 4 million of its 
citizens that is abhorrent to the sacred principles enshrined 
in that declaration because of the anachronistic survival of 
the territory clause of that Constitution.
    That quandary of American democracy must come to an end. It 
is the right thing to do, and the time to do it is now. 
Whatever may have been the role of this territorial system in 
the birth and growth of our nation, the fact is that our 
founding fathers never intended it as a permanent way of 
governance for the Federal government over the citizens of the 
republic. More importantly, it clearly offends the values of 
American democracy in the 21st century, especially after 
Congress has allowed such an inherently undemocratic system to 
remain in place without expressly providing the governed the 
opportunity to voice their opinion.
    Puerto Rico has been a U.S. territory for 111 years and its 
residents have been U.S. citizens since 1917. Yet, Congress has 
never formally consulted us about our preferences regarding the 
island's political status. Not once. With this bill, it would. 
It should. It is the right thing to do. Though surely Puerto 
Ricans have expressed their views on the island's political 
status before. In fact, some members may think that is all we 
do when we come here.
    Indeed, for far too long all Congress has had to do is 
listen courteously from time to time, but it has never asked 
directly the 4 million U.S. citizens in Puerto Rico what they 
think, and asking makes all the difference in the world. It 
invests you in the process in a way that just listening does 
not. Puerto Ricans have made myriad contributions to the 
nation, both in peace and in wartime, as thousands of our sons 
and daughters have laid down their lives in defense of American 
democratic values for over nine decades.
    Yet, we have never been given the chance to express our 
views about our political relationship with the United States 
in the context of a fair, neutral and democratic process 
sponsored by Congress. This bill will, at long last, give us 
that chance. What could be more right? The bill provides for a 
just and impartial process of self-determination for Puerto 
Rico. The legislation does not exclude or favor any status 
option. It allows the people of Puerto Rico to maintain the 
island's present territorial status if they so choose.
    If they do, the bill provides for periodic plebiscites to 
ask the question again, thus underscoring the sense of the 
Congress that our territorial status is, by nature, 
nonpermanent. But if instead the people of Puerto Rico opt for 
change, then they must choose among the three constitutionally 
valid, permanent non-territorial options of statehood, 
independence, or sovereignty in association with the United 
States. No smoke or mirrors allowed.
    In short, the bill enables the people of Puerto Rico to 
express their wishes regarding the island's political status 
directly, in the ballot box, through a series of democratic 
votes that will ensure that the views of all the people are 
heard on this fundamental question. Mr. Chairman, over the 
years the congressional record has been filled with testimony 
that explains why it is both crucial and urgent for the people 
of Puerto Rico to finally resolve the political status issue.
    The reality is that the island's current status does not 
enable the people of Puerto Rico to fulfill their potential for 
social, economic and political development. Despite the influx 
of some $20 billion in overall Federal assistance every year, 
Puerto Rico's chronic economic underperformance in comparison 
to the national standard continues to be a source of bitter 
disappointment. This economic reality translates into human 
discouragement over unrealized dreams that continue to force 
thousands of my constituents every month to move to the 
mainland in search of better opportunities and equality.
    Thus, we have forged and overall and growing consensus in 
Puerto Rico that our current relationship with the United 
States--territorial, unequal in the rights and duties of its 
citizens, not fully democratic, not fully self-governing and 
not fully consensual--no longer serves either Puerto Rico or 
the U.S. well. But Mr. Chairman, the urgency over this matter 
is not only Puerto Rico's, but the nation's. As the enemies of 
our country seek to question our moral leadership around the 
world, America must ensure that it continues to lead by 
example, and it must do so boldly, as President Reagan did in 
Berlin when he challenged President Gorbachev to dismantle the 
Iron Curtain, or as President Obama has done recently reminding 
us repeatedly that America must live true to its values and 
that support for democracy begins right here at home.
    The importance of the U.S. leading by example by holding 
itself to the same standards it demands of others is no less 
applicable in the case of Puerto Rico. If anything, more so, 
precisely because Puerto Ricans are proud American citizens. 
Yet, the American citizens of Puerto Rico are separated from 
their counterparts in the States by a wall of political 
inequality built upon the foundation of our current territorial 
status.
    Mr. Chairman, it is time to tear down that wall. I urge the 
Committee to favorably consider H.R. 2499. It is the right 
thing to do, and the very least that the 4 million U.S. 
citizens of Puerto Rico deserve. Thank you very much, and thank 
you for your leadership, Mr. Chairman.
    [The prepared statement of Mr. Fortuno follows:]

              Statement of The Honorable Luis G. Fortuno, 
                        Governor of Puerto Rico

    Thank you, Mr. Chairman and Ranking Member Hastings for the 
opportunity to appear before this Committee to express my support of 
H.R. 2499, the Puerto Rico Democracy Act of 2009.
    Mr. Chairman, I appear before you as Governor of Puerto Rico. As 
you know, I am also the president of the New Progressive Party, which 
advocates statehood as the final solution for the island's more-than-a-
century-old status issue. But today, as Governor, I appear before this 
Committee in representation of all the residents of the island. I have 
asked former Governor and former Resident Commissioner--and long-time 
member of this Committee--Carlos Romero-Barcelo to present the official 
position of the New Progressive Party and he will do so later on this 
morning.
    Mr. Chairman and Ranking Member Hastings, I want to commend both of 
you for your leadership in bringing fore the discussion of this 
fundamental issue of American democracy. I also want to commend 
Resident Commissioner Pierluisi for his leadership in introducing this 
bill, thus bringing his four million-strong constituency of 
disenfranchised American citizens one step closer to true self-
determination.
    As you know, the right of the U.S. citizens of Puerto Rico to 
decide their political future was one of my priorities when I served in 
Congress and on this Committee from 2005 until last year--when I was 
elected Governor--and continues to be a top priority of my 
administration. For that reason, I was especially grateful to President 
Obama for the commitment he expressed not just to me, but to the people 
of Puerto Rico, on the occasion of my inauguration as Governor, to work 
together to ensure that the issue of Puerto Rico's ultimate political 
status is finally resolved during the first four years of his 
Administration.
    With your permission, Mr. Chairman, I would like to submit 
President Obama's letter for the record along with my entire written 
testimony.
    Mr. Chairman, the reasons to support this bill are so self-evident 
they should not have to be argued. Two hundred and thirty three years 
after the Declaration of Independence and two hundred and twenty after 
the ratification of the U.S. Constitution, our Nation continues to 
sanction an arrangement of governance over four million of its citizens 
that is abhorrent to the sacred principles enshrined in that 
Declaration because of the anachronistic survival of the Territory 
Clause of that Constitution. That quandary of American democracy must 
come to an end. It is the right thing to do. And the time to do it is 
now.
    Whatever may have been the role of the territorial system in the 
birth and growth of our Nation, the fact is that our Founding Fathers 
never intended it as a permanent way of governance by the federal 
government over the citizens of the Republic. More importantly, it 
clearly offends the values of American democracy in the 21st century, 
especially as Congress has allowed such an inherently undemocratic 
system to remain in place without expressly providing the governed the 
opportunity to voice their opinion.
    Puerto Rico has been a U.S. territory for 111 years and its 
residents have been U.S. citizens since 1917. Yet Congress has never 
formally consulted us about our preferences regarding the Island's 
political status. Not once. With this bill it would. It should. It is 
the right thing to do.
    Oh, surely Puerto Ricans have expressed their views on the Island's 
political status question before. In fact, some Members may think 
that's all we do when we come here. Indeed, for far too long all 
Congress has had to do is to listen courteously from time to time. But 
it has never asked directly the four million U.S. citizens in Puerto 
Rico what they think--and asking makes all the difference in the world. 
It invests you in the process in a way that just listening does not.
    Puerto Ricans have made myriad contributions to the Nation, both in 
peace and in wartime--as thousands of our sons and daughters have laid 
down their lives in defense of American democratic values for over nine 
decades. Yet, we have never been given the chance to express our views 
about our political relationship with the United States in the context 
of a fair, neutral and democratic process sponsored by the Congress. 
This bill will, at long last, give us that chance. What could be more 
right?
    The bill provides for a just and impartial process of self-
determination for Puerto Rico. The legislation does not exclude or 
favor any status option. It allows the people of Puerto Rico to 
maintain the island's present territorial status, if they so choose. If 
they do, the bill provides for periodic plebiscites to ask the question 
again, thus underscoring the sense of the Congress that our territorial 
status is, by nature, non-permanent. But if instead the people of 
Puerto Rico opt for change, then they must choose among the three 
constitutionally valid, permanent, non-territorial options of 
statehood, independence or sovereignty in association with the United 
States. No smoke and mirrors allowed.
    In short, the bill enables the people of Puerto Rico to express 
their wishes regarding the Island's political status directly, in the 
ballot box, through a series of democratic votes that will ensure that 
the views of all the people are heard on this fundamental question.
    Mr. Chairman, over the years the Congressional Record has been 
filled with testimony that explains why it is both crucial and urgent 
for the people of Puerto Rico to finally resolve the political status 
issue.
    The reality is that the island's current status does not enable the 
people of Puerto Rico to fulfill their potential for social, economic 
and political development.
    Despite the influx of some $20 billion in overall federal 
assistance every year, Puerto Rico's chronic economic under-
performance, in comparison to every national standard, continues to be 
a source of bitter disappointment. This economic reality translates 
into human discouragement over unrealized dreams that continue to force 
thousands of my constituents every month to move to the mainland in 
search of better opportunities and equality.
    Thus, we have forged an overall and growing consensus in Puerto 
Rico that our current relationship with the U.S.--territorial, unequal 
in the rights and duties of citizenship, not fully democratic, not 
fully self-governing and not fully consensual--no longer serves either 
Puerto Rico or the U.S. well.
    H.R. 2499 is about the right of the inhabitants of Puerto Rico to 
self-determination as a means to achieve a full measure of self-
government. But the issues before this Committee are not whether Puerto 
Rico is an ``unincorporated territory''; what is the meaning of the 
phrase ``in the nature of a compact'' included in Public Law 600; or 
whether the so-called ``enhanced Commonwealth'' would be subject to the 
Territory Clause of the Constitution.
    Puerto Rico's political status problem is neither complex nor 
difficult to solve. It only takes principled leadership.
    The fundamental issue that the Puerto Rico Democracy Act of 2009 
brings before Congress is the significance of American citizenship and 
it puts before you one simple question: did the framers of our 
Constitution intend American citizenship to be a source of equal 
rights?
    The action required from Congress will plainly derive from the 
answer--and one would hope not to find a single Member of Congress that 
says the answer is ``no'', or that ``it depends.''
    The answer was clearly and unequivocally ``yes'' when the Civil War 
was fought to end slavery...``yes'' when women were recognized the 
right to vote...and ``yes'' when the Supreme Court decided that 
separate was not equal.
    Clearly, the framers of the Constitution did not intend some 
American citizens to be deprived of rights that other American citizens 
enjoy. And yet Puerto Rico is a community of American citizens who are 
deprived of the most basic rights of citizenship in a representative 
democracy: the right to vote and the right to be represented in the 
political body that enacts the laws by which they must abide.
    Thus, the consequence of not taking action would be to renounce the 
principles of the Declaration of Independence and to devalue the rights 
recognized in the Constitution into a rhetorical expression. Is this 
Nation not dedicated to the proposition that all men are created equal? 
And are not all citizens guaranteed the equal protection of the laws?
    But, Mr. Chairman, the urgency over this matter is not only Puerto 
Rico's, but the Nation's. As the enemies of our country seek to 
question our moral leadership around the World, America must ensure 
that it continues to lead by example. And it must do so boldly--as 
President Reagan did in Berlin when he challenged President Gorbachev 
to dismantle the Iron Curtain. Or as President Obama has done recently 
reminding us repeatedly that America must live true to its values and 
that support for democracy begins at home.
    The importance of the U.S. leading by example by holding itself to 
the same standards it demands of others is no less applicable in the 
case of Puerto Rico; if anything, more so precisely because Puerto 
Ricans are American citizens. Yet the American citizens of Puerto Rico 
are separated from their counterparts in the States by a wall of 
political inequality built upon the foundation of our current 
territorial status. Mr. Chairman, it's time to tear down that wall.
    I urge the Committee to favorably consider H.R. 2499. It is the 
right thing to do...and the very least that the four million U.S. 
citizens of Puerto Rico deserve.
    Thank you very much.
                                 ______
                                 
    [The letter from President-Elect Barack Obama submitted for 
the record by Mr. Fortuno follows:]

                                    

[GRAPHIC] [TIFF OMITTED] T0610.001

[GRAPHIC] [TIFF OMITTED] T0610.002


    The Chairman. Thank you, Governor, for your superb 
testimony and the excellent points made therein. I would note 
as well that this is not the only issue that you come visit me 
or other Members of Congress. You as well as your predecessors 
have visited with me in my capacity as Vice Chairman of the 
Transportation and Infrastructure Committee as well, in regard 
to your unique transportation problems in Puerto Rico, and 
other issues, but your leadership and your dedication to the 
people of Puerto Rico are to be highly commended.
    I have no specific questions. I will recognize the 
gentleman from Washington, Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman, and Mr. President, 
good seeing you again. I just have two questions. The first one 
would be on the second plebiscite where this legislation 
eliminates the option of commonwealth, and I would just like 
you to respond to that. I know the Resident Commissioner did 
that, but I would like you to respond to that because I know it 
is something that is heavily discussed within Puerto Rico, so 
if you would respond to that, I would appreciate it.
    Mr. Fortuno. Sure. Let me tell you something. I believe 
that the reason why we come here is because the 4 million U.S. 
citizens that I represent deserve a fair playing field to 
express their feelings as to their status, and only Congress 
can provide for that, and what we have done is make sure that, 
first of all, understand whether the people of Puerto Rico want 
change or not. It may be that the voters will decide that they 
want to remain a territory.
    If they decide to do so, then so be it. However, if we 
decide for change, there are only three viable options, and 
actually, I refer you to this Committee's report dated April 
22, 2008, where actually it states very clearly that there are 
only three options acceptable under the U.S. Constitution. One 
is statehood and there are 50 extremely successful examples of 
that. There is independence, and there are over 200 examples of 
that. Some are successful, some are not.
    And then the third one is nationhood in free association 
with the United States, which means that it could be 
unilaterally terminable by either side, and that is very clear 
and actually three different administrations under Republicans 
and Democrats, the Justice Department, the GAO and this 
Congress have stated so clearly. I will go even further. In 
this bill, 2499, there are three options if we decide we want 
change. One is statehood, one is independence, as cited here, 
and then the other one is that association of two sovereign 
nations.
    The platform presented by the second largest party in 
Puerto Rico stated very clearly that they were moving in that 
direction, and actually, the language in this bill is taken 
from their platform. So, it is taken from what they proposed to 
the people of Puerto Rico less than a year ago. I would hope 
that they would not come here today to argue against what they 
proposed to the people of Puerto Rico less than 12 months ago. 
So we are being fair. These are exactly what the different 
three parties of Puerto Rico have proposed to the voters, and 
the voters, less than 12 months ago, very clearly stated that 
they wanted to express themselves directly in the ballot box 
through a plebiscite.
    That was one of the main issues in our campaign, and the 
other main opposition parties stated that they wanted a 
different vehicle for that, and Mr. Pierluisi and I clearly 
stated that if you voted for us, we would come here to ask for 
a congressionally mandated process.
    Mr. Hastings. I appreciate the President's response to 
that, and my second question, I know we have votes going on, 
H.R. 2499 removes the constitutional convention. The most two 
recent states that were introduced, as alluded to by our friend 
from Tennessee, Alaska and Hawaii did have that. That is not 
involved here, and I would just like your response on that 
also.
    Mr. Fortuno. Sure, and I thank you for that question. First 
of all, Mr. Pierluisi and I in our respective campaigns stated 
that we wanted the people to express themselves directly, 
through the ballot box, in the same way we do it here in every 
state, in the same way we have asked and promoted that the 
people of Iraq and Afghanistan do so. It is not through 
conventions, but through a direct vote. So in that sense, that 
was our commitment. We won by the largest margin in two 
generations in Puerto Rico, so that is the mandate that we got 
from the people of Puerto Rico.
    They want to express themselves. I saw a poll recently 
about this issue, and not only do most people want to express 
themselves directly, but actually, 74 percent believe that it 
is a very important issue. So, we are coming here, not because 
we have a special interest on this issue. It is because our 
constituents believe it is very important. Just imagine, these 
are 4 million U.S. citizens that actually, as Mr. Burton so 
eloquently put it this morning, actually we have contributed 
more of our men and women in uniform to war than any other 
state but one, and every time I would sit here and I would 
leave to visit our soldiers at Walter Reed, my question will 
actually come back to haunt me: Why couldn't these men or women 
in uniform, just for the fact that they are from Puerto Rico, 
they could not elect their Commander-In-Chief?
    That is morally wrong in the 21st century. If we are going 
around the world declaring that democratic values should be 
preserved, we must start at home, and this is the way to do it.
    Mr. Hastings. I thank you for your consideration and your 
time and thank you for your response.
    Mr. Fortuno. Thank you.
    The Chairman. As the gentleman from Washington noted, we do 
have votes going on now on the Floor of the House. I am going 
to have to excuse myself to attend that and then a mark-up in 
our Transportation Committee, and I am going to ask the 
gentlelady from Guam if she would be so kind as to continue the 
hearing so that we don't disparage our witnesses' time, and we 
will not recess but continue this hearing under the gentlelady 
from Guam's leadership.
    Mr. Fortuno. Thank you, Mr. Chairman.
    The Chairman. And before I leave, I will recognize the 
gentleman from Puerto Rico for his questions.
    Mr. Pierluisi. Thank you, Governor Fortuno. Thank you for 
your service to Puerto Rico, for your friendship and for your 
testimony this morning. I only have one question for you. 
Sometimes I am asked, why does the Federal government need to 
authorize this? Can't the Governor of Puerto Rico simply do a 
referendum in Puerto Rico? I am sure you have been asked the 
same thing. How do you respond to this?
    Mr. Fortuno. Sure. Thank you for that question, actually. I 
will say there are two main reasons why we come before this 
Committee to request for an opportunity to express ourselves 
directly. The first one is that there is a dispute in Puerto 
Rico as to what the options are, and I don't think that is news 
to anyone here. This Committee has been very clear. Actually, 
in its report dated April 22, 2008, it states what the options 
are, but there are some that, depending on the month or the 
year, may change their positions.
    So this will actually make sure that the voters will know 
and understand clearly what the options are, and that we will 
have a just and level playing field for everyone. Second, it 
will give Puerto Rican voters some assurance that the status 
choices before them will be meaningful and that the process 
will be meaningful, because we have had a couple of votes in 
the past that led us nowhere. This way, we would know that 
there is an engagement on the part of Congress to request our 
opinion and to continue that dialogue, and that has to happen 
and the only way for it to happen would be through a direct 
vote in a plebiscite that is sanctioned by this Congress.
    Mr. Pierluisi. Thank you.
    Ms. Bordallo. [Presiding.] I thank the gentleman from 
Puerto Rico and before we proceed, this is a good example here. 
We are not able to vote for final passage of a bill in the 
House of Representatives, so we have American Samoa here, we 
have Puerto Rico and Guam. So at this time as Chair, I would 
like to recognize the gentleman from American Samoa, Mr. 
Faleomavaega.
    Mr. Faleomavaega. I just wanted to offer my personal 
welcome to the Governor of Puerto Rico, my dear friend and 
former colleague of this Committee and a member of the House, 
Governor Fortuno.
    Mr. Fortuno. Thank you.
    Mr. Faleomavaega. And I also want to commend the gentleman 
from Puerto Rico, the Resident Commissioner, for his initiative 
in leadership, and what a beautiful display of true leadership 
to see that there is mutual understanding and working 
relationship between the Governor and our Resident 
Commissioner, to see that ultimately, the people of Puerto Rico 
must make this decision independently, not from any pressures, 
although I do respect that some of our colleagues have already 
stated publicly their preferences.
    This member, Madam Chair, does not have a preference. I 
really would hope that there is a sense of neutrality, so there 
is no--I don't know what is a better word, I am still learning 
how to speak English--interference, I suppose, undue influence 
I think is a better word, but that ultimately this decision 
must be made by the good people of Puerto Rico, and I think 
this legislation provides for that. So, again, I want to 
commend our good friend, the Resident Commissioner and Governor 
Fortuno.
    Always good to see you, and I also notice our former 
colleague and former Governor of Puerto Rico, Governor Romero. 
Good to see you as well. Thank you, Madam Chair.
    Mr. Fortuno. Thank you. If I may, it is great to see you 
again and I thank you for those kind words, and as Madam Chair 
was stating, it behooves all of us to understand why, 
representing U.S. citizens, yet when laws that apply to our 
citizens are voted on, we would not have a direct participation 
in that process. Perhaps 200 years ago it was something that 
could be worked out. Now, it is something that has to be 
resolved right away.
    Mr. Faleomavaega. Madam Chair, if I might note also, the 
Governor's comments, I never forget what the former delegate 
from Guam had said, the Brigadier General retired Marine Corps 
former member of the House, our good friend, Congressman Ben 
Blaz, he said, we are equal in war but not in peace, and he 
could not have said it better. Thank you, Governor. Thank you, 
Madam Chair.
    Mr. Fortuno. Thank you for those kind words.
    Ms. Bordallo. I thank the gentleman from American Samoa, 
and I wish to make very brief remarks before we continue on 
with the second panel. Again, welcome Governor. Buenos dias to 
everyone from Puerto Rico. I see many of my old friends, former 
Governors, in the audience and it is good to see you all again. 
First I would like to welcome you as a former colleague. 
Governor Fortuno, we worked on many projects here in the House 
of Representatives.
    In fact, we were co-chair of the Congressional Art Awards, 
and that is ongoing right now. I also add my welcome to all of 
the party leaders and legislators from Puerto Rico who have 
traveled to testify today and to share with us on behalf of the 
people of Puerto Rico their insights and views on this most 
important issue. I also commend our distinguished colleague, 
Mr. Pierluisi, for his diligent efforts in crafting H.R. 2499, 
and for working to advance it so quickly to the stage in the 
process.
    We are encouraged by the steadfast leadership and 
commitment of our Chairman, Mr. Rahall, in addressing the 
issues important to the territories. Guam, like Puerto Rico, 
was ceded to the United States from Spain under the Treaty of 
Paris in 1898, which ended the Spanish-American War. The 
Chamorro people of Guam, who I represent, like our brothers and 
sisters in Puerto Rico, are awaiting fulfillment of their 
political aspirations and an opportunity to fully exercise 
their rights to self-determination.
    This hearing affords us the opportunity, once again, to 
learn of the current views of the leaders of Puerto Rico on the 
status issue. Congress must be responsive to the views of the 
people of Puerto Rico, and this Committee holds the 
institutional obligation for the faithful discharge of the 
constitutional responsibility to address the political status 
of Puerto Rico and other territories under Article IV of the 
United States Constitution.
    Congress has historically given greater attention to 
addressing the status issue for Puerto Rico than it has for 
Guam. It is apparent, given this track record and the political 
reality, that Guam's status is unlikely to be addressed by 
Congress as long as the issue of status for Puerto Rico remains 
under consideration. So we are looking to you as leaders, and I 
urge this Committee to impartially and promptly respond to the 
views of the people of Puerto Rico on the issue, and I thank 
you, Governor, for testifying this morning.
    Mr. Fortuno. Well, thank you for those kind words and for 
your leadership as well, and you have always been a friend of 
Puerto Rico and I thank you for that, on many issues, not just 
this one. So again, we are in debt with you and with the people 
you represent.
    Ms. Bordallo. Thank you very much, Governor, and now I 
would like to thank you and excuse you, and we will bring on 
Panel 3, The Honorable Carlos Romero Barcelo, former Governor 
of Puerto Rico and a good friend of mine; The Honorable J. 
Hector Ferrer Rios, President of the Popular Democratic Party; 
The Honorable Ruben Berrios-Martinez, President of the Puerto 
Rican Independence Party. Thank you, gentlemen, for coming to 
Washington to testify on this very important issue, and at this 
time I would like to recognize The Honorable Carlos Romero 
Barcelo, former Governor of Puerto Rico from 1977 to 1982. 
Welcome to Washington, Governor.

              STATEMENT OF CARLOS ROMERO BARCELO, 
                 FORMER GOVERNOR OF PUERTO RICO

    Mr. Romero Barcelo. Thank you. Thank you, Madam Chairman, 
all the members of the Committee here, and our Resident 
Commissioner Pedro Pierluisi and Eni Faleomavaega and the 
Congressman from--I am sorry.
    Ms. Bordallo. Staff.
    Mr. Romero Barcelo. Oh, he is staff. OK. I didn't recognize 
him. It is a pleasure to be here and to have an opportunity to 
talk about a very, very dear subject to all of us in Puerto 
Rico, and as we discuss H.R. 2499, we must ask ourselves, why 
are we involved in seeking congressional action to sanction the 
self-determination process for the people of Puerto Rico? In 
the first place, because the vast majority of the people of 
Puerto Rico are not satisfied with the existing legal, 
constitutional, political and economic colonial relationship 
with our nation called commonwealth.
    In the second place, because we, the vast majority of 
American citizens in Puerto Rico, believe in democracy. We are 
tired of and upset with our undemocratic colonial, or 
territorial as you wish, relationship with the Nation of our 
citizenship, where we are denied the right to vote in national 
elections and to be fully represented in Congress. We have been 
disenfranchised American citizens for 92 years. It is time to 
end it.
    In the third place, because our so-called commonwealth 
relationship with the Federal government has been rejected by a 
majority of the voters in the last two referendums held in 1993 
and 1999. Therefore, we are now being ruled by the President 
and Congress without the consent of the majority of the people 
of Puerto Rico. And in the fourth place, because we are tired 
of being lied to and hoodwinked by the political leaders who 
advocate and defend the disenfranchisement of all American 
citizens in Puerto Rico, by those who cynically claim to 
believe in democracy, yet are willing to remain disenfranchised 
forever as long as they don't have to pay Federal income taxes, 
and by those who want to participate and be treated equally in 
all Federal programs but do not want to contribute to the U.S. 
Treasury as do our fellow citizens in the 50 states.
    H.R. 2499, like its predecessor, H.R. 900, seeks to move 
Congress and the President into more active roles in providing 
the 4 million disenfranchised American citizens in Puerto Rico 
with a process by which to achieve full sovereignty or to share 
the nation's sovereignty as equal partners with the 50 states 
of the union. In order to provide a process that will achieve 
the solution to Puerto Rico's unsolved status dilemma, we must 
start by officially unmasking commonwealth, so that the U.S. 
citizens of Puerto Rico will not be lied to and deceived once 
more.
    Our people, our Federal citizens of the 50 states and the 
world, have been lied to since our commonwealth constitution 
was adopted in 1952. As I have more fully explained in my 
column in Caribbean Business on June 15, 2009, a copy of which 
I attached to my statement, when the bills authorizing the 
drafting and adoption of our local constitution were in the 
process of being considered by Congress, Governor Munoz Marin 
wanted the name ``Free Associated State,'' which is the proper 
translation of ``Estado Libre Asociado,'' to be used in the 
bills to be considered by Congress, but his legal advisor and 
lobbyist, Abe Fortas, may he rest in peace, warned him that the 
name ``Free Associated State'' would never be approved by 
Congress because it was obviously misleading.
    Puerto Rico was not a state, nor free, nor associated with 
the United States. Puerto Rico was a United States territory 
subject to Article IV, Section III of the U.S. Constitution, 
better known as the territorial clause. On the other hand, the 
word ``commonwealth'' has no specific meaning and is applied to 
any body politic, such as a state, a territory, a province, a 
nation if you have it. As a matter of fact, we have four states 
in the union whose official name is commonwealth instead of 
state: Kentucky, Pennsylvania, Massachusetts and Virginia.
    Instead of clarifying the political and legal relationship, 
the name commonwealth opened the doors for the biggest 
political hoax ever perpetrated upon the people of Puerto Rico, 
upon our fellow American citizens, upon the Latin American 
countries and the United Nations. Puerto Rico was touted as 
having become a fully self-governing commonwealth. The truth 
is, the fact is that Puerto Rico didn't achieve any more powers 
or control of government affairs than it had as a territory. In 
the Commonwealth of Puerto Rico, the supreme law of the land is 
the Constitution of the United States, followed by Federal laws 
which prevail over our own local constitution and our own local 
laws.
    We are subject to the laws passed by Congress, laws dealing 
with taxation, minimum wage, unfair labor practices, commerce, 
health care, banking, transportation, communications, criminal 
acts, and many others which are enacted by Congress without our 
consent. However, they are fully applicable in Puerto Rico. 
Sine 1898, we have been and still are governed by the President 
and Congress without our consent. Before 1952, we were a colony 
by conquest as a result of the Spanish-American War 1898.
    Nothing shameful about that, but in 1952, the U.S. citizens 
in Puerto Rico were enticed and led to vote to become a colony 
by consent. By voting for a commonwealth, the people of Puerto 
Rico consented to the colonial relationship. The consent was 
obtained by misleading the people into believing that we are 
becoming a fully autonomous body politic. The commonwealth 
supporters who have continuously lied to and misled our people 
now demand consensus in the decolonization process.
    They demand consensus because they know that consensus will 
never be achieved. They will never agree to a true and clear 
definition of the legal, political and economic relationship 
between the 4 million American citizens in Puerto Rico and our 
fellow citizens in the 50 states. If they refuse to tell the 
people of Puerto Rico the truth, a consensus will never be 
achieved. To accept or insist on consensus is to become an 
accomplice to the lies perpetrated on our people since 1952. 
The commonwealth supporters object to the truth regarding the 
legal, political and economic relationship between Puerto Rico 
and the 50 states.
    They also object to telling the people the truth about what 
full sovereignty would mean in relation to our American 
citizenship and how Congress would react to the proposal of a 
sovereign nation fully populated by U.S. citizens not subject 
to congressional authority. In Congress, that is a no-no. If 
Lincoln had sought consensus between those who demanded the 
emancipation of slaves and those who defended slavery, the 
Emancipation Proclamation would never have been signed and the 
history of our nation would be very different from what it has 
been. Most probably, Barack Obama would not be our President 
today.
    If the President and Congress had sought consensus before 
the Civil Rights Act and the Voting Rights Act were enacted, 
would they have been considered and enacted when they were? Of 
course not. They were passed because the majority ruled, as it 
should be in a democracy. The proposals and arguments of the 
minority must be considered and analyzed, but to require a 
consensus is to turn our democratic system upside down and 
allow the minority to prevail by allowing them to veto the 
majority.
    No one can disagree that Puerto Rico needs to solve its 
status dilemma, but so does our nation. The United States 
cannot remain and act as an inspiration and example of 
democracy throughout the world while it maintains 4 million of 
its citizens disenfranchised and deprived of representation in 
their nation's Congress. Such a disenfranchisement and denial 
of representation is anathema to democracy. How can our nation 
spend billions of dollars to bring democracy to Iraq where it 
isn't appreciated and the majority probably are not sure they 
even want it, while it denies the right to vote and the right 
to representation to 4 million of its own citizens?
    Why is it right to impose democracy by force in Iraq while 
it is considered unfair to tell the truth to 4 million American 
citizens so that they can make an intelligent and realistic 
choice? In 1952, Puerto Rico's constitution was adopted and a 
referendum held in spite of the opposition of the then second 
largest political party, the Independence Party, which proposed 
independence for Puerto Rico. Did Congress require consensus 
then? No.
    In 1967, a plebiscite was held by the majority party, the 
Popular Party, and the three options, commonwealth, statehood 
and independence, were defined by the Popular Party. The 
opinions and proposals of the Statehood Republican Party and 
the Independence Party were disregarded. Both opposition 
parties boycotted the plebiscite. There was no consensus in 
1967. Now, the Popular Party demands consensus because it 
doesn't want any referendum which presents to the people the 
true facts of our relationship with our fellow citizens in the 
50 states.
    They know that if the naked truth is presented to our 
people, the so-called commonwealth will be soundly rejected. If 
the people want an association with the United States as the 
sovereign nation of Puerto Rico, that is a relationship to be 
negotiated after Puerto Rico becomes a separate sovereignty if 
the people so choose, not before. For the reasons set forth 
above, the New Progressive Party promised the people of Puerto 
Rico in its party platform submitted to the voters in 2008 that 
it would propose and promote a congressionally sanctioned 
plebiscite.
    The New Progressive Party's candidate for Governor, Luis 
Fortuno, won by a landslide with a majority of more than 
225,000 votes, the largest majority obtained by any candidate 
for Governor since our early 60s. The results were a clear 
mandate for his proposed socioeconomic alternatives and for 
fulfillment of the promise to promote a congressionally 
sanctioned status plebiscite. In further--to our party's and 
our government's commitment to propose a plebiscite sanctioned 
by Congress, our Resident Commissioner, Pedro Pierluisi, 
together with numerous Members of Congress, introduced House 
bill 2499.
    In representation of the New Progressive Party, which 
achieved a landslide victory in the House and Senate elections 
in Puerto Rico in 2008, we wholeheartedly support the proposal 
of a Federally sanctioned self-determination process proposed 
by Resident Commissioner Pedro Pierluisi in H.R. 2499. However, 
we propose that H.R. 2499 be amended to incorporate more 
precise and clear definitions of the alternatives to be 
submitted to the voters, such as those contained in H.R. 900, 
filed by Congressman Jose Serrano and Luis Fortuno, by the 
Chairman of the Committee, Nick Rahall, Don Young, Steny Hoyer 
and many others.
    The wording of the ballot proposed for the first 
plebiscite, and I am talking about the bill that was submitted, 
not the bill that came out of Committee, on page 4 of H.R. 900, 
it is more precise and clear than the language proposed in H.R. 
2499 for the ballot on the first plebiscite. The only change I 
would propose to the language in H.R. 900 would be to eliminate 
the page 4, the word ``basic,'' which precedes ``laws'' in the 
third line of paragraph, subparagraph 1.
    The paragraph would read as follows, ``Puerto Rico should 
continue the existing form of territorial status, as defined by 
the Constitution, laws and policies of the United States. If 
you agree, mark here.'' That would be the first proposal to the 
people of Puerto Rico. If they vote yes, it stays the same. If 
they vote no, well, then we would have another plebiscite. I 
propose that H.R. 900 as introduced be redrafted with minimum 
changes, such as eliminating Section 2 in the findings, 
starting on page 2, which is the one that gives a vote to those 
born in Puerto Rico.
    That clause cannot be worked out. It is impossible to work 
it out because some people were born there and they have never 
come back and they don't even think about Puerto Rico. Others 
were born there and they come here, they have lived here, they 
are interested, but they are not going to die in Puerto Rico, 
their children are not going to be in Puerto Rico so how could 
they vote on the future of Puerto Rico? And besides, 
logistically, it would be impossible.
    All definitions and proposals in H.R. 900 are very clear, 
concise and true. It presents the choices as they are, leaving 
little room for misleading and lying as to what is the reality 
and what is constitutionally, legally and politically 
achievable. It protects the U.S. Congress from becoming an 
accomplice to the lies and demagoguery of the previous 
plebiscites. If the explanation of the commonwealth status 
option is not politically or economically attractive, it is 
because it isn't.
    There is nothing attractive about the commonwealth if you 
look at it as what it is, and that is what they don't want to 
tell the people, what it is, which is a colony. Why should 
Congress allow them any more room to misrepresent their option? 
Now, the time has come for the United States to fulfill its 
responsibility and its commitment to put an end to colonial 
relationships wherever they exist and to bring the blessings of 
democracy to all throughout the world while respecting the 
sovereignty and the cultural differences.
    President Obama is committed. Congress can do no less. Why 
not begin at home with Puerto Rico? Thank you.
    [The prepared statement of Mr. Romero Barcelo follows:]

           Statement of The Honorable Carlos Romero Barcelo, 
                     Former Governor of Puerto Rico

    As we discuss H.R. 2499, we must ask ourselves--Why are we involved 
in seeking congressional action to sanction a ``self-determination 
process for the people of Puerto Rico''?
    In the first place, because the vast majority of the people of 
Puerto Rico are not satisfied with the existing legal, constitutional, 
political and economic colonial relationship with our Nation, called 
``Commonwealth''.
    In the second place, because we, the vast majority of American 
citizens in Puerto Rico, believe in democracy. We are tired of and 
upset with our undemocratic colonial (or territorial if you wish) 
relationship with the nation of our citizenship, where we are denied 
the right to vote in National elections and to be fully represented in 
Congress. We have been disenfranchised American citizens for 92 years. 
It's time to end it.
    In the third place, because our so called ``commonwealth'' 
relationship with the federal government has been rejected by a 
majority of the voters in the last two referendums held in 1993 and 
1999. Therefore, we are now being ruled by the President and Congress 
without the consent of the people of Puerto Rico.
    And in the fourth place, because we are tired of being lied to and 
hoodwinked by the political leaders who advocate and defend the 
disenfranchisement of all American citizens in Puerto Rico; by those 
who cynically claim to believe in democracy, yet are willing to remain 
disenfranchised forever, as long as they don't have to pay federal 
income taxes; and by those who want to participate and be treated 
equally in all federal programs, but do not want to contribute to the 
U.S. Treasury, as do our fellow citizens in the fifty (50) states.
    H.R. 2499, like its predecessor H.R. 900, seeks to move Congress 
and the President into more active roles in providing the 4,000,000 
disenfranchised American citizens in Puerto Rico, with a process by 
which to achieve full sovereignty or to share the Nation's sovereignty 
as equal partners with the 50 states of the Union.
    In order to provide a process which will achieve a solution to 
Puerto Rico's unsolved states dilemma, we must start by officially 
unmasking ``Commonwealth'', so that the U.S. citizens of Puerto Rico 
will not be lied to and deceived.
    Our people, our fellow citizens in the fifty states, and the world, 
have been lied to since our ``commonwealth'' constitution was adopted 
in 1952. As I have more fully explained in my column in Caribbean 
Business on June 15, 2009, (copy of which is attached hereto) when the 
bills authorizing the drafting and adoption of our local constitution 
were in the process of being considered in Congress, Gov. Munoz Marin 
wanted the name ``Free Associated State'', which is the proper 
translation of ``Estado Libre Asociado'', to be used in the bills to be 
considered by Congress. But, his legal advisor and lobbyist, Abe 
Fortas, warned him that the name ``Free Associated State'' would never 
be approved by Congress, because it was obviously misleading. Puerto 
Rico was not a state, nor free, nor associated. Puerto Rico was a 
United States Territory subject to article IV, sec. 3 of the U.S. 
Constitution, known as the territorial clause.
    On the other hand, the word ``commonwealth'' has no specific 
meaning and is applied to any ``body politic'', such as a state, 
territory or province.
    As a matter of fact, we have four states in the Union whose 
official name is ``Commonwealth'', instead of ``state''. They are: 
Kentucky, Pennsylvania, Massachusetts, and Virginia. Instead, of 
clarifying the political and legal relationship, the name 
``commonwealth'' opened the doors for the biggest political hoax ever 
perpetuated upon the people of Puerto Rico, our fellow American 
citizens, the Latin American countries and the United Nations.
    Puerto Rico was touted as having become a fully self-governing 
``commonwealth''. The truth of the fact is that Puerto Rico didn't 
achieve any more powers or control of government affairs than it had as 
a territory. In the ``Commonwealth of Puerto Rico'' the supreme law of 
the land is the Constitution of the United States, followed by federal 
laws, which prevail over our own local constitution and our local laws. 
We are subject to the laws passed by Congress. Laws dealing with 
taxation, minimum wage, unfair labor practices, commerce, health care, 
banking, transportation, communications, criminal acts and many others 
which are enacted by Congress without our consent, however, they are 
fully applicable in Puerto Rico.
    Since 1898 we have been, and still are, governed by the President 
and Congress without our consent. Before 1952 we were a colony by 
conquest, as a result of the Spanish American War in 1898. In 1952, the 
U.S. citizens in Puerto Rico were enticed and led to vote to become a 
colony by consent. By voting for ``commonwealth'', the people consented 
to the colonial relationship. The consent was obtained by misleading 
the people into believing that we were becoming a fully autonomous body 
politic.
    The ``Commonwealth'' supporters, who have continuously lied to and 
misled our people, now demand ``consensus'' in the decolonization 
process. They demand ``consensus'' because they know that ``consensus'' 
will never be achieved. They will never agree to a true and clear 
definition of the legal, political and economic relationship between 
the 4,000,000 American citizens in Puerto Rico and our fellow citizens 
in the fifty states. If they refuse to tell the people of Puerto Rico 
the truth, a ``consensus'' will never be achieved.
    To accept or insist on ``consensus'' is to become an accomplice to 
the lies perpetuated on our people since 1952. The commonwealth 
supporters object to the truth regarding the legal, political and 
economic relationship between Puerto Rico and the fifty states. They 
also object to telling the people the truth about what full sovereignty 
would mean in relation to our American citizenship, and how Congress 
would react to the proposal of a sovereign nation fully populated by 
U.S. citizens, not subject to Congressional authority. In Congress, 
that's a no-no.
    If Lincoln had sought ``consensus'' between those who demanded the 
emancipation of slaves and those who defended slavery, the Emancipation 
Proclamation would never have been signed and the history of our nation 
would be very different from what it has been. Most probably Barack 
Obama would not be our President today.
    If the President and Congress had sought ``consensus'' before the 
Civil Rights Act and the Voting Rights Act were enacted, would they 
have been considered and enacted when they were? Of course not. They 
were passed because the majority ruled, as it should be in a democracy.
    The proposals and arguments of the minority must be considered and 
analyzed. But, to require a ``consensus'', is to turn our democratic 
system upside down and allow the minority to prevail, by allowing them 
to veto the majority's proposal.
    No one can disagree that Puerto Rico needs to solve its status 
dilemma, but so does our Nation. The United States cannot remain and 
act as the inspiration and example of democracy throughout the world, 
while it maintains 4,000,000 of its citizens, disenfranchised and 
deprived of representation in their nation's Congress. Such a 
disenfranchisement and denial of representation is anathema to 
democracy.
    How can our Nation spend billions of dollars to bring democracy to 
Iraq, where it isn't appreciated and the majority probably is not sure 
they even want it, while it denies the right to vote and the right to 
representation to 4,000,000 of its citizens. Why is it right to impose 
democracy by force in Iraq, while it is considered unfair to tell the 
truth to 4,000,000 American citizens so that they can make an 
intelligent and realistic choice?
    In 1952, P.R.'s Constitution was adopted in a referendum held in 
spite of the opposition of the then second largest political party; the 
Independence Party, which proposed independence for Puerto Rico. Did 
Congress require ``consensus'' then? No.
    In 1967, a plebiscite was held by the majority party, the Popular 
Party, and the three options: commonwealth, statehood and independence 
were defined by the Popular Party. The opinions and proposals of the 
Statehood Republican Party and the Independence Party were disregarded. 
Both opposition parties boycotted the plebiscite. There was no 
consensus in 1967.
    Now the Popular Party demands ``consensus'', because it doesn't 
want any referendum which presents to the people, the true facts of our 
relationship with our fellow citizens in the fifty states. They know 
that if the naked truth is presented to our people, the so called 
``commonwealth'' will be soundly rejected.
    If the people want an association with the United States as the 
sovereign nation of Puerto Rico, that is a relationship to be 
negotiated after Puerto Rico becomes a separate sovereignty if the 
people so chose.
    For the reasons set forth above, the New Progressive Party promised 
the people of Puerto Rico in its party platform, submitted to the 
voters in 2008, that it would propose and promote a congressionally 
sanctioned plebiscite.
    The New Progressive Party's candidate for Governor, Luis Fortuno, 
won by a landslide with a majority of more than 225,000 votes. The 
largest majority obtained by any candidate for Governor since the early 
60's. The results were a clear mandate for his proposed socioeconomic 
alternatives and for fulfillment of the promise to promote a 
congressionally sanctioned status plebiscite.
    In furtherance of our party's and our Governor's commitment to 
propose a plebiscite sanctioned by Congress, our Resident Commissioner, 
Pedro Pierluissi, together with numerous members of Congress, 
introduced H.R. Bill 2499.
    In representation of the New Progressive Party, which achieved a 
landslide victory in the House and Senate elections in 2008, we 
wholeheartedly support the proposal of a federally sanctioned self-
determination process proposed by Resident Commissioner, Pedro 
Pierluissi, in H.R. 2499.
    However, we propose that H.R. 2499 be amended, or a substitute bill 
presented, which incorporates more precise and clear definitions of the 
alternatives to be submitted to the voters, such as those contained in 
H.R. 900, filed by Congressman Jose Serrano and Luis Fortuno, joined by 
the Chairman of this Committee, Nick Rahall, Don Young, Steny Hoyer and 
many others.
    The wording of the ballot proposed for the First Plebiscite on page 
4 of H.R. 900 is more precise and clear than the language proposed in 
H.R. 2449 for the ballot on the First Plebiscite. The only change I 
would propose to the language in H.R. 900 would be to eliminate on page 
4, the word ``basic'' which precedes ``laws'' in the third line of 
subparagraph (1). The paragraph would read as follows:
        ``(1) Puerto Rico should continue the existing form of 
        territorial status as defined by the Constitution, laws and 
        policies of the United States. If you agree, mark here------
        --.''
    The rest of bill H.R. 900 is not only clearer and more precise in 
the definitions and choices to be submitted to the voters, than H.R. 
2499, but it was discussed at length with the New Progressive Party 
leadership, and was enthusiastically endorsed. H.R. 2499 has just been 
recently distributed to the party leadership, but has not yet been 
discussed in detail.
    I propose that H.R. 900 be redrafted with minimum changes, such as 
eliminating ``Sec.2 Findings'' starting on page 2, line 8, up to page 4 
line 8. Eliminate also the word ``basic'' as indicated above, and 
eliminate subparagraph (2) of paragraph (d) on page 7, beginning on 
line 17, and ending on page 8, line 2. With the changes indicated 
above, H.R. 900 should be filed as a substitute bill for H.R. 2449.
    All definitions and proposals in H.R. 900 are clear, concise and 
true. It presents the choices as they are, leaving little room for 
misleading and lying as to what is the reality and what is 
constitutionally, legally and politically achievable. It protects the 
U.S. Congress from becoming an accomplice to the lies and demagoguery 
of the previous plebiscites. If the explanation of the ``commonwealth'' 
status option is not politically or economically attractive is because 
in reality, it isn't. Why should Congress allow them any room to 
misrepresent their option?
    No. The time has come for the United States to fulfill its 
responsibility, and its commitment to put an end to colonial 
relationships wherever they exist and to bring the blessings of 
democracy to all throughout the world while respecting the sovereignty 
and the cultural differences. President Obama is committed. Congress 
can do no less. Why not begin at home, with Puerto Rico.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Governor, for your 
impassioned testimony, and I would now like to recognize The 
Honorable J. Hector Ferrer Rios, President of the Popular 
Democratic Party.

          STATEMENT OF HECTOR FERRER RIOS, PRESIDENT, 
                    POPULAR DEMOCRATIC PARTY

    Mr. Ferrer Rios. Good morning, Madam Chairwoman, 
Commissioner Pierluisi and distinguished members of this 
Committee. My name is Hector Ferrer. I come before you as 
President of the Popular Democratic Party, House Minority 
Leader, and on behalf of thousands of Puerto Ricans who will be 
denied their natural right of self-determination if H.R. 2499 
becomes law. Along with my oral testimony, I am submitting for 
the record our previously written testimony to the Committee, 
sent electronically on Monday, June 22, 2009.
    H.R. 2499 is not a self-determination process. How can it 
be when the process has been carefully crafted to favor 
statehood in a highly irregular two-round plebiscite whereby 
the commonwealth option is put for ratification or rejection, 
alone and unnamed in the first round? Their intention is 
obvious. Commonwealth has been the winner of all plebiscites 
held in the past 60 years. Statehood cannot beat commonwealth 
in a face-to-face contest, but this scheme, wherein 
commonwealth is faced against a merger of pro-statehood and 
independence forces, would create a narrow majority against 
commonwealth.
    The second round will be then a runoff election, but not in 
the traditional sense of a runoff between the two most 
supported options in the first round. It would be a runoff 
between the historically second and third places finishers and 
a third option that is not supported by any principal party on 
the island. This second round is conceived only to construct an 
artificial majority for statehood. Members of the Committee, 
this bill is not a self-determination process.
    It is a well designed scheme to force statehood upon Puerto 
Rico without a fair and democratic process. Madam Chairwoman, 
H.R. 2499 doesn't comply with two important commitments made to 
the people of Puerto Rico. First of all, on February 12, 2008, 
President Barack Obama wrote to the former Governor Acevedo 
Vila that he as President, and I quote, ``will work closely 
with the Puerto Rican government, its civil society, and with 
Congress to create a genuine and transparent process for self-
determination that will be true to the best traditions of 
democracy. As President, I will actively engage Congress and 
the Puerto Rican people in promoting this deliberative, open 
and unbiased process that may include a constitutional 
convention or a plebiscite, and my administration will adhere 
to a policy of strict neutrality on the Puerto Rican status 
matter. My administration will recognize all valid options to 
resolve the questions of Puerto Rico's status, including 
commonwealth, statehood and independence.''
    President Obama rejected the White House Task Force 
report's conclusion. Second, the 2008 Democratic National 
Convention Platform states on page 57 that the White House and 
Congress will work with all groups in Puerto Rico to enable the 
question of Puerto Rico's status to be resolved during the next 
four years. So my question to you, distinguished members of the 
Committee, is this an open and an unbiased process? In what 
page or section of H.R. 2499 the people of Puerto Rico can 
choose the valid option of commonwealth, as promised by 
President Barack Obama and defined by those who support it?
    And finally, when was my party invited to create a genuine 
and transparent process for self-determination that will be 
true to the best traditions of democracy? Madam Chairwoman and 
distinguished members of the Committee, I invite you to start 
all over again. As President of the Popular Democratic Party, I 
encourage Congress to insist upon a real self-determination 
mechanism that will not force statehood upon the people of 
Puerto Rico.
    I instead support a process that will provide productive 
and democratic ballot options. H.R. 2499 does not do that. 
Nevertheless, if the determination of this Committee and of 
Congress is to favor statehood, I will make things simpler for 
you. I propose only one simple plebiscite. Let the people of 
Puerto Rico decide, statehood, yes or no. Governor Fortuno 
recently said, it is time for them to consult us. Grant 
Governor Fortuno's wish. Let the people of Puerto Rico decide, 
statehood, yes or no.
    I will also insist, respectfully, that you outline 
statehood to the people of Puerto Rico. Tell us if you are 
willing to commit to statehood on a first vote with a simple 
majority, or if it is going to be like the process held by 
Hawaii and Alaska that took at least three elections and a 
supermajority of the vote of almost 90 percent. Tell us, the 
people of Puerto Rico, if we will be admitted as the first 
Spanish-speaking state, if the seven representatives from 
Puerto Rico to this Congress will be allowed to express 
themselves in their native language, or tell a country where 
less than 15 percent of its people are fully bilingual if we 
need to comply with English as our primary language, like 
Louisiana, Oklahoma and Mexico do.
    Explain to us that with statehood, our tax burden will 
increase. Tell us that we will lose our international 
representation in sports and cultural activities, and also, 
explain to us, if the route to statehood is through becoming an 
incorporated territory for an unknown amount of years. Tell us 
that Alaska fought for almost 40 years before being granted 
statehood, and Hawaii for almost 60 years after being accepted 
as an incorporated territory.
    H.R. 2499 is the continuous effort started 10 years ago in 
this same Congress with what was known as the joint bill. When 
the bill didn't prosper, the same characters that come here 
today went to Puerto Rico and approved a plebiscite defining 
commonwealth without our participation. Their goal was to 
provoke an artificial majority in favor of statehood, and with 
the intention of disenfranchising the majority of the voters of 
Puerto Rico.
    The result of that attempt was that 50.3 percent of the 
voters rejected all the definitions and voted for none of the 
above. Statehood lost again. To avoid a repetition of that 
humiliating defeat, Governor Fortuno's recently appointed 
judges to our Supreme Court have, in a three-week-old decision, 
also disenfranchised that 50.3 percent of the votes by 
eliminating that option. So, Madam Chairwoman and distinguished 
members of the Committee, what I am saying is that it is a 
shame that people come here to this Congress asking for 
statehood based on disenfranchising the majority of the voters.
    What a way of asking for statehood. On behalf of myself and 
thousands of American citizens who support the full development 
of the autonomous character of the commonwealth based on the 
principles of sovereignty, association and joint 
responsibilities within a compact with the United States, 
respectfully request to be included in this process and not 
excluded. The Popular Democratic Party believes in a political 
association with dignity, not colonial or territorial, between 
Puerto Rico and the United States, based in the right of the 
people of Puerto Rico to decide its fundamental issues and the 
permanence and irrevocability of our American citizenship.
    Therefore, distinguished Members of Congress, I urge you 
not to approve H.R. 2499 and instead begin a true self-
determination process for the people of Puerto Rico. Thank you 
very much.
    [The prepared statement of Mr. Ferrer Rios follows:]

Statement of The Honorable Hector J. Ferrer Rios, President of Popular 
   Democratic Party, and House Minority Leader, Puerto Rico House of 
                            Representatives

    Dear Chairman Rahall:
    My name is Hector Ferrer Rios, President of the Popular Democratic 
Party and House Minority Leader.
    H.R. 2499 simply appears to call for a non-binding expression by 
the Puerto Rican people as to their political status preference. Beyond 
its seemingly innocuous facade, lies an unusual and unprecedented two 
round voting scheme designed to predetermine the outcome by producing 
an artificial statehood majority.
    Fundamentally, plebiscites and referenda are democratic mechanisms 
for determining by direct vote a people's own destiny. These are 
methods with which to identify, and subsequently implement, the 
people's most favored avenues of politico-constitutional evolution--as 
selected by those peoples themselves. And the common denominator of any 
such democratic exercise is fairness. The legislator's fair and 
equitable treatment of the options is paramount to assuring the 
legitimacy of any such self-determination process.
    To the extent the legislative authority decides to sub-categorize 
the options to be presented to the people, in order to configure the 
voting system in a way that would assure a particular outcome, it is 
imposing its bias and annulling the legitimacy of the process.
    That is what H.R. 2499 attempts. In it, the drafters have 
arbitrarily separated what they regard a ``territorial and 
impermanent'' option from purportedly ``non-territorial and permanent'' 
ones. Following that rationale, the bill calls for an initial round 
limited to a yes or no vote on the ``current political status'', 
followed by a second round among all other options if the current 
political status fails to achieve 50% of the vote in the first round. 
Such action renders the process patently biased.
    Historical background illustrates what is at play here. Back in 
1993, after a landslide victory in the general elections, the pro-
statehood governor quickly called for a plebiscite expecting his 
personal popularity to translate into a similar win for statehood. The 
governor allowed each of the parties to decide how their status option 
would appear defined on the ballot. To his surprise, Commonwealth won 
with 48.6% of the vote to statehood's 46.5% and independence's 4.4.%.
    Pledging not to let that happen again, governor Rossello called for 
a new plebiscite in 1998, but this time he drafted the Commonwealth's 
definition himself and in such unpalatable terms that the Commonwealth 
party could not endorse it. To his total dismay, the Commonwealth party 
asked its supporters to vote instead under a ``none of the above'' 
option sanctioned by local courts. Commonwealth status d/b/a ``none of 
the above'' prevailed again with 50.3% of the vote against statehood's 
46.5%, independence's 2.5%. A new option called Free Association got a 
meager 0.3%.
    After the 1998 humiliation, the statehood party went back to the 
drawing board and came up with a scheme that now takes the form of H.R. 
2499. The 1993 plebiscite taught them that statehood can never beat 
Commonwealth in a face to face contest and the 1998 plebiscite showed 
them that the Commonwealth supporters are not easily excluded from the 
process. And so the idea of a two round vote.
    The pro-statehood Resident Commissioner from Puerto Rico reasonably 
thinks that splitting the vote should result in a huge win for 
statehood. That conclusion is supported by history. Take the 1993 
plebiscite results mentioned above. Commonwealth was the people's top 
choice. If that vote had been divided into two rounds, as H.R. 2499 
proposes, Commonwealth's otherwise 48.6% victory would have meant a 
rejection, and the people would have been forced to choose between what 
were, and probably still are, their second and third choices. Based on 
those 1993 numbers, it is reasonable to conclude that statehood, 
although not the people's preferred choice, would achieve an 
overwhelming majority of the votes in the second round.
    The statehood party has already made sure that the ``none of the 
above'' option can no longer foil a statehood majority as it did in 
1998. ``None of the above'' was a judicially mandated option based on 
constitutional grounds regarding the individual's right to vote. But 
the current pro-statehood governor had the opportunity to change the 
Puerto Rico Supreme Court's ideological composition by filling three 
vacancies; and just a few ago, a 4-3 majority, without having a case or 
controversy on this issue before it, quickly reversed the earlier 
ruling requiring this option.
    H.R. 2499 is now the final piece of the statehood party's assault 
on Puerto Rico's right to self-determination. It is crude, unabashed, 
undemocratic gimmickry.
    The two round setup has its genesis in heavily flawed conclusions 
regarding the current Commonwealth status found in a Presidential Task 
Force Report.
    Executive Order 13183 (dated December 23, 2000), as amended by 
Executive Order 13319 (dated December 3, 2003), created a President's 
Task Force on Puerto Rico's Status (the ``Task Force'') to ``report on 
its actions to the President as needed, but no less than once every 2 
years, on progress made in the determination of Puerto Rico's ultimate 
status.'' Pursuant to such directive, the Task Force issued its initial 
report on December 22, 2005, and the first follow up addendum report on 
December 21, 2007 (hereinafter the ``Task Force Reports''). A final 
report is due this coming December 2009.
    Ever since the publication of the initial Task Force Report in 
December 2005, the Popular Democratic Party openly challenged the Task 
Force Reports' main legal conclusions; namely, that despite the 
establishment of Commonwealth status in 1952, Puerto Rico remains to 
this day an unincorporated territory of the United States subject to 
Congress's plenary powers under the Territory Clause of the U.S. 
Constitution <SUP>1</SUP> and as such can be unilaterally ceded or 
conveyed to any other sovereign country and, moreover, that the U.S. 
citizenship of the people of Puerto Rico is likewise revocable by 
Congress. For the past three and a half years, the PDP has forcefully 
contended that the authors of the Task Force Reports blatantly failed 
to substantiate their obtuse legal conclusions and inexcusably 
overlooked the robust and consistent corpus of U.S. Supreme Court 
precedent to the contrary.
---------------------------------------------------------------------------
    \1\ [sic]
---------------------------------------------------------------------------
    During the 2008 Presidential Campaign, President Obama explicitly 
rejected the legal conclusions contained in the Task Force Reports. In 
a letter addressed to then Governor Anibal Acevedo Vila (the 
``President's Letter'') (dated February 12, 2008), President Obama 
challenged head-on the Task Force's irrational proposition that Puerto 
Rico (along with the 4 million Puerto Ricans inhabiting the island) can 
be ceded or transferred to a foreign country at Congress's whim.
        I reject the assertion in reports submitted by a Presidential 
        Task Force on December 22, 2005 and December 21, 2007 that 
        sovereignty over Puerto Rico could be unilaterally transferred 
        by the United States to a foreign country.
    Moreover, the president contended that,
        The American citizenship of Puerto Ricans is constitutionally 
        guaranteed for as long as he people of Puerto Rico choose to 
        retain it. The erroneous legal conclusions put forward by the 
        Task Force, as referenced above, are derailing Puerto Rico's 
        self-determination process into a profound, unnecessary and 
        unfair state of confusion. Such conclusions have now been used 
        to legitimize and recommend a highly irregular two-round self-
        determination process, whereby the current Commonwealth option 
        (in light of its alleged territorial nature) is put on for 
        ratification or rejection in the first round, and, assuming 
        rejection, then statehood and independence face it off in a 
        second and definitive last round. This is contrary to the norm 
        in all two-round voting processes where electors vote all 
        status options in the first round, and then vote again in a 
        face-off between the two most voted formulas in the final 
        round.
    As the subsequent sections show, President Obama was right in 
rejecting the legal conclusions rendered by the Task Force Reports 
because they run afoul the most basic values of substantive justice and 
equality under the law; all of which have been at the heart of American 
constitutionalism since the early days of the Republic--as were so 
eloquently echoed in the President's Letter.
A. Congress no longer holds plenary powers over Puerto Rico and 
        consequently cannot unilaterally cede Puerto Rico.
    The Task Force Reports embrace the untenable proposition that the 
Federal Government can unilaterally cede Puerto Rico, if it so wishes, 
to any other sovereign (e.g. Venezuela, Cuba or Iran) without the 
consent of the people of Puerto Rico as an exercise of its plenary 
powers over the island under the Territory Clause of the U.S. 
Constitution. Specifically, the authors of the Task Force Reports 
conclude that: ``[t]he Federal Government may relinquish United States 
sovereignty by granting independence or ceding the territory to another 
nation--'' Ignoring the canon of legal construction articulated through 
the years by the U.S. Supreme Court to the effect that Puerto Rico shed 
its status as an unincorporated territory with the attainment of 
Commonwealth status in 1952, the drafters of the Task Force Reports 
claim that such event did not change Puerto Rico's relationship with 
the United States. Such posturing, in turn, rests on the perverse 
notion that Congress intentionally deceived the people of Puerto Rico 
when it entered into the compact elevating Puerto Rico's status from an 
unincorporated territory to a Commonwealth, and instead retained 
plenary powers--including the authority to unilaterally cede or even 
sell Puerto Rico to any foreign nation.
    President Obama was right in rebuffing such untenable conclusion. 
Neither the 2005 Task Force nor its 2007 sequel identifies any legal 
authority substantiating a contention so incendiary that flies in the 
face of U.S. Supreme Court jurisprudence (blithely ignored by the 
drafters of the Task Force Reports) that has explicitly recognized that 
the creation of the Commonwealth of Puerto Rico was effected through a 
compact wherein Congress relinquished powers over Puerto Rico making it 
sovereign over matters not ruled by the U.S. Constitution.
    Not surprisingly, the federal courts have forcefully rejected the 
argument that would render Public Law 600 an entirely illusory 
legislative gesture. The U.S. Court of Appeals for the First Circuit 
addressed the issue in one of its first judicial interventions shortly 
after the Commonwealth's creation. Rejecting the contention that Public 
Law 600 was merely another Organic Act, Chief Judge Magruder, writing 
for the First Circuit, concluded that, ``We find no reason to impute to 
the Congress the perpetration of such a monumental hoax.''
    If, as suggested in the Task Force Reports, the compact entered 
into pursuant to Public Law 600 did not transform Puerto Rico's 
political status, then the United States perpetrated a ``monumental 
hoax'' not only on the people of Puerto Rico, but also on the General 
Assembly of the United Nations. Specifically, in 1953 the United States 
advised the United Nations that it would no longer report on Puerto 
Rico as a ``non self-governing territory'' under Article 73(e) of the 
United Nations Charter.''
    In the Cessation Memorandum, the United States formally advised the 
United Nations that the incremental process of the ``vesting of powers 
of government in the Puerto Rican people and their elected 
representatives'' had ``reached its culmination with the establishment 
of the Commonwealth of Puerto Rico and the promulgation of the 
Constitution of this Commonwealth on July 25, 1952.'' The Cessation 
Memorandum explicitly declares that, ``[w]ith the establishment of the 
Commonwealth of Puerto Rico, the people of Puerto Rico have attained a 
full measure of self-government.''
    In describing the ``principle features of the Constitution of the 
Commonwealth,'' the Cessation Memorandum noted that the new 
Constitution, ``as it became effective with the approval of the 
Congress, provides that ``[i]ts political power emanates from the 
people and shall be exercised in accordance with their will, within the 
terms of the compact agreed upon between the people of Puerto Rico and 
the United States of America.''
    Mason Sears, the United States Representative to the Committee on 
Information from Non-Self-Governing Territories, explained the legal 
significance under American law of the fact that Puerto Rico's 
Constitution resulted from a compact,
        A most interesting feature of the new constitution is that it 
        was entered into in the nature of a compact between the 
        American and Puerto Rican people. A compact, as you know, is 
        far stronger than a treaty. A treaty usually can be denounced 
        by either side, whereas a compact cannot be denounced by either 
        party unless it has the permission of the other.
    Moreover, Frances Bolton, U.S. Delegate to the United Nations' 
Fourth Committee, made it plain clear that while ``the previous status 
of Puerto Rico was that of a territory subject to the absolute 
authority of the Congress of the United States in all governmental 
matters [...] the present status of Puerto Rico is that of a people 
with a constitution of their own adoption, stemming from their own 
authority, which only they can alter or amend [...]''
    The United Nations accepted at face value the representations made 
by the United States. The General Assembly recognized, ``the people of 
the Commonwealth of Puerto Rico, by expressing their will in a free and 
democratic way, have achieved a new constitutional status.'' Resolution 
748, VIII (Nov. 3, 1953). On approving the Cessation Memorandum on 
Puerto Rico, the General Assembly further stated that,
        [I]n the framework of their Constitution and of the compact 
        agreed upon with the United States of America, the people of 
        the Commonwealth of Puerto Rico have been invested with 
        attributes of political sovereignty which clearly identify the 
        status of self-government attained by the Puerto Rican people 
        as that of an autonomous political entity.
    The U.S. Supreme Court has confirmed that view. In Calero Toledo v. 
Pearson Yacht Leasing Co., 416 U.S. 663 (1974), the Supreme Court motu 
proprio addressed the issue of whether Puerto Rico statutes were State 
statutes for purposes of the Three-Judge Court Act (28 U.S.C. 
Sec. 2281). The issue was of great import, for the predominant reason 
behind the law was requiring that issues about the constitutionality of 
State statutes be resolved before a three judge district court panel in 
order to avoid unnecessary interference with the laws of a sovereign 
State of the Union. That ``predominant reason'' did not exist in 
respect of territories because they do not enjoy the attributes of 
sovereignty of States within the U.S. federal structure. For that 
reason, the Supreme Court had already ruled in Stainback v. Mo Hock Ke 
Lok Po, 336 U.S. 368 (1949) that the legislative enactments of the 
Territory of Hawaii were not State statutes for purposes of Judicial 
Code Sec. 266 (predecessor to 28 U.S.C. Sec. 2281). Similarly, the 
First Circuit had arrived at the same conclusion with respect to Puerto 
Rico in Benedicto v. West India & Panama Tel. Co., 256 F.417 (1st Cir. 
1919).
    Stainback and Benedicto, of course, were decided before Puerto Rico 
became a Commonwealth, so the issue had to be examined afresh and the 
opportunity finally arouse in Calero Toledo. As the Calero Toledo Court 
narrates, Puerto Rico's Commonwealth status was preceded by a series of 
Organic Acts,
    Following the Spanish-American War, Puerto Rico was ceded to this 
country in the Treaty of Paris, 30 Stat. 1754 (1898). A brief interlude 
of military control was followed by congressional enactment of a series 
of Organic Acts for the government of the island. Initially these 
enactments established a local governmental structure with high 
officials appointed by the President. These Acts also retained veto 
power in the President and Congress over local legislation.
    The creation of the Commonwealth, as the Court suggests by voice of 
Justice Brennan, followed a materially different procedure,
    By 1950, however, pressures for greater autonomy led to 
congressional enactment of Pub. L. 600, 64 Stat. 319, which offered the 
people of Puerto Rico a compact whereby they might establish a 
government under their own constitution. Puerto Rico accepted the 
compact, and on July 3, 1952 Congress approved, with minor amendments, 
a constitution adopted by the Puerto Rican populace [...] Pursuant to 
that constitution the Commonwealth now ``elects its Governor and 
legislature; appoints its judges, all cabinet officials, and lesser 
officials in the executive branch; sets its own educational policies; 
determines its own budget; and amends its own civil and criminal code'' 
(citing Leibowitz, The Applicability of Federal Law to the Commonwealth 
of Puerto Rico, 56 GEO. L. J. 219, 221 (1967)).
    The Calero Toledo Court recognized that the Commonwealth's creation 
effected ``significant changes in Puerto Rico's governmental 
structure.'' It then quoted at length, and with apparent approval, from 
Chief Judge Magruder's observations in Mora v. Mejias, 206 F.2d 377 
(1st Cir. 1953) that ``Puerto Rico has thus not become a State in the 
federal Union like the 48 States, but it would seem to have become a 
State within a common and accepted meaning of the word--It is a 
political entity created by the act and with the consent of the people 
of Puerto Rico and joined in union with the United States of America 
under the terms of the compact.''
    Two years later, in Examining Board v. Flores de Otero, 426 U.S. 
572 (1976), the Supreme Court again examined the juridical nature of 
Puerto Rico's Commonwealth status and held that for purposes of Section 
1983 jurisdiction the island enjoyed the same attributes of sovereignty 
as a State of the Union. The Court found that ``the purpose of Congress 
in the 1950 and 1952 legislation was to accord to Puerto Rico the 
degree of autonomy and independence normally associated with States of 
the Union [...].'' The Court reasoned, moreover, that through the 
establishment of the Commonwealth, ``Congress relinquished its control 
over the organization of the local affairs of the island and granted 
Puerto Rico a measure of autonomy comparable to that possessed by the 
States.''
    Six years later, in Rodriguez v. Popular Democratic Party, 457 U.S. 
1 (1982), the issue before the Supreme Court was whether a local 
political party could be granted statutorily the power to fill an 
interim vacancy in the Puerto Rican Legislature. Arguing for the PDP, 
former Justice Abe Fortas wrote,
        The Commonwealth of Puerto Rico, as this Court has stated, 
        ``occupies a relationship to the United States that has no 
        parallel in our history''. Califano v. Torres 435 U.S. at 3, 98 
        S.Ct. at 907, fn. 4. That it is an ``autonomous political 
        entity,'' ``in the framework of the compact agreed upon with 
        the United States'' has been recognized by formal action and 
        resolution of the United Nations on the basis of 
        representations of the United States.
Fortas added,
        There can be no doubt that the Commonwealth of Puerto Rico has 
        ``freedom from control or interference by the Congress in 
        respect of internal government and administration...'' Mora v. 
        Mejias, 115 F.Supp. 610 at 612 (D.P.R. 1953) (Three-Judge 
        Court), quoted in Calero-Toledo v. Pearson Yacht Leasing Co., 
        416 U.S. at 674, 94 S.Ct. at 2087. The Compact between the 
        United States and the people of Puerto Rico incorporated the 
        repeal of most of the provisions of the Organic Act of 1917, 
        including repeal of the Bill of Rights contained therein and 
        the provisions for local government. The provisions of the 
        Organic Act that were continued by the Compact were directed to 
        the interrelationships of Puerto Rico and the United States: 
        Affirmation that Puerto Ricans are citizens of the United 
        States; that Puerto Rico is free of United States Internal 
        Revenue laws; that trade between the two shall be free of 
        export duties; and that the rights, privileges and immunities 
        of citizens of the United States shall be respected in Puerto 
        Rico.
    The Court, agreeing with the PDP's position, accorded the same 
deference to the Puerto Rico Legislature that it accords the States, 
``Puerto Rico, like a state, is an autonomous political entity, 
`sovereign over matters not ruled by the Constitution.''' Based on the 
principle that fundamental constitutional rights apply to the people of 
Puerto Rico, the Court concluded that ``it is clear that the voting 
rights of Puerto Rico citizens are constitutionally protected to the 
same extent as those of all other citizens of the United States.'' In 
reaching this conclusion the Court cited approvingly the following 
excerpt from a decision authored by then Circuit Judge Stephen Breyer 
in Cordova & Simonpietri Ins. Agency Inc. v. Chase Manhattan Bank N.A., 
649 F. 2d 36, 39-42 (1st Cir. 1981),
        [In 1952] Puerto Rico's status changed from that of a mere 
        territory to the unique status of Commonwealth. And the federal 
        government's relations with Puerto Rico changed from being 
        bounded merely by the territorial clause, and the rights of the 
        people of Puerto Rico as United States citizens, to being 
        bounded by the United States and Puerto Rico Constitutions, 
        Public Law 600, the Puerto Rican Federal Relations Act and the 
        rights of the people of Puerto Rico as United States citizens.
    Between Flores de Otero (1976) and Rodriguez (1982), the Supreme 
Court delivered a very short per curiam decision that has been 
misinterpreted by anti-Commonwealth sectors in Puerto Rico, by some 
federal courts and by the Task Force. In Harris v. Rosario, 446 U.S. 
651 (1980), the Supreme Court held that Puerto Rico could receive less 
assistance than the States under the Aid to Families with Dependent 
Children Program. In a two paragraph decision, the Court found that 
Congress pursuant to the Territory Clause of the U.S. Constitution 
could treat Puerto Rico differently than the States so long as there is 
a rational basis for its actions.
    The Task Force Report interprets Harris as holding ``that Puerto 
Rico remains fully subject to congressional authority under the 
Territory Clause.'' But that reading confuses what Harris is about and 
ignores that the U.S. Supreme Court has clearly recognized that Puerto 
Rico enjoys full sovereignty over its internal affairs. If the Supreme 
Court said in 1976 that ``Congress relinquished its control over the 
organization of the local affairs of the island and granted Puerto Rico 
a measure of autonomy comparable to that possessed by the States'' 
<SUP>2</SUP> and then in 1982 that Puerto Rico is ``sovereign over 
matters not ruled by the Constitution'' <SUP>3</SUP> it is then wrong 
to interpret Harris in 1980 saying that Puerto Rico remains fully 
subject to congressional authority under the Territory Clause. These 
two notions are antithetical. So either the Supreme Court was twice 
contradicting itself, or Harris is being misread. We strongly believe 
the latter is the case.
---------------------------------------------------------------------------
    \2\ [sic]
    \3\ [sic]
---------------------------------------------------------------------------
    The Supreme Court did not contradict itself. Harris deals with a 
federal assistance program, a legislative area within Congress' 
exclusive purview. It does not deal with the internal affairs of the 
Commonwealth. In ruling that Congress could treat Puerto Rico 
differently than a State for purposes of federal fund allocations, the 
Supreme Court was not suggesting that Congress retained its plenary 
powers over Puerto Rico under the Territory Clause. But there is even 
more to Harris.
    The Supreme Court does say in Harris that Congressional power over 
Puerto Rico arises from the Territory Clause. That is a reflection of 
the Constitution's vintage. Its textual configuration reflects the 
conditions of its time. While Congress enjoys plenary powers pursuant 
to the Territory Clause, the Supreme Court has long recognized that 
Congress can relinquish such authority. It may do so, for instance, by 
admitting a Territory as a State, in which case Congressional power 
over the former Territory is transformed from plenary to limited under 
U.S. Constitution Article 1. While Puerto Rico did not become a State 
on July 25, 1952, Congress did relinquish (as the Supreme Court has 
consistently found) the same powers over Puerto Rico that it 
relinquishes when admitting a Territory as a State of the Union. In the 
case of the Commonwealth of Puerto Rico, while the remaining 
Congressional powers are exercised pursuant to the Territory Clause, 
for lack of a more specific source of constitutional authority, those 
powers are no longer plenary.
    The courts and the U.S. Justice Department before 1990 have long 
recognized that the territorial power, like other federal powers, 
demands flexibility on the part of Congress and hesitation on the part 
of those who like the authors of the Task Force Reports would confine 
the exercise of those powers to rigid or arbitrary categories. In 1963 
the U.S. Justice Department saw this very clearly, and quoted a 
memorandum written by future Justice Felix Frankfurter in 1914 when he 
was a law officer in the U.S. Department of War:
        The form of the relationship between the United States and [an] 
        unincorporated territory is solely a problem of statesmanship. 
        History suggests a great diversity of relationships between a 
        central government and [a] dependent territory. The present day 
        shows a great variety in actual operation. One of the great 
        demands upon creative statesmanship is to help evolve new kinds 
        of relationship[s] so as to combine the advantages of local 
        self-government with those of a confederated union. Luckily, 
        our Constitution has left this field of invention open. The 
        decisions in the Insular cases mean this, if they mean 
        anything; that there is nothing in the Constitution to hamper 
        the responsibility of Congress in working out, step by step, 
        forms of government for our Insular possessions responsive to 
        the largest needs and capacities of their inhabitants, and 
        ascertained by the best wisdom of Congress.
    Eight years later, the Office of Legal Counsel, under then-
Assistant Attorney General William H. Rehnquist, expounded on 
Frankfurter's functionality argument:
        [T]he Constitution does not inflexibly determine the incidents 
        of territorial status, i.e., that Congress must necessarily 
        have the unlimited and plenary power to legislate over it. 
        Rather, Congress can gradually relinquish those powers and give 
        what was once a Territory an ever-increasing measure of self-
        government. Such legislation could create vested rights of a 
        political nature, hence it would bind future Congresses and 
        cannot be ``taken backward'' unless by mutual agreement.
    That is precisely what Flores de Otero holds with respect to Puerto 
Rico.
    A thorough reading of Harris, moreover, reveals that Congress' 
relinquishment of powers over Puerto Rico went beyond matters of 
internal governance. Even with regards to the allocation of federal 
funds, the Supreme Court makes clear in Harris that Congress cannot 
exercise unrestricted powers over Puerto Rico. It can only treat Puerto 
Rico differently to the extent there is a rational basis for doing so. 
If Congress had plenary powers over Puerto Rico, it would not need to 
have a rational basis to discriminate.
    The Task Force Reports' erroneous reading of Harris constitutes 
their most fatal flaw. It leads their authors to make the colossal 
mistake of asserting that, ``[a]s long as Puerto Rico remains a 
territory of the United States, Congress may not impair the 
constitutional authority of later Congresses to alter the political 
powers of the government of Puerto Rico by entering into a covenant or 
compact with Puerto Rico or its residents.'' In the same way that a 
future Congress cannot de-admit Alaska, Hawaii or Texas, or revoke the 
independent status of the Philippines, it cannot reclaim powers 
relinquished to the people of Puerto Rico.
    The federal circuit courts of appeals have also recognized that 
Puerto Rico is no longer merely an unincorporated territory. See e.g. 
United States of America v. Marco Laboy-Torres, 553 F. 3d 715, 721 (3rd 
Cir. 2009) (``Puerto Rico possesses `a measure of autonomy comparable 
to that possessed by the States.'''); Emma Rodriguez v. Puerto Rico 
Federal Affairs Administration 435 F. 3d 378, 379-80 (DC Cir. 2006) 
(``Through popular referendum, the people of Puerto Rico approved 
Public Law 600's proposed allocation of power--supreme national power 
to the U.S. Congress and full local control to the Puerto Rican 
government--and then adopted a--constitution.''); Romero v. United 
States, 38 F. 3d 1204 (Fed. Cir. 1994) (``Congress approved the 
proposed Constitution of the Commonwealth of Puerto Rico, which 
thenceforth changed Puerto Rico's status from that of an unincorporated 
territory to the unique one of Commonwealth.''); United States v. 
Quinones, 758 F.2d 40 (1st Cir. 1985) (``The authority of the federal 
government emanated thereafter from the compact itself. Under the 
compact between the people of Puerto Rico and the United States, 
Congress cannot amend the Puerto Rico Constitution unilaterally, and 
the government of Puerto Rico is no longer a federal government agency 
exercising delegated power.'').
    There is scattered case law asserting that Puerto Rico still is 
subject to the plenary powers of Congress under the Territory Clause. 
In U.S. v. Sanchez, 992 F.2d 1143, 1151-53 (11th Cir. 1993) the 
Eleventh Circuit disagreed with consistent First Circuit case law and 
held that Puerto Rico is not a separate sovereign for purposes of the 
dual sovereignty exception to the Double Jeopardy Clause. That patently 
wrong view is supported by Judge Torruella out of the First Circuit, 
who espoused it in his dissident opinion in United States v. Lopez 
Andino, 831 F.2d 1164 (1st Cir.1987) and then slipped a line to that 
effect writing for the majority in Davila-Perez v. Lockheed Martin 
Corp., 202 F.2d 464, 468 (1st Cir. 2000) (holding that Puerto Rico is a 
territory under the Defense Base Act). All of these cases rely on the 
same erroneous interpretation of Harris v. Rosario. These cases have 
been wrongly decided and must be discarded.
    Both the constitutional history of the relationship between the 
United States and Puerto Rico and the relevant Supreme Court cases 
confirm that Puerto Rico's Commonwealth status is predicated upon a 
binding compact, created through the mutual consent of the sovereign 
parties and revocable, likewise, only by the mutual consent of such 
parties.
    The Task Force Reports' blatantly outrageous conclusion that the 
United States can unilaterally cede the Commonwealth of Puerto Rico, 
without the consent of its people, to any foreign country of its 
choosing is not only superficial and highly un-American but also 
without any legal merit.
B. The U.S. Citizenship of the People of Puerto Rico.
    The drafters of the Task Force Reports also adhere to the unfounded 
notion that Congress can rescind the U.S. citizenship of the 4 million 
Puerto Ricans born in the island. The Task Force Reports adamantly 
suggest that ``[i]ndividuals born in Puerto Rico are citizens of the 
United States by statute (rather than by being born or naturalized in 
the United States),'' and that as such ``if Puerto Rico were to become 
an independent sovereign nation, those who chose to become citizens of 
it or had U.S. citizenship only by statute would cease to be citizens 
of the United States, unless a different rule were prescribed by 
legislation or treaty [...].''
    It is a well-settled principle of federal law that the citizenship 
rights of people born in Puerto Rico are protected by the 
constitutional guarantees of due process and equal protection of the 
laws emanating from the U.S. Constitution.
    The history of the U.S. citizenship of the Puerto Rican people 
begins with the 1899 Treaty of Paris, which provided that, ``[t]he 
civil rights and political status of the native inhabitants of the 
territories hereby ceded to the United States shall be determined by 
Congress.'' The Foraker Act, enacted on April 12, 1900, put an end to 
military rule and established a civil government in the island. But it 
was not until the enactment of the 1917 Jones Act that Puerto Ricans 
were granted U.S. citizenship. The 1940 Nationality Act, moreover, 
defined ``United States'' as ``the continental United States, Alaska, 
Hawaii, Puerto Rico and the Virgin Islands of the United States,'' and 
determined that the people who were born ``in the United States'' were 
citizens at birth. The 1952 Immigration and Nationality Act, from which 
most Puerto Ricans today trace their U.S. citizenship, tracked the 
language of the 1940 statute.
    The Citizenship Clause of the Fourteenth Amendment states, ``All 
persons born or naturalized in the United States, and subject to the 
jurisdiction thereof, are citizens of the United States and of the 
State wherein they reside.'' By its terms, the text of the Fourteenth 
Amendment extends American citizenship to persons born or naturalized 
``in the United States.'' The Commonwealth of Puerto Rico is certainly 
``in the United States,'' as specifically acknowledged in the 
Immigration and Nationality Act and elsewhere. Thus, the people of 
Puerto Rico clearly qualify as ``constitutional'' or ``Fourteenth 
Amendment'' citizens.
    The Supreme Court has interpreted the Fourteenth Amendment as 
granting irrevocable constitutional citizenship to those persons born 
within a jurisdiction such as Puerto Rico. In the Slaughter-House 
Cases, 83 U.S. (16 Wall.) 36 (1872), the Supreme Court directly 
rejected the claim that only citizens of a State are United States 
citizens under the Fourteenth Amendment. The Court found inter alia 
that ``[...] persons may be citizens of the United States without 
regard to their citizenship of a particular State, and--by making all 
persons born within the United States and subject to its jurisdiction 
citizens of the United States.''
    In light of the Slaughter-House Cases and the Supreme Court's 
common-law interpretation of the Citizenship Clause, it is clear that 
persons born ``within the United States''--such as the people of Puerto 
Rico--are constitutional U.S. citizens. In Afroyim v. Rusk, 387 U.S. 
253, 262 (1967), the Supreme Court explained that Congress cannot 
revoke Fourteenth Amendment citizenship,
        [The Fourteenth Amendment] provides its own constitutional rule 
        in language calculated completely to control the status of 
        citizenship: ``All persons born or naturalized in the United 
        States--are citizens of the United States...'' There is no 
        indication in these words of a fleeting citizenship, good at 
        the moment it is acquired but subject to destruction by the 
        Government at any time. Rather the Amendment can most 
        reasonably be read as defining a citizenship which a citizen 
        keeps unless he voluntary relinquishes it.
    Thus, Afroyim makes clear that Congress may not rescind or revoke 
the U.S. citizenship of people born in Puerto Rico. The Task Force 
Reports' contrary conclusion is patently incorrect. The Supreme Court 
has only recognized one revocable variant of U.S. Citizenship. Both the 
1940 Nationality Act and 1952 Immigration and Nationality Act, as well 
as subsequent federal statutes, contain provisions regarding persons 
born outside the United States and its outlying possessions of parents 
one of whom is a citizen of the United States. They are regarded as 
U.S. Citizens, but if they fail to reside in the United States or its 
outlying possessions for a prescribed period or periods of time between 
given ages, they automatically, by statute, lose that citizenship.
    Quite clearly, the people of Puerto Rico do not fall under this 
latter category. Puerto Ricans are born in the United States for 
purposes of the Fourteenth Amendment. Their citizenship, thus, is 
irrevocable.
    Rather than designing a process whereby all three options--namely 
commonwealth, statehood and independence--are voted on side-by-side, 
H.R. 2499, in accordance with the Task Force Report, adopts a rigged 
two-step process designed to kill the commonwealth option in the first 
round of voting.
    The intentional exclusion of the Commonwealth option from the 
ballot is particularly problematic because it is based on unviable 
legal arguments (as discussed in extenso in Section II above). And, 
moreover, because it constitutes an openly discriminatory and 
politically-motivated maneuver lacking any legitimate, let alone 
compelling, governmental interest. It runs afoul the voters of Puerto 
Rico's most basic equal protection and due process rights. Moreover, it 
is at odds with the Obama Administration's commitment (as stated in the 
President's Letter) to ``recognize all valid options to resolve the 
question of Puerto Rico's status, including commonwealth, statehood and 
independence.''
    The Supreme Court has long recognized ``the political franchise of 
voting as a fundamental political right, because [it] [is] preservative 
of all rights.'' Thus, ``once the franchise is granted to the 
electorate, lines may not be drawn which are inconsistent with the 
Equal Protection Clause of the Fourteenth Amendment'' and will be 
``closely scrutinized and carefully confined.'' In adjudicating 
challenges to laws regulating elections, the Supreme Court has 
consistently invalidated laws that have a ``real and appreciable impact 
on the exercise of the franchise'' by denying voters ``a choice on the 
issues.''
    As contended above, the ballot prescribed by H.R.2499 effectively 
denies the voters the option of continuing and enhancing Puerto Rico's 
Commonwealth status. Thus, H.R. 2499's voting process clearly infringes 
on the voting rights of Puerto Rico's voters by presenting the people 
of Puerto Rico with a factually inaccurate choice--a false choice--as 
to their future political status. Moreover, it discriminates against a 
substantial segment of Puerto Rico's citizens (those who support 
Commonwealth status).
    It is a well-settled principle of U.S. law that there is no 
legitimate governmental interest in mandating the inclusion of 
inaccurate information in a voter referendum or plebiscite. Indeed, the 
only apparent rationale for H.R. 2499's misguided voting process is a 
desire to manufacture an artificial majority in favor of statehood. 
Such discriminatory purpose is anathema to the fundamental electoral 
rights protected both by the Commonwealth Constitution and the U.S. 
Constitution. The Task Force's recommended two-round voting process 
does not withstand constitutional scrutiny.
    During the campaign, President Obama made a commitment that his 
Administration would openly engage the people of Puerto Rico in 
engineering a ``genuine and transparent process of self-determination 
that will be true to the best traditions of democracy.'' He said:
        As President, I will actively engage Congress and the Puerto 
        Rican people in promoting this deliberative, open and unbiased 
        process, that may include a constitutional convention or a 
        plebiscite, and my Administration will adhere to a policy of 
        strict neutrality on Puerto Rico status matters. My 
        Administration will recognize all valid options to resolve the 
        question of Puerto Rico's status, including commonwealth, 
        statehood, and independence.

        H.R. 2499 is anything but deliberative, open or unbiased.
    As President of the Popular Democratic Party, I encourage Congress 
to insist upon a real self-determination mechanism that will not force 
statehood upon the people of Puerto Rico, and instead to support a 
process that will provide productive and democratic options. H.R. 2499 
does not do that.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman very much for his 
views, and now I would like to recognize The Honorable Ruben 
Berrios-Martinez, President of the Puerto Rican Independence 
Party.

          STATEMENT OF RUBEN ANGEL BERRIOS-MARTINEZ, 
           PRESIDENT, PUERTO RICAN INDEPENDENCE PARTY

    Mr. Berrios-Martinez. Good morning to the members of this 
Committee.
    Ms. Bordallo. Would you come closer to the mic?
    Mr. Berrios-Martinez. Yes, good morning to you. The bill 
under consideration, as it stands, is unacceptable and destined 
to failure. The experience of the last 20 years demonstrates 
that Congress will not enact legislation that directly or 
indirectly promises statehood to Puerto Rico as does H.R. 2499. 
Aversion to statehood for Puerto Rico is the main obstacle to 
the approval of this legislation, even though few Members of 
Congress would publicly admit it.
    No one wants to be perceived as anti-democratic or 
politically incorrect. Some prominent members of this House 
have already advanced that there is no consensus among Puerto 
Rico's political parties as an excuse to stall even the 
consideration of this measure, but Congress should not point to 
lack of consensus in Puerto Rico as a pretext for inaction. 
Having signed and ratified the International Covenant of Civil 
and Political Rights, the United States is legally bound under 
Article I of the treaty to, and I quote, ``promote the 
realization of the right of self-determination.''
    The right of self-determination or independence is an 
inalienable right of the Puerto Rican people which can be 
exercised even in the face of congressional indifference or 
opposition. Nevertheless, the U.S. is under a moral and legal 
obligation to promote a process or provide a procedural 
mechanism through which the people of Puerto Rico can exercise 
this right. It should therefore enact legislation to facilitate 
a final status solution for Puerto Rico.
    Accordingly, I propose that the bill be amended to achieve 
two goals: first, to facilitate its approval by both the House 
and the Senate; and second, to accommodate the reasonable 
demands of the Puerto Rican political parties and organizations 
so that any opposition would clearly be a mere excuse not 
deserving any serious consideration. The amendments I propose 
here today, taken as a whole, provide a different and more 
viable approach to Puerto Rico's status problem.
    First of all, the language contained in the bill regarding 
the first vote should be amended to clarify the territorial 
nature of the present status. Second, and even more important, 
simultaneously with this vote, Puerto Ricans should express in 
the same ballot their preference for either a constituent 
assembly or a plebiscite as the mechanism for expressing their 
aspirations concerning substantial non-territorial options for 
our political future.
    Congress would then be in a position to respond to the 
status choice of Puerto Ricans in either a constituent assembly 
to be convened under the laws of Puerto Rico or a plebiscite to 
be convened under the laws of Puerto Rico. Consequently, the 
second vote in H.R. 2499 would be eliminated. This approach 
takes into account the different procedural mechanisms proposed 
by Puerto Rico's political parties, provides a mechanism to 
overcome the existing deadlock through the expression of the 
popular will, and bypasses the alleged lack of political 
consensus as a rationalization to stall the process.
    We may not agree on the substantive status options, but we 
can surely agree on a method for selecting a procedural 
mechanism to facilitate the solution to Puerto Rico's status 
problem. No one who claims to respect the will of the people 
should object to having the people decide whether to continue 
or not under the present territorial status, or that the people 
should decide whether the procedural mechanism for deciding on 
the future status should be a constituent or constitutional 
assembly or a referendum. That is precisely what we are 
proposing here today.
    We acknowledge, furthermore, the grave political reality 
that the U.S. Congress will not act on status unless it has to, 
unless it is forced to, but Congress, by inaction, will not be 
able to avoid confronting Puerto Rico's status problem, at 
least not this time. If Congress does not legislate, the pro-
statehood leadership has made clear that it will hold a local 
plebiscite or referendum which we can surely expect will be 
designed to elicit a result favorable to statehood.
    Either Congress approves, as we propose, a rational and 
fair procedural mechanism to solve Puerto Rico's colonial 
problem, or it allows irrational forces propelled by 
circumstantial majorities to control the process. To conclude, 
let me bring before you an important final consideration. The 
Puerto Rican colonial problem affects the foreign relations of 
the United States with Latin America. Last week, at the 
initiative of nine Latin American and Caribbean countries, the 
U.N. Committee on Decolonization approved a unanimous 
resolution which requires the U.S. to comply with its 
decolonizing obligations with respect to Puerto Rico, in 
accordance with General Assembly Resolution 1514 [XV].
    Similarly, 33 of Latin America's most important political 
parties representing a very wide ideological spectrum also 
recently approved a similar resolution. The national interest 
of the United States, as proclaimed by President Barack Obama 
in the Summit of the Americas two months ago, demands a new 
relationship with Latin America. For Latin America, Puerto 
Rico's colonial status is a symbol of outdated and discredited 
imperial policies. The issue is, and has always been, how far 
does the southern border of the U.S. extend into Latin America 
and the Caribbean?
    If the U.S. aspires to establish a new relationship with 
Latin America based on mutual respect and cooperation, it must 
squarely face and actively contribute to the solution of the 
colonial problem of Puerto Rico, a Latin American nation. Thank 
you very much.
    [The prepared statement of Mr. Berrios-Martinez follows:]

            Statement of Ruben Berrios-Martinez, President, 
                    Puerto Rican Independence Party

    The bill under consideration, as it stands, is unacceptable and 
destined to failure. The experience of the last 20 years demonstrates 
that Congress will not enact legislation that directly or indirectly 
promises statehood to PR, as does H.R. 2499.
    Aversion to statehood for Puerto Rico is the main obstacle to the 
approval of this legislation, even though few Members of Congress would 
publicly admit it. No one wants to be perceived as antidemocratic or 
politically incorrect.
    Some prominent members of this House have already advanced that 
there is no consensus among Puerto Rico's political parties as an 
excuse to stall even the consideration of the measure. But Congress 
should not point to lack of consensus in Puerto Rico as a pretext for 
inaction. Having signed and ratified the International Covenant of 
Civil and Political Rights, the United States is legally bound under 
Article 1 of the treaty to ``promote the realization of the right of 
self-determination'', a basic human right.
    The right to self-determination and independence is an inalienable 
right of the Puerto Rican people, which can be exercised even in the 
face of congressional indifference or opposition. Nevertheless, the 
U.S. is under a moral and legal obligation to promote a process or 
provide a procedural mechanism through which the people of Puerto Rico 
can exercise this right. It should therefore enact legislation to 
facilitate a final status solution for Puerto Rico.
    Accordingly, I propose that the bill be amended to achieve two 
goals: first, to facilitate its approval by both the House and the 
Senate; and second, to accommodate the reasonable demands of Puerto 
Rican political parties and organizations, so that any opposition would 
clearly be a mere excuse, not deserving of any serious consideration.
    The amendments I propose here today taken as a whole provide a 
different and more viable approach to Puerto Rico's status problem. 
First of all, the language contained in the bill regarding the first 
vote should be amended to clarify the territorial nature of the present 
status. Secondly, and even more important, simultaneously with this 
vote, Puerto Ricans should express, in the same ballot, their 
preference for either a constituent assembly or a plebiscite as the 
mechanism for expressing their aspirations concerning substantive non 
territorial options for our future political status. Congress would 
then be in a position to respond to the status choice to be made by 
Puerto Ricans in either a constituent assembly (proposed by the PDP and 
the PIP) or a plebiscite (proposed by the NPP) and to be convened under 
the laws of Puerto Rico. The second vote in H.R. 2499 would 
consequently be eliminated.
    This approach takes into account the different procedural 
mechanisms proposed by Puerto Rico's political parties, provides a 
mechanism to overcome the existing deadlock through the expression of 
the popular will, and bypasses the alleged lack of political consensus 
as a rationalization to stall the process. We may not agree on the 
substantive status options, but we can surely agree on a method for 
selecting a procedural mechanism to facilitate the solution to Puerto 
Rico's status problem.
    The pro-statehood New Progressive Party has agreed with the Puerto 
Rican Independence Party on the desirability of posing the first 
question to the people regarding the need to revise the present 
relationship. Even the pro-commonwealth Popular Democratic Party, 
despite allegations that the first question would be skewed against 
commonwealth, advocates various modifications to the present 
arrangement. Regarding the second question on procedural mechanisms, 
the Puerto Rican Independence Party has long proposed calling for a 
sovereign constitutional status assembly, elected by the people in the 
exercise of its inalienable right to self-determination and 
independence, to choose among non colonial and non territorial 
alternatives in accordance to international law. The prevailing status 
option would be ultimately approved or rejected by a direct vote of the 
Puerto Rican people. The Popular Democratic Party has also endorsed the 
idea of the constitutional assembly status, albeit of a different 
nature. The New Progressive Party has advocated the alternative 
procedural mechanism of a referendum or plebiscite, but agrees with the 
fundamental concept that all alternatives posed before the people ought 
to be non colonial and non territorial. There are differences between 
us, but there is ample common ground for agreement.
    No one who claims to respect the will of the people should object 
to having the people decide whether to continue or not under the 
present status; or that the people should decide whether the procedural 
mechanism for deciding on the future status of Puerto Rico should be a 
constituent or constitutional status assembly, or a referendum. That is 
precisely what we propose.
    We acknowledge the political reality that the U.S. Congress will 
not act on status unless it has to. But Congress by inaction will not 
be able to avoid confronting Puerto Rico's status problem. If Congress 
does not legislate, the pro-statehood leadership has made clear that it 
will hold a local plebiscite or referendum which we can surely expect 
will be designed to elicit a result favorable to statehood. Either 
Congress approves, as we propose, a rational and fair procedural 
mechanism to solve Puerto Rico's colonial problem, or it allows 
irrational forces propelled by circumstantial majorities to control the 
process.
    To conclude, let me bring before you an important final 
consideration. The Puerto Rican colonial problem affects the foreign 
relations of the U.S. with Latin America. Last week, at the initiative 
of nine Latin American and Caribbean countries, the United Nations 
Committee on Decolonization approved a unanimous resolution which 
requires the U.S. to comply with its decolonizing obligations with 
respect to Puerto Rico, in accordance with General Assembly Resolution 
1514 (XV). Similarly, thirty-three of Latin America's most important 
political parties representing a wide ideological spectrum, also 
recently approved a similar resolution.
    The national interest of the U.S., as proclaimed by President 
Barack Obama in the Summit of the Americas two months ago, demands a 
new relationship with Latin America. For Latin America, Puerto Rico's 
colonial status is a symbol of outdated and discredited policies. The 
issue is ``and has always been--how far does the Southern border of the 
U.S. extend into Latin America and the Caribbean. If the U.S. aspires 
to establish a new relationship with Latin America based on mutual 
respect and cooperation, it must squarely face and actively contribute 
to the solution of the colonial problem of Puerto Rico, a Latin 
American nation.
    Thank you.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman very much for his views 
as a representative of the Puerto Rican Independence Party, and 
now, I am going to recognize members in the Committee to ask 
questions of the witnesses, and I will begin by recognizing the 
Ranking Member, Mr. Hastings.
    Mr. Hastings. Thank you very much, Madam Chairwoman. I have 
no questions. I apologize, with these votes, that I am coming 
and going, but I look forward to reviewing your testimony. 
Thank you very much.
    Ms. Bordallo. I would like to mention for the record, to 
show that Governor Fortuno is still with us, and unlike so many 
witnesses who testify and then leave the room, by his presence, 
Governor Fortuno is showing his commitment to the bill and the 
issue at hand. So I thank you, Governor, for staying with us.
    I would like to now recognize the author of the bill, The 
Honorable Pedro Pierluisi from Puerto Rico.
    Mr. Pierluisi. Thank you, Madam Chair. Welcome, and I thank 
you so much, all of you, for appearing today. Let me start by 
commenting that I noticed that both Governor Fortuno and 
distinguished Puerto Rican leader Ruben Berrios coincide in one 
issue. I see that both of you are concerned with the fact that 
the bill doesn't specify or describe the current status as 
territorial, as a territory, as what it is, and I see your 
point. Your point is well-taken. I am sure this Committee, the 
members of the Committee, will weigh it in due course, and I 
thank you for pointing that out.
    In the case of Governor Romero Barcelo, I would like you to 
expand a bit, if you may, on why--you are so experienced 
dealing with this issue, in the Congress, in Puerto Rico, 
lifelong. Why is it so important that the Congress take the 
lead on this issue?
    Mr. Romero Barcelo. Because of what I mentioned in my 
testimony, that the people of Puerto Rico have been lied to and 
are being lied to as to what commonwealth means. So, people of 
Puerto Rico don't--people in the Popular Party believe that the 
commonwealth is not a territorial status. They feel that the 
commonwealth is autonomy, full autonomy. I have spoken to 
lawyers, Popular Party lawyers, that say that Puerto Rico is 
sovereign in our labor laws.
    What about the minimum wage? What about the unfair labor 
practices? All Federal labor laws are applicable in Puerto 
Rico, as are so many other laws. They have told the people of 
Puerto Rico for ages, for decades, that we were fiscally 
autonomous. Now, Congress took 936 away. We are not autonomous. 
We have some taxation benefits that are legislated by Congress, 
not by the Constitution, not by any compact, but legislated by 
Congress, and Congress can take them away.
    We are subject to congressional will. So, the people of 
Puerto Rico have to understand that if they want commonwealth, 
that is the option, that is their right to want it, but that 
they are also saying that they want to remain as a territory, 
because Congress will not deal with a sovereign nation and have 
that sovereign nation have U.S. citizens who are not under the 
jurisdiction of Congress. That is a no-no, and we all know 
that, so Congress should be clear and let the people of Puerto 
Rico know, look, you want an association? That is a form of 
independence.
    Once you are independent, you can go into an association, 
but how can you have a compact of association when you are not 
a sovereign nation? So you have to be a sovereign nation first, 
so that is a modality of independence. Fine, but it is not a 
separate status. It is a modality of independence. So there are 
actually only two choices. We can either have sovereignty, full 
sovereignty as an independent nation, and then enter into any 
kind of association with the United States, or we can share the 
sovereignty of the Nation with all the 50 states as equal 
partners, with six or seven congressmen and two senators, and 
then we share in the sovereignty, and also the Constitution 
guarantees to the states all those powers which are not 
delegated to Congress by the Constitution, whereas a territory 
has no such powers.
    The Congress has complete authority over the territory, 
pursuant to Article IV, Section III of the Constitution.
    Mr. Pierluisi. Mr. Berrios, you are a professor of law? I 
see that in your vision, statehood is not something that the 
Congress will ever offer to Puerto Rico. I disagree with you. 
We don't need to belabor this point, but one thing that comes 
to my mind is that, and I want to see if we agree here, as a 
matter of international law, it cannot be questioned that there 
are three possible political status for Puerto Rico, for any 
territory, like Puerto Rico: statehood, incorporation into the 
United States as a state; independence, the status that you 
advocate for; and what has been called free association, an 
association between two sovereign nations that is terminable by 
the will of either party.
    Now, my question is, first, do you agree that those are the 
legally viable options as a matter of international law and 
U.S. domestic law, and second question, what are the 
differences in your mind between independence and free 
association?
    Mr. Berrios-Martinez. Well, according to international law, 
there is no question in anybody's mind, in any jurist's mind, 
that there are only three possible alternatives in order for a 
nation to comply with the decolonizing factors set about by the 
different resolutions, and of course, always maintaining the 
inalienable right to self-determination and independence under 
any other of the two alternatives. That is from the juridical 
point of view, but I must point out that for me, statehood is 
unacceptable, not only because of moral, political, ethical 
reasons, but because it is another form of colonialism, another 
mask of colonialism, not from a juridical point of view; from a 
sociological, historical and political point of view.
    The problem of Puerto Rico is dependence in every aspect of 
life, and statehood will not solve the dependence problem of 
Puerto Rico, it will just mask it in another manner. But 
juridically, juridically there are three solutions: 
independence, integration, that is statehood, or free 
association. The difference between free association and 
independence is very clear in international law. First of all, 
the Nation which, in its sovereignty, delegates certain 
aspects, powers, to another nation, retains the capacity to 
declare its independence.
    But besides that, my main problem with the free association 
formula is that I can think of no power that a free and 
independent Puerto Rico could delegate or should delegate to 
the United States. This is an exceptional solution for very 
strange and rare cases, very small islands in the different 
places of the world, no less respectful because of that, that 
for example, have nobody to operate their landing fields. They 
lack those capacities that make for a full independence, so 
they delegate temporarily or until either party decides as a 
country, certain aspects of their powers, but definitely, it is 
a form of sovereignty which people may opt for, and in Puerto 
Rico, some people are proposing that idea, some people, I may 
say, inside the Popular Democratic Party, but those are 
essentially the differences between the two.
    Mr. Pierluisi. Thank you. Madam Chair, I ask unanimous 
consent if I can ask one additional question for the third 
member of the panel. I know I have exceeded my time.
    Ms. Bordallo. No objection. So ordered.
    Mr. Pierluisi. OK. Mr. Ferrer, again, thank you so much for 
appearing. I listened to your presentation carefully, and there 
is something that troubles me and I want to inquire into it. 
First of all, I would like to make, Madam Chair, as part of the 
record a copy of the platform of the Popular Democratic Party, 
specifically the section dealing with Puerto Rico's political 
status.
    Ms. Bordallo. No objection. So ordered.
    2[NOTE: The Popular Democratic Party platform submitted for 
the record has been retained in the Committee's official 
files.]
    Mr. Pierluisi. Mr. Ferrer, and I am sure you know that 
platform in and out, I have reviewed it myself as part of the 
process of drafting the bill, and when I review this platform, 
and it will be part of the record, I see that your party and 
all of its candidates before the last elections, less than a 
year ago, asked for several things: first, sovereignty; second, 
recognition of Puerto Rico as a nation; third, the power to 
decide which Federal laws would apply to Puerto Rico; and in 
addition, the creation of a national trust consisting of 20 
years of Federal funding to promote self-sufficiency in the 
island.
    And one thing that cannot be contested is that your party 
does not want Puerto Rico to be subject to the territorial 
clause of the U.S. Constitution. Now, I have read this 
platform. All of that is there. Do you stand by that platform 
or are you walking away from it?
    Mr. Ferrer Rios. Thank you for the question, Mr. 
Commissioner, and I will answer the question. First of all, I 
would like to say that when you were Secretary of Justice of 
Puerto Rico in 1993, you said, and I am going to read it in 
Spanish because I am going to translate, when you were invited 
as a witness to discuss a plebiscite, the law for the 
plebiscite, you said, ``Se le esta dando la oportunidad a los 
principales partidos politicos que esposen sus definiciones.'' 
Translate: We are giving the opportunity to every principal 
party, every political principal party, to define their status.
    This is what you said in 1993. Before you presented this 
bill, I called you, Mr. Commissioner, and I told you that we 
were not being represented in your bill, that we wanted to sit 
with you and discuss your bill, and you told me that you were 
going to present the bill and then if we had any amendment, 
just bring it to the Committee. You said that my statement 
troubles you. Well, the whole bill troubles me, because you are 
disenfranchising 800,000 people, Puerto Ricans, that you 
represent here in Congress, because they cannot vote in your 
bill.
    Second, Puerto Rico is a nation. We are different from the 
United States. We have cultural and Latin heritage that United 
States doesn't have. We are a different nation, and I think 
that is clear in every Puerto Rican mind, because we are proud 
American citizens, but we love what we are. We are Puerto 
Ricans first. Second, sovereignty. Sovereignty is the right of 
the people to choose. Self-determination, the base of self-
determination is sovereignty, and what we said in our platform, 
which you are, and I am sorry to say that you are not correctly 
reading it, says, and I am going to read it again in Spanish, 
``Por eso impulsamos y apoyamos el desarrollo economico del 
Estado Libre Asociado, partiendo los principios de soberania, 
asociacion y responsabilidad compartidas con Estados Unidos. El 
Partido Pro-Democratico cree en una asociacion politica digna, 
no colonial ni territorial, entre Puerto Rico y Los Estados 
Unidos fundamentada en el poder del pueblo de Puerto Rico a 
decidir sus asuntos fundamentales y indisoluble de la ciudania 
americana.''
    In that platform, it is not free association, and your 
definition in that second round, it is free association, but I 
am going to translate what I just read. It says, we support the 
full development of the autonomous character of the 
commonwealth based on the principles of sovereignty, 
association and joint responsibilities within a compact with 
the United States. Then it says, the Popular Democratic Party 
believes in a political association with dignity, not colonial 
or territorial, between Puerto Rico and the United States, 
based in the right of the people of Puerto Rico to decide its 
fundamental issues and the permanence and irrevocability of our 
American citizenship.
    That is what our platform says. It doesn't say the 
definition you have on your bill, with all my respect, 
Commissioner.
    Mr. Pierluisi. Can you point to any inconsistency? The bill 
says, sovereignty in association with the United States. Puerto 
Rico and the United States should form a political association 
between sovereign nations that will not be subject to the 
territorial clause of the United States Constitution. I just 
listened to you and I don't see any inconsistency. Can you 
point to any?
    Mr. Ferrer Rios. Yes, you are talking about free 
association, and we are not talking about free association, and 
as Mr. Berrios says, free association comes from independence.
    Mr. Pierluisi. If I may, Madam Chair, I am going to raise 
something else. It is just for clarification, for purposes of 
clarifying the record, Mr. Ferrer in his written submission to 
the Committee, specifically on page 3 of his written 
submission, he states that in a February 12, 2008, letter to 
former Governor Anibal Acevedo Vila, then-candidate Barack 
Obama contended that the two-plebiscite process is highly 
irregular and against the norm.
    I would like to make part of the record that specific 
letter that Mr. Ferrer is referring to, because when I read 
that letter, I do not see any mention whatsoever of the two-
part plebiscite process by now-President Barack Obama. I have 
to believe, Mr. Ferrer, that it was just an inadvertent mistake 
on your part when quoting from that letter, and I just want to 
clarify for the record the statements made by Mr. Obama, then 
Mr. Obama, now our President, simply referred to citizenship, 
our citizenship, and his view that it cannot be deprived or 
withdrawn without due process, without constitutional 
implications, and the second statement he made also was he 
rejected the fact that Puerto Rico could be ceded or 
transferred to another nation.
    He made those two points, and I should say for the record, 
Madam Chair, that I agree with now-President Obama. This bill, 
2499, doesn't deal with either issue, either citizenship or a 
transfer of Puerto Rico to a foreign nation, but again, I just 
want the record to be clear that Mr. Obama, then-candidate 
Obama, now President Obama, never in that letter referred to 
the two-part plebiscite process as an irregular process, and 
that should be part of the record.
    Ms. Bordallo. I thank my colleague. I am going to have to 
cut off the discussion here because we have one more panel to 
be heard, but the Obama letter will be entered into the 
statement along with the others. No objection to that. So 
ordered.
    I recognize now the gentleman from American Samoa.
    Mr. Faleomavaega. Madam Chair, in interest of--I realize 
the gentleman from Puerto Rico needs additional time. I will be 
glad to yield him a portion of my time for any other questions.
    Mr. Pierluisi. No, I believe Mr. Ferrer wanted to reply, 
and so I do not mind using my time for that purpose, if you 
may, Madam Chair.
    Ms. Bordallo. We will return, but let us, I would like to 
recognize the gentlelady from the Virgin Islands, if she has 
any questions.
    Ms. Christensen. Thank you, Madam Chair, and I, well, I 
don't really apologize for not being here earlier, because--but 
I regret not having been here at the beginning of the hearing, 
because I was at Energy and Commerce and with everyone else 
going out to vote I had the opportunity to get my question in 
to Secretary Sebelius early and was able to ask her about 
lifting the cap on Medicaid for the territories, to which she 
really didn't have a specific answer, but indicated a 
willingness to work with us on it.
    But I would like to welcome Governor Fortuno, our former 
colleague, Congressman Romero Barcelo, our Secretary of State 
and all of the other distinguished individuals and the 
representatives of the Independence Party and the Popular 
Democratic Party who are with us this morning. I want to 
congratulate my colleague, Mr. Pierluisi, the Resident 
Commissioner, for making an attempt to move toward what I 
consider to be a somewhat fairer bill, but unlike Governor 
Fortuno and Mr. Berrios, I am glad that the word ``territory'' 
is out.
    I had a problem with it in the previous Congress. To me it 
is not a description that the people of Puerto Rico have ever 
really used in describing themselves, and therefore, to me, it 
may be confusing to many and inflammatory to some. My main 
concern about the bill, though, is the fact that the 
opportunity to vote for a different or perhaps what has been 
called an enhanced commonwealth is not present in the second 
plebiscite. I think it could possibly be interpreted by the 
voters that it too is a different political status because it 
would be different from the commonwealth that now exists, and 
so my question is, why not give the people of Puerto Rico the 
opportunity to choose in that second plebiscite a different 
commonwealth?
    Basically, that is my question, to all of the panelists.
    Mr. Romero Barcelo. If that choice were clear to say that 
in order to have any kind of sovereignty, have a separate 
sovereign nation, that there would be no U.S. citizenship, I 
have no problems with that, but if they think that they can 
have a sovereignty with U.S. citizenship, that is a no-no. 
Congress would never go for that, so that would be lying to the 
people of Puerto Rico, misleading the people of Puerto Rico.
    Ms. Christensen. You know, as I envision it, though, 
Congressman, I just, I see that as an evolving process of the 
people of Puerto Rico, then maybe through a constitutional 
assembly or some other process, decide what that commonwealth 
would be.
    Mr. Romero Barcelo. You know, the constitutional assembly, 
I don't--the constitutional assembly, what is it assembled for? 
To draft a constitution or to approve a new constitution? 
Constitutional assembly called in to define the options of 
status? That is absurd.
    Ms. Christensen. OK, well, maybe my choice of words, but an 
assembly of the people however it might be called. Let me give 
the other two panelists an opportunity to answer the question.
    Mr. Berrios-Martinez. Let me start by your first question 
and then by the constituent assembly, what it means. Enhanced 
commonwealth is another form of territory, and we are trying to 
finally decide on the Puerto Rican status issue.
    Ms. Christensen. What if the people are not ready to make 
that decision?
    Mr. Berrios-Martinez. Well, they can opt to remain as they 
are. They can opt to remain--but you cannot freely determine 
yourself out of self-determination, it is a contradiction in 
terms. You have status options of equal juridical validity. You 
cannot have status options of different juridical validity to 
pose before people. Where you can differ and try to reach a 
consensus is the procedural mechanism as to how to make the 
decision, and there, I must explain that the constituent 
assembly for status, or a constitutional assembly for status, 
will be elected by the people and the people will choose either 
statehooders, independentistas, or people who believe in the 
third alternative.
    After the constituent assembly meets and reaches a 
decision, the alternative that triumphs will be again submitted 
to the people in a yes or no referendum. They vote in the first 
instance and in the second instance, and then with that 
decision we come to Congress, but then we go into a dialogue 
with Congress, the representatives of the majority of the 
constitutional assembly, with Congress in an ongoing process 
until we solve the problem. That is the constitutional 
assembly, is a fully democratic by the direct vote of the 
people in two instances.
    The other choice is a referendum or plebiscite, and then 
the people of Puerto Rico, what we propose is that they choose 
between the two methods. What can be more democratic than that? 
Who can object to the people of Puerto Rico choosing whether 
they want a constituent assembly or a referendum or 
plebiscites? That is what we are proposing, but I must again 
repeat, the alternatives must be of equal juridical stature, 
and these are, according to international law, free 
association, statehood or independence, but then you give the 
people of Puerto Rico to remain in the colonial or territorial 
system if they so wish.
    It sounds a little absurd to ask people that, but many 
people in Puerto Rico have been led to believe that colonialism 
is good. But people cannot self-determine themselves out of 
self-determination, and what we are trying is to reach a self-
determination bill in this House.
    Ms. Christensen. Madam Chair, could I ask unanimous consent 
that I get just a response from the third panelist?
    Ms. Bordallo. Yes.
    Ms. Christensen. Thank you.
    Mr. Ferrer Rios. Thank you.
    Ms. Bordallo. At this time, I thank the gentlelady from 
Virgin Islands and I would like--oh, I see. I am sorry.
    Mr. Ferrer Rios. I agree with the definition Mr. Berrios 
just gave us about the constitutional assembly, and we believe 
in the constitutional assembly. It is not on the bill. Second, 
I would like to defer from the interpretation of the 
international law. The United Nations has said that the 
principles on equality of rights and the free self-
determination of the nations can be sustained not on three 
options. It is in Spanish, but I am going to translate.
    I am going to read it in Spanish first and then I am going 
to translate. ``El establecimiento de un estado soberano 
independiente, la libre asociacion o integracion con un estado 
independiente, o la situacion de qualquier otra condicion 
politica libremente decidida por un pueblo constituyen formas 
del ejercicio del derecho de la libre determination de este 
pueblo.'' What it says is that a nation can self-determine 
itself through the establishment of a free, sovereign state, 
would be a republic or independent nation, free association, or 
the integration to the independent state, that would be 
statehood, and it also says, or any other political condition 
freely decided by the Nation constitutes forms of the exercise 
of the right of self-determination.
    So, enhanced commonwealth in international law can be 
recognized.
    Mr. Romero Barcelo. Madam Chairman, may I make a statement?
    Ms. Bordallo. You are----
    Mr. Romero Barcelo. I would like to make a statement on 
this issue also. We are talking about sovereignty, we are 
talking about constitutional conventions, we are talking 
about--but, my concern is this. In Puerto Rico, we are U.S. 
citizens. We are American citizens. How can we establish any 
kind of a procedure where I and my children and my children's 
children and the rest of the American citizens can be 
disenfranchised? Isn't that an anathema to our democracy?
    Isn't that just the opposite of what our democracy stands 
for? How can anybody allow such a process to go? How can anyone 
vote against my right to vote? How can anybody impede me from 
voting for now and forever, and my children, as an American 
citizen? That is the problem here that is not being discussed. 
That is the problem with the commonwealthers, that they want to 
be a separate nation but they also want to be U.S. citizens. 
Oh, and they want the benefits too, but they don't want to pay 
taxes.
    This is the issue here, U.S. citizenship, and how can we 
have U.S. citizenship? Either by being a state where we can 
vote and have representation, or be a sovereign nation and we 
can then vote in the sovereign nation. Otherwise, we are 
disenfranchised.
    Mr. Berrios-Martinez. Yes, I must correct now--I don't want 
to speak as an expert on international law or as a professor in 
international law, but I am here as a representative of a 
political party and I must correct some political mistakes. I 
have heard everything from some of the leaders of the PPD 
trying to put commonwealth to the level of other alternatives. 
Now they dig up this almost 30-year-old resolution of the U.N. 
which bears no relationship to the Puerto Rican case that is a 
principle of international law that says ``lex specialis deroga 
generalis,'' the special law derogates, goes over, the one 
which is general.
    But aside from that, you have to understand, this 
resolution, within the context of Resolution 1514 [XV], nothing 
in this resolution, which is a general resolution regarding 
general principles of international law and issues of 
international law, can run contrary to Resolution 1514 [XV]. Of 
course there can be other ways to exercise self-determination. 
France can enter into a treaty with China, and that is a way to 
exercise self-determination regarding the relationship between 
the two nations, but that doesn't mean that you can choose to 
be a political slave.
    You cannot choose to be undemocratic. You cannot choose 
yourself out of self-determination, and in Puerto Rico they are 
trying to argue through this indirectly. It is like a rabbit 
out of a hat. They pull out now this 2625, which has nothing to 
do with Puerto Rico, nor will--nor runs contrary to 1514--
because they have no other argument.
    Ms. Bordallo. I want to thank the gentleman. The time is 
expired.
    Mr. Berrios-Martinez. And that should be clear because it 
is the last of the desperate moves now in the juridical field 
to avoid confronting the issue of finally determining Puerto 
Rico's status issue.
    Ms. Bordallo. We understand. We would like to go on. I 
would remind the witnesses that we have another panel to be 
heard and some of the members here have votes, and so I want to 
be able to hear everybody's viewpoint. The gentleman from 
American Samoa, if you could wrap it up?
    Mr. Faleomavaega. Thank you, Madam Chair. Reclaiming my 
time, this panel is very important, Madam Chair, because these 
three distinguished gentlemen represent probably the three 
major political persuasions among the people of Puerto Rico. I 
do want to personally welcome again my good friend and former 
colleague, Governor Romero, for being here, and I must say, 
sir, I do admire your consistency. You have never wavered once 
for the last 30 years or 40 years in being a strong advocate of 
statehood, and for that, I respect you for that, and the 
gentleman also, Mr. Rios, I suspect that you are with the 
Commonwealth Party, and also the gentleman, Mr. Ferrer, I have 
also admired your consistency being a strong advocate of----
    Mr. Ferrer Rios. On the losing side, that is the difficult 
consistency.
    Mr. Faleomavaega. Well, and we were talking about all 
different kinds of political associations and I have a fair 
list here with me. It is independence, it is statehood, it is 
commonwealth, it is free association, it is a territory, like 
we can claim the moon also as a territory of the United States, 
and then territory can either be unincorporated or unorganized. 
That is the great claim that we have in my territory. We are 
both an unincorporated and unorganized territory of the United 
States.
    Then there is also the enhanced commonwealth and then also 
the compact of free association that the Micronesian entities 
have now achieved, very much similar to the commonwealth 
status, I believe, in what the enhanced status commonwealth 
that our friend Mr. Rios is trying to advocate here. Gentlemen, 
I just wanted to ask you, the bill simply provides for the 
first round of the plebiscite in a most fair manner conducted 
under the auspices of this Federal mandate, and it is just two 
questions, you support the present political status or other 
political options.
    Is that a fair--I don't see any unfairness in the way it is 
proposed in the bill. Is that acceptable to all you three 
gentlemen?
    Mr. Romero Barcelo. I want to make clear that it is a 
territory that we are voting on, whether we want the territory 
or not, because it is a territory, but what I feel that cannot 
be done is you cannot hide from the people the fact that we are 
a territory. It has been decided by the courts, the Supreme 
Court. Congress has looked into it. Congress has said yes, they 
are a territory. Congress acts as though it were a territory, 
so let the people of Puerto Rico know that that is what it is 
when they vote.
    That is all I am asking. Don't hide it, because if we hide 
it that is not telling the truth fully and not telling the 
truth fully is lying.
    Mr. Faleomavaega. Mr. Rios?
    Mr. Ferrer Rios. No, it is not, sir. No, it is not. It is a 
first round where you merge together the statehood and 
independence forces against the commonwealth, and if you sum up 
the votes of statehood and independence and even if they 
haven't won any plebiscite for the past 60 years, they are 
going to defeat, then, commonwealth, because it is two against 
one, and then, on a second runoff, you are taking out the 
status as one and replace it.
    It is like next election, next election, and I will do it 
with all respect next election, will go to Puerto Rico and ask 
the people of Puerto Rico in a referendum, Mr. Pierluisi, yes 
or no, and then Mr. Pierluisi loses that election and then the 
runoff is between our candidate and the candidate of the 
Independence Party.
    Mr. Faleomavaega. Mr. Rios, I know it would interest you 
that we did have a plebiscite a couple of years ago in Puerto 
Rico where the results were 48 percent was with commonwealth, 
46 percent was with statehood, and then the remaining 
percentage, which is what, 6 percent, went to independence and 
the other options. Is this the concern that you have, Mr. Rios, 
is the fact that----
    Mr. Ferrer Rios. Yes, that was the plebiscite of 1993, but 
the plebiscite of 1998, Mr. Pierluisi's party drafted 
definitions that didn't define commonwealth, so we had to go in 
another option that was none of the above, and in that 
plebiscite in 1998, none of the above won 50.3 percent of the 
vote, but what happened now, Mr. Congressman, is that the last 
three judges appointed to our Supreme Court by Governor Fortuno 
dismissed that option, none of the above, in a recent case, so 
they have disenfranchised 50.3 percent of those votes in 
upcoming plebiscites or local plebiscites because then we won't 
have that none of the above option if we are not able to define 
commonwealth.
    Mr. Faleomavaega. Madam Chair, my time is up. Thank you, 
gentlemen. Appreciate it.
    Ms. Bordallo. I thank the gentleman from American Samoa 
very much, and I welcome my colleague, Mr. Sarbanes from 
Maryland. We want to thank all of you for testifying this 
morning, because it is still morning, and I would like to 
welcome the third panel. Please come forward and take your 
seats, The Honorable Thomas Rivera-Schatz, Senate President, 
Senate of Puerto Rico; The Honorable Jose L. Dalmau-Santiago, 
Minority Leader, Senate of Puerto Rico; The Honorable Jenniffer 
Gonzalez-Colon, Speaker, Puerto Rico House of Representatives; 
and The Honorable Eduardo Bhatia, Designee of the House 
Minority Leader.
    Would the second panel please be seated, and in the 
interest of time, we do have a five-minute rule, so if you can 
reduce your statement to about five minutes, and I would like 
to remind you that your full written statement will be entered 
into the record, and before we begin, I would like to ask the 
Committee that a statement from a group called English First 
would be entered into the record as well as a written statement 
from The Honorable Jose F. Aponte Hernandez be entered into the 
record. I have no objections. So ordered.
    I would like at this time now to recognize the Senate 
President, the Senate of Puerto Rico, The Honorable Thomas 
Rivera-Schatz.

              STATEMENT OF THOMAS RIVERA-SCHATZ, 
            SENATE PRESIDENT, SENATE OF PUERTO RICO

    Mr. Rivera-Schatz. Madam Chair, good day to you, as well as 
to the Resident Commissioner Pierluisi and to each of the other 
members of the House Committee on Natural Resources. For the 
record, my name is Thomas Rivera-Schatz. I am the President of 
the Senate of Puerto Rico. I wish to express my deepest 
appreciation on behalf of the Senate of Puerto Rico for the 
great interest you have shown in considering the affiliation of 
4 million Americans residing in Puerto Rico.
    I have come here today to express my support for H.R. 2499, 
the Puerto Rico Democracy Act of 2009. It is fitting that we 
gather here today to discuss a democracy act for Puerto Rico 
when we are about a month away from commemorating 111 years of 
becoming a U.S. territory. Full democracy has not been achieved 
in Puerto Rico. Puerto Ricans who live in the island cannot 
vote for the President, nor can we elect senators or voting 
members in the House of Representatives.
    Thus, we are citizens of the most democratic country of the 
world but ironically, we have been deprived of enjoying full 
benefits and responsibilities of our citizenship. The status 
dilemma of 4 million American citizens residing in Puerto Rico 
is a civil rights issue. It is an issue of equality and 
freedom. The right of self-determination of 4 million American 
citizens is also a national Hispanic issue that is being 
closely watched by American citizens of Hispanic origin with 
great implications in the national political scene today.
    Our nation has shown its best colors in conflicts around 
the world. It has shown that we are willing to fight and shed 
our blood in the cause of freedom. That was the case in world 
wars, in Korea and Vietnam, in Bosnia and Herzegovina, in Iraq 
and Afghanistan, and many other international conflicts. 
Thousands of American citizens from the territory of Puerto 
Rico gave their lives, shed their blood in those historical 
conflicts, and continue to do so defending democracy and 
freedom.
    However, those American citizens of Puerto Rico are denied 
their rights despite our great contributions to the United 
States. Over 100 Puerto Ricans have died in Iraq and 
Afghanistan since 2001. Many others have been wounded and 
decorated for their valor. Surprisingly, still today, their 
vote for their Commander-In-Chief is legally precluded. How can 
we argue that we went to Iraq and Afghanistan to, among other 
things, provide democracy and self-determination to the 
oppressed people of those countries, but refuse to grant the 
same basic principles to the people of Puerto Rico?
    On this matter, I am encouraged with the President Barack 
Obama commitment to the people of Puerto Rico. In a letter sent 
to the Governor Luis Fortuno on January 2, 2009, and read 
during the Governor's inaugural ceremony, the President 
reminded the people of Puerto Rico his pledge to work with the 
Congress to enable to question of Puerto Rico status to be 
resolved during the next four years. President Obama concluded 
with the following commitment, and I quote, ``We will work to 
give a voice to the people of Puerto Rico to enable them to 
determine their political future.''
    The time to give a voice to Puerto Rico is now by approving 
H.R. 2499. In Puerto Rico, for the first time in our history, 
the three traditional political parties representing different 
solutions for the status dilemma agree on the necessity of 
seeking a political status that removes Puerto Rico from the 
territorial clause of our U.S. Constitution. Continuing with 
the territorial status is not a solution since it maintains the 
island shackled to a territorial clause.
    The only acceptable non-territorial, non-colonial status 
solutions under international law are statehood, independence, 
and free association. I suggest H.R. 2499 be amended to state 
that the three options in the second plebiscite, provided by 
Section 2, paragraph 3, shall be in accordance with 
international law. This will dissipate any doubts as to the 
non-territorial, non-colonial nature of the options. This bill 
is a good first step to decolonize the territory of Puerto 
Rico, but H.R. 2499 does not commit or mandate the U.S. 
Congress to implement the will of the democratic expression of 
4 million American citizens.
    This bill must establish in the minds of every member of 
the Congress and the President that the will of the citizens in 
Puerto Rico must be respected and implemented. Without a 
commitment from Congress to implement the democratically 
expressed result is to deny freedom. Maintaining 4 million 
American citizens in the territory without empowerment of 
equality is to maintain a state of apartheid in the 21st 
century. If our nation wants to project trust and good will to 
our neighbors and the international community, it must 
eliminate the anachronism of a territory with 4 million unequal 
American citizens.
    I strongly believe that H.R. 2499 should be amended in 
Section 3 to add a new paragraph E stating that U.S. Congress 
shall execute the results of the second plebiscite and approve 
legislation to implement the mandate of the people of Puerto 
Rico. Last May, a handful of individuals from Puerto Rico 
interrupted a session of the Congress to express their 
frustration about our political status. While we know that the 
vast majority of Puerto Ricans do not share the political view 
of this small group, the fact remains that the American 
citizens of Puerto Rico do want Congress to listen.
    Give the people of Puerto Rico the opportunity to properly 
express themselves by approving H.R. 2499 and you will realize 
that just as our men and women in uniform help defend the 
American flag, our people deeply value the democratic 
principles that America represents. In a letter to Henry Pierce 
written on April 6, 1859, President Lincoln said, those who 
deny freedom to others deserve it not for themselves, and under 
a just God, cannot long retain it.
    Give the people of Puerto Rico the freedom to choose a 
final political solution by providing a fair and legal self-
determination process based on non-territorial, non-colonial 
final permanent options. I respectfully ask you to succeed 
where more than 50 previous Congresses have failed. I ask that 
you recommend to the House approval of the Puerto Rico 
Democracy Act of 2009, and I respectfully request that you 
adopt the suggested amendments.
    I would like to conclude my remarks by paraphrasing 
President Obama's statement. Those who stand up for justice are 
always on the right side of history. Stand on the right side of 
history. Approve H.R. 2499. Thank you very much.
    [The prepared statement of Mr. Rivera-Schatz follows:]

  Statement of Thomas Rivera-Schatz, Esq., President of the Senate of 
  Puerto Rico, 2009- ; Electoral Commissioner of the New Progressive 
 Party (Statehood Party) of Puerto Rico, 2000-2007; General Secretary, 
  New Progressive Party (Statehood Party) of Puerto Rico, 2004-2007; 
 Assistant District Attorney, Puerto Rico Department of Justice, 1996-
                                  1999

    Chairman Rahall: good day to you, as well as to Resident 
Commissioner Pierluisi and to each of the other members of the House 
Committee on Natural Resources. For the record, my name is Thomas 
Rivera-Schatz. I am the President of the Senate of Puerto Rico. I was 
elected senator-at-large on November 4, 2008 in a landslide victory of 
the New Progressive Party, the party that promotes statehood for Puerto 
Rico. For the first time in 40 years a political party in Puerto Rico 
elected all the candidates it was allowed by law to nominate for the 
Senate.
    Mr. Chairman I wish to express my deepest appreciation on behalf of 
the Senate of Puerto Rico for the great interest you have shown in 
considering the aspirations of the 4 million Americans residing in 
Puerto Rico in solving their political status dilemma.
    I have come here today to express my support for H.R. 2499, the 
Puerto Rico Democracy Act of 2009. It is fitting that we gather here 
today to discuss a ``Democracy Act'' for Puerto Rico when we are but a 
month away from commemorating 111 years of becoming a U.S. territory. 
Indeed the people of the longest held territory in U.S. history have 
yet to be inquired by Congress whether they are content with the 
territorial arrangement that has besieged us, first under Spain and now 
by the United States.
    Full democracy has not been achieved in Puerto Rico. True, we elect 
all our local and state government officials, but Puerto Ricans who 
live in the island cannot vote for the President nor can we elect 
Senators or voting members in the U.S. House of Representatives. Living 
in a territory means having no say in the national government, despite 
the fact that this Congress and the President make decisions every day 
that affect the daily lives of 4 million Americans that make Puerto 
Rico their home. Thus, we are citizens of the most democratic country 
of the world but ironically we have been deprived of enjoying the full 
benefits and responsibilities of our citizenship.
    The status dilemma of 4 million American citizens residing in 
Puerto Rico is a civil rights issue; it is a national issue of equality 
and freedom! The right of self determination of 4 million American 
citizens is also a national Hispanic issue that is being closely 
watched by all American citizens of Hispanic origin, with great 
implications in the national political scene today, in the 2010 
Congressional elections and in the 2012 Presidential election.
    The base for validating the discrimination against 4 million 
American Citizens was set by the same U.S. Supreme Court which 
validated racial segregation in Plessy v. Ferguson, 163 U.S. 537 
(1896). In that case, a discriminating majority argued that races could 
be ``Separate but Equal''. In the Case of Puerto Rico, in Downes v. 
Bidwell, 182 U.S. 244; 21 S. Ct. 770; 45 L. Ed. 1088 (1901), the same 
discriminating majority gave birth to a new theory of incorporated and 
unincorporated territories, theories not found even in the darkest 
penumbras of constitutional interpretation. Using these arguments, as 
they did in the Plessy case, they added that Puerto Rico was a 
territory ``Belonging to, but not a part of'' and that we were 
``Foreign, in a domestic sense''. Some 50 years later, in Brown v. 
Board of Education, 347 U.S. 483 (1954), a progressive U.S. Supreme 
Court rejected the argument of ``Separate but Equal'' and established 
that ``Anything separate, was inherently unequal''.
    More than 100 years later, we still await the sensible voice of 
reason that rejects discrimination, and understands that there is no 
way you can ``belong to, but not be part of'', and mostly, nothing can 
ever be ``foreign in a domestic sense''. This is clearly a case of 
geographic segregation. As stated before in the Brown case, ``Anything 
separate is inherently unequal''. It is simply un-American for our 
Nation to maintain the American territory of Puerto Rico as separate 
and unequal.
    Our Nation has shown its best colors in conflicts around the World. 
It has shown that we are willing to fight and shed our blood in the 
cause of freedom. That was the case in the two World Wars, in Korea and 
Vietnam, in Bosnia-Herzegovina, in Iraq and Afghanistan and many other 
international conflicts. Thousands of American citizens from the 
territory of Puerto Rico gave their lives; shed their blood in those 
historical conflicts, and continue to do so defending democracy and 
freedom.
    However, the American citizens of Puerto Rico are denied their 
rights despite our enormous contributions to the United States. In 
fact, American soldiers from Puerto Rico have sustained higher per 
capita service-connected disabilities than soldiers from the States. 
Well over 100 Puerto Ricans have died in Iraq and Afghanistan since 
2001; numerous others have been wounded and/or decorated for their 
valor. Surprisingly, still today, their vote for their Commander-in-
Chief is ``legally'' precluded.
    After 111 years of jurisdiction over Puerto Rico, now is the moment 
and time for our Nation to show its best colors to the 4 million 
American citizens residing in the territory by granting us the freedom 
to choose our final political destiny. How can we argue that we went to 
Iraq and Afghanistan to, among other things, provide democracy and self 
determination to the oppressed people of those countries but refuse to 
grant the same basic principles to the people of the U.S. territory of 
Puerto Rico? It is ironic that hundreds and hundreds of American 
soldiers from Puerto Rico are sent to the Middle East for the purpose 
of defending liberties that are denied to those very same soldiers in 
their own homeland!
    On this matter I am encouraged with President Barrack Obama's 
commitment to the people of Puerto Rico. On a letter sent to Governor 
Luis Fortuno on January 2, 2009 and read during the Governor's 
inaugural ceremony, the President reminded the people of Puerto Rico of 
his pledge to work with Congress to enable the question of Puerto 
Rico's status to be resolved during the next four years. He went on to 
say that he was, and I quote, ``fully aware of the difficulties that 
Puerto Rico has faced in the past when dealing with this issue, but 
self-determination is a basic right to be addressed no matter how 
difficult''. On this subject, President Obama concluded with the 
following commitment, and I quote: ``We will work to give a voice to 
the people of Puerto Rico to enable them to determine their political 
future.'' The time to give a voice to Puerto Rico is now--by approving 
H.R. 2499.
    In Puerto Rico for the first time in our history the three 
traditional political parties representing different solutions for the 
status dilemma agree on the necessity of seeking a political status 
that removes Puerto Rico from the territorial clause of our U.S. 
Constitution. This clause provides Congress with full authority ``to 
dispose of and make all needful Rules and Regulations respecting the 
Territory...belonging to the United States.'' This authority is 
absolute. As the U.S. Supreme Court stated in 1879, ``All territory 
within the jurisdiction of the United States not included in any State 
must necessarily be governed by or under the authority of Congress'' 
(First Nat. Bank v. Yankton County, 101 U.S. 129, 133 (1879)).
    However, continuing territorial status is not a solution since it 
maintains the island shackled to the territorial clause. The only 
acceptable non-territorial, non-colonial status solutions under 
international law are statehood, independence and free association. I 
suggest H.R. 2499 be amended to state that the three options in the 
Second Plebiscite provided by Section 2, Paragraph (c), shall be in 
accordance with international law. This will dissipate doubts as to the 
non territorial, non colonial nature of the options.
    In Puerto Rico we have held three local plebiscites in 1967, 1993 
and 1998 without any prior commitment from Congress to act upon the 
will of the people expressed in the ballot. The result was that once 
the vote took place nothing happened in Congress. Thus, the people of 
Puerto Rico are reluctant to vote on a plebiscite without Congress 
agreeing to implement the results.
    This bill is a good first step to decolonize the territory of 
Puerto Rico. But H.R. 2499 does not commit or mandate the U.S. Congress 
to implement the will of the democratic expression of 4 million 
American citizens. This bill must establish in the minds of every 
member of this Congress and the President that the will of our citizens 
in Puerto Rico must be respected and implemented. Without a commitment 
from Congress to implement the democratically expressed result is to 
deny freedom. A non-commitment will certainly communicate and transmit 
to our Latin American neighbors that this Nation is not willing to 
treat as equal citizens of Hispanic origin.
    Maintaining 4 million American citizens in the territory without 
the empowerment of equality is to maintain a state of apartheid in the 
twenty first century. If our Nation wants to project trust and goodwill 
to our neighbors and the international community it must eliminate the 
anachronism of a territory with four million unequal American citizens.
    I strongly believe that H.R. 2499 should be amended in Section 3, 
to add a new Paragraph (e), stating that the U.S. Congress shall 
execute the results of the Second Plebiscite and approve legislation to 
implement the mandate of the people.
    The status issue is simply an issue of civil rights. It is an issue 
of recognizing equality for 4 million American citizens. Today, our 
Nation is in a defining moment. The way this Congress and this 
President resolves the political condition of 4 million American 
citizens residing in Puerto Rico is being watched by all free men and 
all freedom-loving nations to determine how committed is the United 
States in recognizing our right to be equal.
    Last May, a handful of citizens from Puerto Rico interrupted a 
session of Congress to express their frustration about our political 
status. While we know that the vast majority of Puerto Ricans do not 
share the political views of this small group, the fact remains that 
the American citizens of Puerto Rico do want Congress to listen. Give 
the people of Puerto Rico the opportunity to properly express 
themselves by approving H.R. 2499 and you will realize that, just as 
our men and women in uniform have defended the American flag, our 
people deeply value the democratic principles that America represents.
    In a letter to Henry Pierce written on April 6, 1859 President 
Lincoln said ``those who deny freedom to others, deserve it not for 
themselves; and under a just God, cannot long retain it.'' Give the 
people of the territory of Puerto Rico the freedom to choose a final 
political solution by providing a fair and legitimate self-
determination process based on non territorial, non colonial final 
permanent options.
    I respectfully ask you to succeed where more than 50 previous 
Congresses have failed. I ask that you recommend to the House the 
approval of the Puerto Rico Democracy Act of 2009 and I respectfully 
request that you adopt the suggested amendments.
    Thank you very much.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Senator, for your 
testimony, and I would like to now recognize The Honorable Jose 
L. Dalmau-Santiago, the Minority Leader of the Senate of Puerto 
Rico.

             STATEMENT OF JOSE L. DALMAU-SANTIAGO, 
             MINORITY LEADER, SENATE OF PUERTO RICO

    Mr. Dalmau-Santiago. Thank you, Madam Chairwoman and 
honorable members and Commissioner Pedro Pierluisi. I was 
invited as Senate Minority Leader of the Popular Democratic 
Party to testify before this Committee regarding H.R. 2499. The 
principal language spoken in Puerto Rico is Spanish, and as 
such, I will present my testimony in Spanish, but you have a 
copy in English from my testimony.
    [Testimony in Spanish.]
    Thank you.
    [The prepared statement of Mr. Dalmau-Santiago follows:]

          Statement of The Honorable Jose L. Dalmau-Santiago, 
 Minority Leader of the Popular Democratic Party, Senate of Puerto Rico

    Mr. Chairman and Honorable Members of the Committee on Natural 
Resources:
    I was invited as Senate Minority Leader of the Popular Democratic 
Party to testify before this Committee regarding H.R. 2499.
    The principal language spoken in Puerto Rico is Spanish. Therefore, 
I will present my testimony in Spanish.
    Before providing my comments regarding H.R. 2499, I deem necessary 
to address a serious concern. Puerto Rico has had a relationship with 
the United States for more than a century; the last 57 of which under 
the Commonwealth status, as recognized under the pact contained in 
Public Law 600. During this relationship there have been various 
plebiscites to consult the status preferences of the People of Puerto 
Rico. The results of those electoral events, have demonstrated a firm 
rejection of the independence and statehood options.
    There have been other Congressional initiatives for a self-
determination process, including the one promoted by congressman J. 
Bennet Johnston's in the 1980's, H.R. 856, known as the Young Bill in 
1998--which was also considered by this Committee, H.R. 900 two years 
ago and now H.R. 2499.
    At the core of a self-determination process is the will of the 
Members of Congress to respect and fulfill the will of the People of 
Puerto Rico, since it is up to the People of Puerto Rico to finally 
decide their status preference. Are you ready to accept the will of the 
People of Puerto Rico which could include modifications under a new 
Commonwealth model or to grant statehood or independence? That is a 
question you have to answer.
    Now, as a firm believer in the Commonwealth status option, which 
has served the People of Puerto Rico well for over half a century, I 
hereby submit to this Committee my statement in opposition of H.R. 
2499.
    H.R. 2499 is the offspring of the failed H.R. 900, which was, in 
turn, the product of the Bush-Cheney task force on Puerto Rico. It 
reflects the same distorted democratic values that became prominent 
during the previous Administration. The Bush-Cheney task force report 
adopts the flawed conclusion that the U.S. Constitution somehow 
prohibits a relationship with Puerto Rico based on mutual consent, 
anchored in the sovereignty of the People of Puerto Rico and our U.S. 
citizenship.
    H.R. 2499 promotes a sui-generis two-round election process, which 
is totally biased in favor of the statehood option, as it proposes a 
Commonwealth yes or no vote, with a run-off round between various 
status options which have not been the historical preference of the 
People of Puerto Rico. This is clearly not a democratic self-
determination process but a heavy biased plebiscite from the start.
    President Obama laid out the framework for resolving the Puerto 
Rico status question in his February 12, 2008, letter to Gov. Acevedo 
Vila, copy of which is included for the record. The process, the 
President said, has to be ``genuine and transparent'', ``true to the 
best traditions of democracy''. It has to be ``deliberative, open and 
unbiased'' and must ``recognize all valid options... including 
commonwealth, statehood, and independence.'' On that same spirit, the 
platform of the 2008 Democratic Party Convention states that ``[t]he 
White House and Congress will work with all groups in Puerto Rico to 
enable the question of Puerto Rico's status to be resolved during the 
next four years. H.R. 2499 is not on the same track as the President or 
the Democratic National Committee which received the endorsement of the 
People of the United States A just and democratic self-determination 
process requires that all valid options receive equal treatment. That 
is what International Law requires and what is fair in a democracy.
    I recommend a self-determination process which will provide the 
People of Puerto Rico with an alternative to reach a consensus 
regarding the acceptable status options. I am referring to the 
Constitutional Assembly method. This alternative provides for an ample 
dialogue and a frank discussion between proponents of the different 
status options as well as facilitates a viable consensus for the status 
solution in the Island.
    The Constitutional Assembly is not a new or novel process for the 
United States or Puerto Rico. The Constitution of the United States was 
adopted by a Constitutional Assembly convened in Philadelphia, in 1787. 
The Constitution of the Commonwealth of Puerto Rico was adopted by a 
Constitutional Assembly convened from September 1951 to July of 1952. 
Both Magna Cartas are important documents that have served as model for 
other democratic societies. Many Puerto Ricans have given their lives 
to defend the principles therein contained.
    The Constitutional Assembly has been also amply used as the method 
of choice by the different territories in their quest to petition for 
statehood. The Constitutional Assembly should be considered by this 
Committee as a viable alternative to finally resolve the status 
question. H.R. 2499 does not include this alternative. I totally agree 
with the petition from various factions in the sense that we have to 
express our preferences on the status issue. However, the method 
proposed by H.R. 2499 is incorrect, anti-democratic and unjust to the 
People of Puerto Rico. H.R. 2499 does not provide for a fair process.
    Nevertheless, our current relationship with the United States 
requires modifications to facilitate our insertion in the global 
economy and benefit from it.
    There are other issues that should be part of the status 
discussion. For example, the restrictions imposed by the Maritime 
Cabotage Laws. Puerto Rico is currently required to exclusively use 
U.S. merchant vessels for maritime transportation. This situation 
results in the imposition of a significant additional cost to the 
Island's cargo operations that depends almost 100 % on maritime 
transportation for the importation and exportation of goods. This 
restriction imposes on Puerto Rico a serious competitive limitation in 
the Island's ability to market its products internationally. The 
Commonwealth should have the flexibility to choose maritime providers 
based on competitive principles which would benefit the Island's 
consumers, would provide investors with an additional incentive to 
invest in our economy and would promote the economic development of our 
country.
    Exclusion from the applicability of the Maritime Cabotage Laws is 
nothing new to Congress because the Virgin Islands, Marianas, Guam, 
American Samoa, Wake and Midway are currently exempted from this 
restriction. The proposed exclusion is an indispensable component for 
the development of strategic projects in our country, such as the Port 
of the Americas, a major transshipment with value added and domestic 
cargo port. Hawaii and Alaska are other Untied States jurisdictions 
that are exploring alternatives to become excluded from this 
restriction, to further the development of their economies.
    For the reasons described above, we oppose H.R. 2499 and submit the 
Constitutional Assembly alternative as the most democratic and viable 
option to allow the People of Puerto Rico to express its will.
    Thank you.
    Annex: Letter of Barack Obama to the Hon. Anibal Acevedo-Vila, 
Governor of Puerto Rico, February 12, 2008

    [The letter from Barack Obama follows:]

    [GRAPHIC] [TIFF OMITTED] T0610.003
    
    [GRAPHIC] [TIFF OMITTED] T0610.004
    
                                ------                                


    Ms. Bordallo. I thank the Minority Leader from the Puerto 
Rico Senate for his testimony, and we do have the English 
version here for the record, and now I would like to recognize 
The Honorable Jenniffer Gonzalez, the Speaker of the Puerto 
Rico House of Representatives. Madam Speaker.

            STATEMENT OF JENNIFFER GONZALEZ-COLON, 
         SPEAKER, PUERTO RICO HOUSE OF REPRESENTATIVES

    Ms. Gonzalez-Colon. Thank you, Madam Chair and all 
distinguished members. First of all, I would like to clarify 
that the Bush Task Force reports were based on legal opinions 
of the Clinton Justice Department, and I think that is 
important to the record. I am the Speaker of the Puerto Rico 
House of Representatives, and here on behalf of over 4 million 
of your fellow citizens living in Puerto Rico. We are American 
citizens but we cannot vote for our nation's President and do 
not have a voting representation in this Congress.
    We have one representative who cannot vote in the full 
House, not even for this bill which determines our future. In 
the past days, we have witnessed millions of people marching 
and protesting in a distant land to defend the votes they cast. 
They are risking their lives to defend their right to vote. I 
am here to support H.R. 2499 because we, your fellow citizens, 
also have the right to choose our destiny. This bill will 
finally authorize our people to vote on whether we want to 
continue under current conditions or choose a different one.
    Opponents allege that the bill is not fair and that is 
leans the vote against the current relationship. Of course, 
that is not true. The basic question before voters whether they 
still consent to live in a territory, if the voters support the 
territory, then it is clear that the majority of Puerto Ricans 
truly favored the current colonial arrangement. However, if the 
territory is democratically rejected, it means that the true 
majority of Puerto Ricans no longer consents to the territorial 
government. If that is the case, Puerto Ricans will then choose 
between status options that end the territorial condition.
    Opponents also allege a lack of consensus. I do not agree 
on that either. The language of the bill reflects our Resident 
Commissioner's efforts to reach a consensus and address 
opponent objections, well-grounded or not. For instance, I 
believe that the current undemocratic arrangement is the real 
problem, and as such, it should not be an option. Yet, this 
bill allows Puerto Ricans who support it a vote in order to 
extend it. Further, the bill does not label the current 
commonwealth as territorial, as some requested, nor does it 
make clear that under it, Puerto Rico is subject to 
congressional authority under the territory clause, allowing 
some supporters to continue the claim that claims that it is 
not.
    Despite the both, I support this bill. I support H.R. 2499. 
I also reject the claim of lack of consensus because some use 
it to further delay a right to vote. There is consensus that a 
non-colonial solution is needed, but if what opponents mean by 
consensus is unanimity about means and ends, then that is just 
a way to prevent anything from happening. Despite the numerous 
bills that have been discussed in this Congress to this day, 
supporters of some sort of new territory are still debating 
exactly what they want to propose.
    On multiple occasions, members of the House and the Senate 
have rejected the variations presented by those who favor an 
enhanced form of territorial government, because they were not 
viable under the Constitution. Accordingly, and after a strong 
lobbying effort, the process has been delayed, ironically 
because supporters of the current relationship cannot even 
reach an internal consensus on what they want. But while they 
claim to reach a consensus of their highly mutating territorial 
option, they continue to deny us our right to vote.
    That should not be the case right now. As mentioned above, 
the current territory is on the first ballot. Despite arguments 
to the contrary, the bill does reflect our Resident 
Commissioner's efforts to address opponent objections and to 
reach a real consensus. I have to add that that effort, despite 
the fact that the opinions as to how we will solve Puerto 
Rico's status were very clear to the voters in the last 
November election, opponents of this bill ran on a platform 
that included the arguments brought forth today. However, 
supporters of this bill won most office in Puerto Rico, 
including Governorship, the Resident Commissioner, as well as 
the State House and Senate. The will of the people, of course, 
is very clear.
    Finally, a lot has been said about the fact that in over 
111 years, Congress has never given Puerto Ricans an 
opportunity to hold a vote between viable alternatives to solve 
this fundamental issue. We think the time has come for this to 
change. As citizens of this brave democracy, we need the 
government to allot us one more day without at least asking 4 
million of its citizens whether we will further consent to live 
under the government based on legislation without 
representation.
    That is the real issue here, civil rights, and we demand to 
vote. Thank you, Madam Chair, and thank you, distinguished 
members of the Committee.
    [The prepared statement of Ms. Gonzalez-Colon follows:]

        Statement of The Honorable Jenniffer A. Gonzalez-Colon, 
             Speaker, Puerto Rico House of Representatives

    Mr. Chairman and Distinguished Members,
    I am the Speaker of the Puerto Rico House of Representatives, here 
on behalf of over four million of your fellow citizens living in Puerto 
Rico.
    We are American citizens, but we cannot vote for our nation's 
President and do not have a voting representation in this Congress. We 
have one representative who cannot vote in the full House--not even for 
this bill, which determines our future.
    In the past days, we have witnessed millions of people marching and 
protesting in a distant land, to defend the votes they cast. They are 
risking their lives to defend their right to vote.
    I am here to support H.R. 2499 because we, four million of your 
fellow citizens, also have the right to choose our destiny.
    H.R. 2499 would finally authorize our people to have a binding vote 
on whether we want to maintain the current political condition, or 
choose a different one.
    Critics argue that the bill is not fair and that it leans the vote 
against the current relationship. Not true.
    The basic question before the voters is whether they still agree--
and consent--to live in a territory.
    If the voters support the current relationship, then, it is clear 
that the majority of Puerto Ricans truly favor the current colonial 
arrangement.
    However, if the territory is democratically rejected, it means that 
the majority of Puerto Ricans no longer give their consent to the 
territorial government.
    If that is the case, then Puerto Ricans will choose between status 
options that end the territorial and colonial condition.
    Critics also argue that the process lacks consensus. I do not 
agree.
    The language of the bill reflects our resident commissioner's 
efforts to address objections of opponents--well-grounded or not.
    For instance, I believe that the current undemocratic arrangement 
is the problem--and it should not even be an option. Yet, note that the 
proposal, first of all, allows Puerto Ricans who support the present 
relationship a vote to keep it.
    Further, note that the bill does not label the current 
``Commonwealth'' as territorial nor does it state that under it, Puerto 
Rico is subject to congressional authority under the Territories 
Clause--allowing some supporters to continue their claims that it is 
not.
    I also reject the claim of lack of consensus as an objection to the 
bill because, ultimately, some simply use it to further delay Puerto 
Ricans' right to vote between non-territorial and non-colonial options.
    There is consensus that a non-colonial solution is needed. But, if 
what critics mean by ``consensus'' is unanimity, about means and ends, 
then that's just a way to prevent anything from happening.
    Despite the numerous bills that have been discussed in this 
Congress, to this day, supporters of some sort of new territory are 
still debating exactly what they want to propose.
    In multiple occasions, and throughout various processes in 1989, 
1991, 1996, and 1998, members of the House and the Senate rejected the 
variations presented by those who favor an ``enhanced'' form of the 
territorial government because they were simply not viable under the 
Constitution. Accordingly, and after a strong lobbying effort, the 
processes have been delayed, ironically, because supporters of the 
current relationship cannot even reach an internal ``consensus'' on 
what they want.
    But, while they attempt to reach a consensus in their highly 
mutating territorial option, they continue to deny the rest of their 
fellow citizens a right to vote.
    That should not be the case on this occasion, because, as mentioned 
above, the current territory is on the first ballot.
    As further evidence that this is a fair proposal, we note that it 
does not include--as some requested--as an alternative to the current 
Commonwealth the proposal that Puerto Rico be empowered to nullify 
federal laws, to enter into international agreements while being in an 
association with the U.S. that the U.S. cannot change and, further, 
that the U.S. be permanently required to provide always more benefits 
than at present--proposals that this Committee and all other federal 
authorities have said are impossible.
    As you can see, despite arguments to the contrary, the language of 
the bill genuinely reflects our resident commissioner's efforts to 
address opponents' objections.
    I have to add that our resident commissioner has made that effort, 
despite the fact that differences as to how we would resolve the 
fundamental issue of Puerto Rico's status were clear to voters in the 
last election.
    Opponents of the process encompassed by the bill ran on a platform 
that included the arguments brought forth today. They not only lost, 
but they lost overwhelmingly. Advocates of this process and this bill 
won most offices in Puerto Rico; including the governorship, the 
resident commissioner, as well as the State House and Senate. The will 
of the people is clear.
    Finally, a lot has been said about the fact that in over 111 years, 
Puerto Ricans have never been given a real opportunity by the Congress 
to hold a binding vote between viable alternatives to this fundamental 
issue. The time has come for this to change. As citizens of the 
greatest democracy in history, it is our right.
    As the heirs of the Revolution of 1776, this government should not 
allow one more day to go by without at least asking four million of its 
citizens whether they further consent to live under a government based 
on ``legislation without representation.''
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Speaker Jenniffer 
Gonzalez, for your testimony, and the Chair now recognizes The 
Honorable Eduardo Bhatia, Designee of the House Minority 
Leader. You can proceed.

         STATEMENT OF EDUARDO BHATIA, DESIGNEE OF THE 
                     HOUSE MINORITY LEADER

    Mr. Bhatia. Good morning, Madam Chairwoman and dear members 
of the Committee. My name is Eduardo Bhatia. I am a member of 
the State Senate in Puerto Rico. It is a great honor to be 
here. I was here, actually, in this very same room in the 1980s 
when Moe Udall was the Chairman and Ron DeLugo was among us at 
the time. I was here in the 1990s, and I actually testified 
before the Committee, when Don Young was the Chairman. I was 
here in 1998 testifying on this very same issue.
    I am here almost 20 years later exactly in the same place 
discussing the same things we were discussing 20 years ago, and 
I am sure some folks like Senator Berrios was here when, 
probably say he was here 40 years ago discussing exactly the 
same issues. The last four years, I met with so many of you, as 
I was a representative of the Governor of Puerto Rico here in 
Washington, D.C., and many of you generally asked me the very 
same question, which is, what should be the position of the 
U.S. Congress as it regards to Puerto Rico?
    I think the answer rests on two principles that truly 
represent the democratic aspirations of the people of Puerto 
Rico. First, whether one likes it or not, whether one thinks 
about it or not, Puerto Rico is a nation from a sociological 
point of view, and I welcome the Committee, the whole 
Committee, to come to Puerto Rico and hold hearings in Puerto 
Rico. I think it is important that that recognition be made 
before anything moves forward. Puerto Rico is a nation.
    It hurts some people's ears and I don't know why. The truth 
of the matter is that if Puerto Rico became a state, and I 
think it could become a state, it would be a nation becoming a 
state, and that is not a decision for Puerto Ricans to make. It 
is a decision also for the United States to make when it makes 
up its composition of what states should be, but the starting 
point should be, Puerto Rico is a nation.
    The second point that I think is very important to 
understand about Puerto Rico is that in 1917, without Puerto 
Ricans even asking for it, Puerto Ricans were given U.S. 
citizenship, and it has become, 100 years later, it has become 
a token of what Puerto Ricans do want. Puerto Ricans want to 
keep their U.S. citizenship. So the question that has 
confronted Puerto Ricans throughout the last 100 years is, what 
to do with the fact that you are a nation with U.S. 
citizenship.
    How do you reconcile both concepts? Is there a way of doing 
it? If there is no way of doing it, then we should just, you 
know, shut the lights and go home and that is it, but is there 
a way of reconciling the fact that you are a nation with U.S. 
citizenship? How do you balance both issues? And that is 
exactly what the people of Puerto Rico are asking us to do, 
reconciling both things. Now, the way your predecessors in 
Congress did it was they created something called commonwealth, 
and I am the first one, and I am from the Commonwealth Party, 
to admit that commonwealth has many problems and commonwealth 
has to be improved, and throughout the years I can say that 
there are so many ways that we can sit down and work on the 
defects that we have seen and identified within commonwealth.
    Now, your predecessors were bold, creative, smart, 
visionary and open-minded, and the idea of creating a new 
relationship between Puerto Rico and the United States 
obviously did not like those, and it is the case today, 
obviously it was not liked by folks who support independence or 
statehood. Those who support independence and those who support 
statehood do not like the idea that there is a middle ground, a 
balanced position, because obviously if you are for 
independence or statehood, you do not like that center.
    That center is always hated. In every society, the center 
is hated by both the left and the right, and that is exactly 
what happens in Puerto Rico. So that brings us to today. The 
question is, and the challenge before this Committee and before 
the people of Puerto Rico is, can Puerto Rican nationhood be 
reconciled with U.S. citizenship in Puerto Rico?
    And I will just end, Madam Chairwoman, with, I would say, 
five lessons, quickly, five lessons that we have learned over 
the last maybe 50 years, 40 years, 30 years. First, the 
recognition that Puerto Rico is a nation has to be inserted 
somewhere in the process. Second, yes, U.S. citizenship is 
very, very important for many reasons to all Puerto Ricans, 
regardless of what political party you belong to. Third, this 
bill does not work. It violates the Speaker's, Speaker Pelosi's 
commitments to Puerto Rico about consensus and its consensus 
about the process, and it doesn't have the support of a single, 
other than the Resident Commissioner, a single Puerto Rican 
Member of Congress.
    I think the fact that they are not here today says millions 
about this bill. Also, the fact that the White House is not 
here today speaks volumes of the lack of support to the process 
that wants to be established through 2499, and I think, 
honestly, that the problem is, and I think it is, you know, and 
I love it, and I will finish with this, the problem with 2499 
is when you are in the center, when you are in the middle in 
any political fight, it is obviously the left and the right who 
want to define you.
    Some people want you to push one way. Other people want to 
push you the other way. We who are representing commonwealth 
say, we want to define ourselves. Why don't you define 
statehood, those who support statehood, you define independence 
and your terms on independence. We on the commonwealth side, we 
will define what commonwealth is and we will work it out with a 
U.S. Congress, and that is exactly what we mean by a 
constitutional convention.
    I will finalize by saying, Madam Chairwoman, that something 
that has not been articulated enough in this hearing is the 
fact that the White House is working on this issue. We have a 
new President who has a sensitivity to the issue of nationhood, 
someone who comes from an island, Hawaii, an island nation in a 
way, someone who can actually put together the idea that we 
could all build a consensus, and I would say, to finish, that 
let us give room to the White House.
    I think before we move forward with 2499, we should give 
room to the White House to come up with what proposal they 
have. It is a new President, new administration, and I think 
the smart thing to do would be to stop the proceedings at some 
point in the near future and sort of allow the White House to 
come up with a former proposal on what to do with Puerto Rico. 
Thank you very much.
    [The prepared statement of Mr. Bhatia follows:]

          Statement of The Honorable Eduardo Bhatia, Senator, 
                      Commonwealth of Puerto Rico

    Good afternoon. My name is Eduardo Bhatia, I am a state Senator in 
the Commonwealth of Puerto Rico and I appear before you today on behalf 
of the legislative conference of the pro-Commonwealth Popular 
Democratic Party.
    As all of you, I am a legislator.
    A legislator from Puerto Rico totally opposed to H.R. 2499.
    A legislator who, as a young man, was in this very room when 
Congressmen Ron De Lugo and Mo Udall faced the very same issue in the 
1980's. I was here in the 1990's addressing the same issues when 
Congressman Don Young was chairman of the Committee. I even testified 
before this Committee in 1998. And for the past four years I was the 
Representative of the Governor of Puerto Rico in Washington, DC and 
personally met with many of you who genuinely asked me a simple yet 
elaborate question: What should be the position of the United States 
Congress on the political relationship between Puerto Rico and the 
United States?
    The answer rests on two principles that truly represent the 
democratic aspirations of the people of Puerto Rico:
    First, Puerto Rico is a nation. From a sociological standpoint, it 
is a nation. And the people of Puerto Rico behave as a nation. I 
strongly encourage you to come visit us and experience it for 
yourselves.
    Second, your predecessors in the United States Congress granted 
Puerto Ricans United States Citizenship in 1917. That citizenship has 
meant abundant and numerous rights and responsibilities for the people 
of Puerto Rico, who cherish and value it.
    Now, the only--and I mean only--issue before you today is how to 
reconcile both concepts within the relationship of Puerto Rico and the 
United States.
    Your predecessors faced and grappled that issue in the 1950's. And 
the answer for both the people of Puerto Rico and the U.S. Congress was 
not statehood. And the answer was not independence. They created 
something called ``Commonwealth'' that in essence recognized and 
celebrated the very fundamental nature of the Puerto Rican nation and 
at the same time formed an everlasting bond through the assurance of 
United States citizenship. The United Nations and the United States 
Supreme Court validated the relationship that, although imperfect in 
many ways, reconciled what seemed as an impossible exercise in 
policymaking.
    Your predecessors were bold, creative, smart, visionary, and open 
minded in the aftermath of the Second World War. And the people liked 
it. To be sure, it was that mutual validation in July of 1952 by 
Congress and the people of the island, which prompted the International 
Olympic Committee during the 1952 Helsinki Olympics to raise for the 
first time the flag of Puerto Rico as a nation at that international 
sports event. It is still being raised today.
    Your challenge, of course, is to answer the same question in the 
21st century:
    Can Puerto Rican nationhood with United States citizenship be 
reconciled? Yes or no? And if the answer is yes, how to do it?
    Of course, those who favor statehood for Puerto Rico and the 
abundantly rich and resourceful statehood lobby ``many of whom are here 
today--will try to convince you that the answer is NO. They base their 
conclusions exclusively on political strategy. You see, it is very 
simple: as long as ``commonwealth'' is an option, statehood will not 
win a plebiscite in Puerto Rico. That was the case in the 1993 
plebiscite and again in 1998. The lesson is very clear: people do not 
want statehood because there is a sense of Puerto Rican nationhood that 
is threatened by that concept. And rightly so!
    And if there is a lesson to be learned from Iraq, from the Basque 
Country in Spain, from the Quebecois people in Canada, from the Irish 
in Northern Ireland, from the Serbians in former Yugoslavia is that 
nationhood means so much in the core of a society.
    But the people of Puerto Rico do not want independence either. Less 
than 5 percent of the population favors independence because the 
existence and permanence of United States citizenship would be 
threatened.
    This state of affairs is the result of over 100 years of federal 
policymaking... Please do not blame the Puerto Ricans! For almost 60 
years the way to reconcile both aspirations and keep the right balance 
was the commonwealth relationship. And even today, when we are faced 
with the same dilemma, an enhanced form of commonwealth should not be 
perceived as the problem. It is the answer to the dilemma.
    And therein lies the problem with H.R. 2499. In a very simplistic, 
yet undemocratic and shameful way tries to push statehood without any 
recognition of the historical aspirations of the people of Puerto Rico 
and the fine, yet carefully crafted, balance that Commonwealth brought 
about. This bill violates the commitment of Speaker Nancy Pelosi to 
create a consensus process. There is no consensus as you have heard 
over and over today.
    And you may ask what is wrong with just consulting the people of 
Puerto Rico? The devil is in the details.... Consulting them about 
what? What are the terms of each option? Should it be left to anyone's 
imagination to come up with illusory arrangements? For example, will 
Puerto Rico be truly admitted as a state? What are terms of that 
``sovereign'' option? Should it not make more sense to define them 
fully first in consultation with the people of Puerto Rico and then 
proceed to a vote when the process is mature for a vote?
    It should come as no surprise then that senior Puerto Rican Members 
of Congress, to wit: The Chair of the Hispanic Caucus and Chairwoman of 
the Small Business Committee Nydia Velazquez and Congressman Luis 
Gutierrez from Chicago do not support this bill.
    It is very clear to me as a Puerto Rican, as a legislator and as a 
long time observer and participant in this progression that the people 
of Puerto Rico want to continue the course of action that allowed the 
United States and Puerto Rico to reconcile the two principles of local 
nationhood and U.S. citizenship.
    And it can be done, but the way to do it is not H.R. 2499. It is 
through a process of mutual consent; of mutual negotiation; a process 
of creative policymaking and of recognizing and celebrating the most 
fundamental democratic principles and bonds that have made the 
relationship work for so long.
    That is why I favor a more coherent process that many in Puerto 
Rico and here in Washington, D.C. call a constitutional convention. 
Just like it has been done for so many other genuine political dilemmas 
in the history of the United States, I favor a constitutional 
convention to carefully craft a future for Puerto Rico. It is the only 
way to inject common sense to this debate.
    Members of Congress: that is exactly what President Barack Obama is 
trying to do. In a letter dated February 12, 2008, he stated:
        As President, I will work closely with the Puerto Rican 
        government, its civil society, and with Congress to create a 
        genuine and transparent process of self-determination that will 
        be true to the best traditions of democracy. As President, I 
        will actively engage Congress and the Puerto Rican people in 
        promoting this deliberative, open and unbiased process, that 
        may include a constitutional convention or a plebiscite, and my 
        administration will adhere to a policy of strict neutrality on 
        Puerto Rico status matters. My Administration will recognize 
        all valid options to resolve the question of Puerto Rico's 
        status, including commonwealth, statehood, and independence.
    So, today my first conclusion would be: let the White House take 
the lead on this issue. A new President who has the background to fully 
understand the depth of the nationhood argument and is sensitive to the 
political aspirations of an island-people should be given room to 
elaborate a plan for the United States in consultation with Puerto 
Rico. H.R. 2499 shuts the door to a new White House and essentially 
follows old, tainted and discredited views on what to do about Puerto 
Rico.
    I am aware that this debate--and H.R. 2499--are polluted with the 
existence of two recent reports that were designed to deny any future 
development of the Commonwealth. The Bush Reports adopt the legal 
conclusion that the U.S. Constitution somehow prohibits a relationship 
with Puerto Rico based on mutual consent, which is anchored in the will 
of the people of Puerto Rico, along with U.S. citizenship. The real 
effect of the reports is nil as the Executive has no authority to 
interpret the law and numerous federal appellate and Supreme Court 
decisions on the matter. However, the statehood lobby intends to give 
this fallacious report great weight and this Congress would in fact be 
giving this Bush era relic legal authority were it to move forward on 
H.R. 2499.
    And to those in this room who favor statehood and for purely 
political reasons insist that an enhanced commonwealth is impossible 
under the United States Constitution, I challenge you today to go a few 
blocks from here to the Georgetown Law School and spend 15 minutes with 
Dean Alexander Aleiknikoff who has clearly stated:
        If both the Congress and the people of Puerto Rico seek to 
        establish a new relationship that recognizes space within the 
        American constitutional system for ``autonomous'' entities, it 
        ill behooves either the executive branch or the judiciary to 
        set such effort aside in the name of nineteenth-century 
        conceptions of sovereignty. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Aleinikoff, Alexander, SEMBLANCE OF SOVEREIGNTY, pages 92-93, 
Harvard University Press (2002)
---------------------------------------------------------------------------
    Moreover, constitutional Law Professor, Richard Pildes, from the 
New York University School of Law, while describing the Bush Reports on 
the status of Puerto Rico constitutional analysis as ``unpersuasive and 
inadequate,'' concludes that regarding the possible future development 
of Commonwealth:
        In my view, were the United States Congress and the people of 
        Puerto Rico to prefer expanding the existing Commonwealth 
        relationship, in a way that provides greater autonomy for 
        Puerto Rico on the basis of mutual consent, it would be 
        unfortunate, even tragic, for that option to disappear due to 
        confusion or error about whether the Constitution permits 
        Congress to adopt such an option. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Pildes, Richard, TESTIMONY BEFORE THE COMMITTEE ON NATURAL 
RESOURCES SUBCOMMITTEE ON INSULAR AFFAIRS OF THE U.S. HOUSE OF 
REPRESENTATIVE ON H.R. 900 AND H.R. 1230, page 1, March 22, 2007
---------------------------------------------------------------------------
    Professor Pildes stated in his testimony before the Subcommittee on 
Insular affairs on March 22, 2007, that:
        ``Congress does have the power, should it choose to use it, to 
        enter into a mutual-consent agreement that would create and 
        respect more autonomous form of Commonwealth status for Puerto 
        Rico, in which Congress would pledge not to alter the 
        relationship unilaterally.'' <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Id., pages 6-7.
---------------------------------------------------------------------------
    Similar conclusions where reached by Charles Cooper, former head of 
the Office of Legal Counsel at the U.S. Department of Justice:
        ``In short, there is no support for a reading of the 
        Constitution that unnecessarily restricts the political 
        arrangements available to the President and Congress in 
        fashioning binding consensual solutions to the Nation's 
        relations with the people of its territories.'' <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Cooper, Charles, THE POWER OF CONGRESS TO VEST JURIDICAL STATUS 
IN PUERTO RICO THAT CAN BE ALTERED ONLY BY MUTUAL CONSENT, page 7, 
September, 2005 (Memorandum presented to the U.S. Department of Justice 
on behalf of the Government of Puerto Rico).
---------------------------------------------------------------------------
    All of these outstanding constitutional scholars are available to 
clarify these notions before proceeding with this ill-conceived bill.
    Finally, Mr. Chairman, as my second and last conclusion, I would 
urge this Committee to reject H.R. 2499 as it represents a setback for 
the aspirations of the people of Puerto Rico. There is a much better 
path and the White House is working with the leadership of Puerto Rico 
to craft the much needed consensus to move forward this debate. Give 
them a chance.
    Thank you.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman for his testimony and I 
do want to set the record straight to clarify, the White House 
is not here today because we called this hearing to hear from 
the elected leaders from Puerto Rico. So perhaps in the future 
we could, but we just invited the elected leaders from Puerto 
Rico to hear from them. At this time, the Chair recognizes the 
gentleman from Puerto Rico, Mr. Pierluisi.
    Mr. Pierluisi. Yes, I will try to be brief. I will start in 
reverse order first with Mr. Bhatia. Thank you for being here, 
Eduardo.
    Mr. Bhatia. Thank you.
    Mr. Pierluisi. Let me just quickly react and then ask you a 
question that I asked before but I didn't get an answer. First 
of all, you mentioned that my fellow Puerto Rican members are 
not here present. Let me just say for the record that I hold 
them in the highest esteem, but you have to understand, I am 
the legal representative of Puerto Rico before this Congress, 
and this issue has to do with Puerto Rico, so I have taken the 
lead, as I should, and the members of this Committee are all 
listening, will take into account everything that is said in 
here, and when the time comes, the bill will continue its 
course and we will see what is the will of this Congress.
    Now, another reaction that I have to what you are saying is 
this has nothing to do with left and right. This has only to do 
with democracy, with hearing directly from the people of Puerto 
Rico on the most important question that we are facing as a 
people, so it has nothing to do with being on the left, on the 
right. Insofar as President Obama is concerned, his position is 
already in writing, crystal clear. He supports a fair, neutral, 
democratic process for dealing with this issue.
    I stand by H.R. 2499 as a fair process for dealing with 
this issue. Having said that, I am open to any amendments. Now, 
let me go to the question. I asked Mr. Ferrer, and I hear all 
this that you mention about nationhood and Puerto Rico being a 
nation and whether Puerto Rico can be part of the U.S. or 
become a state being a nation. Let us go straight to the bill. 
What is wrong with the option that I am giving, not me, the 
bill, 2499 says, in the second plebiscite, one of the options 
is called sovereignty in association with the United States: 
Puerto Rico and the United States should form a political 
association between sovereign nations that will not be subject 
to the territorial clause of the United States Constitution.
    What is wrong with that? How is that inconsistent with 
anything you said and anything that your party said in its 
platform?
    Mr. Bhatia. OK, let me--I think--is that, done the 
question?
    Mr. Pierluisi. Yes.
    Mr. Bhatia. OK. Let me address the first two issues first, 
and I will be more than happy to address the last issue. First, 
the other Members of Congress represent also 4 million Puerto 
Ricans who live in the United States, so you are the 
representative of Puerto Rico, and I recognize that and I am 
very, I respect you for that, but I think there is another 
nation of Puerto Ricans who also live here, and by that, what I 
meant was that the Speaker of the House wanted to have a 
consensus bill worked out with those Members of Congress for 
whom this is very dear to their heart, and I know you are the 
representative of Puerto Rico, but there are Members of 
Congress who love Puerto Rico as much as you do and who come 
from Puerto Rico and who represent Puerto Ricans as well, and 
what I am saying is, the fact that this bill is flawed comes 
from the fact also that those Members of Congress are not even 
supporting that bill, and that is the point I am trying to 
make.
    I am trying to make the point that there are cracks all 
over this bill in terms of the process in which we are moving 
forward. Second, what I meant by left or right, in the case of 
Puerto Rico, it is not left or right. What I am saying is, it 
is always great and it always sort of puzzles me and it is 
great how in order for others to define you, it sort of makes 
them big or makes them great. The point I am making is, as part 
of the Commonwealth Party, and it also happens in other 
societies where it is not commonwealth, it is really the 
moderates, the centrists, it is always the extremes who want to 
define you, and the point I was trying to make, take away the 
left or right, is that it is always funny that independence 
supporters and statehood supporters come here to give this, you 
know, constitutional interpretations as though they were judges 
of the Supreme Court to tell us what commonwealth can and 
cannot do, and I encourage all of the members of the Committee, 
and I wish the Chairman was here today, to go down the street 
two blocks from here, Georgetown Law School.
    The Dean of the Georgetown Law School has written a book 
saying it is absolutely outrageous to think that in the 21st 
century, the U.S. Congress doesn't have the power or the 
authority to enter into whatever arrangement it wants. It is 
absolutely outrageous. I mean, the U.S. Congress, in a way, it 
is so powerful that it can really break into new ground and 
establish a relationship that works for the people, and I think 
that is exactly what this Committee should be looking into, not 
whether it fits into Article III or Section II of the--you 
know, I think that 19th century reading of the Constitution is 
absolutely outrageous.
    Finally, in terms of the definition of commonwealth, I 
think it is a choice of words, that is all. In your bill, for 
political purposes, I think it is not, you know, it is 
different if I wrote down, Puerto Ricans, would you like to 
vote to eliminate the Olympic Committee of Puerto Rico and pay 
taxes? If you feel you want to pay taxes and eliminate the 
Olympic Committee, vote here. I am describing statehood. There 
is nothing wrong with that, but it is just the language used.
    So I do agree that we could have a, you know, nice 
intellectual conversation as to whether the language used for 
the bill, but it is put there with a specific purpose. The 
devil is in the details. For me to go to voters would be 
simpler, would be less sophisticated, would be easier, to go 
and tell them, look, this is enhanced commonwealth, this is 
statehood, and this is independence. Otherwise, I am willing to 
allow you to define commonwealth, now you allow me to define 
statehood, and I think that would be fair. Otherwise, it would 
be totally undemocratic.
    Mr. Pierluisi. Madam Chair, I have more questions for the 
other members of the panel, if you allow me. If not, I will 
cede my----
    Ms. Bordallo. You go ahead, if we can----
    Mr. Pierluisi. OK, I will move it along. Just for the 
record, the bill provides for all those born in Puerto Rico to 
be able to vote, regardless where they reside, and for the 
record as well, there are close to, probably close to 4 million 
people of Puerto Rican descent living in the U.S. mainland, but 
by the way, they are not represented or they are not in three 
particular congressional districts. They are all over the U.S., 
and we just heard earlier today from Alan Grayson, the 
Congressman of Central Florida, who represents quite a few of 
them. That is just for clarification purposes.
    The Speaker of the House, could you, I noticed that you 
mentioned, you addressed the issue of consensus. You are so 
experienced in dealing with trying to reach consensus in the 
legislative process. Why do you believe consensus should not be 
an issue when dealing with Puerto Rico status?
    Ms. Gonzalez-Colon. Because it will be a moral issue. It 
will be a moral duty. Do we need consensus to send a soldier to 
Iraq? Do we need consensus to grant civil rights? Do we need 
consensus to grant a vote? Do we need consensus to enable 
democracy? Of course not, and in the past decades, we have been 
hearing the same arguments from the Populares and from those 
who don't want the people of Puerto Rico to have a real vote 
and a real chance to choose among real options to solve this 
colonial problem.
    There is a quote from Lyndon Johnson that said that voting 
is the first duty of democracy, and we preach democracy abroad, 
but we must practice its duty at home, and I think that we 
resume what we are talking about, consensus. The real consensus 
here is that many of those people who don't want the people of 
Puerto Rico to have a real vote to decide our future want us 
and want this Committee to continue the delay of that purpose, 
and that is why we have to move forward, and that is why we 
support this bill and that is why we ask the Committee and the 
Chair and all of you that can vote for the President, we cannot 
vote for the President.
    I know you don't have that vote, but we in Puerto Rico, we 
can send a lot of people to war. We can recently in the war 
memorial at the Capitol Building, we add some names days before 
from the people that went to war and never returned. Why we 
have to have that? Because of the lack of consensus? I really 
think that we don't need that in this bill, and we are only 
giving the opportunity to Puerto Rico to decide if we want to 
be as a colonial as we are or if we want to move to another 
option.
    Mr. Pierluisi. Very good. Thank you.
    Mr. Dalmau, in reviewing your statement and listening to 
you, I see that you are a fierce proponent of commonwealth, and 
one thing that I guess nobody can deny is that the government 
of Puerto Rico is called the Commonwealth of Puerto Rico. The 
name is set in our constitution, which was approved by this 
Congress. Having said that, I also think that today, everybody 
is in agreement that Puerto Rico is a territory of the United 
States. Now, how is this bill unfair when it allows anybody who 
supports commonwealth, in other words, the territory, to vote 
on the first ballot and say so?
    Mr. Dalmau-Santiago. I think that the first part of the 
bill is a trap for the commonwealth, and if you represent the 
people of Puerto Rico here and we represent the people of 
Puerto Rico in the Senate and the House in Puerto Rico, put in 
the bill, statehood, yes or no, and it solves the problem, 
because the first round to the commonwealth is a trap, because 
put two people, two parties in Puerto Rico against 
commonwealth. To solve the problem easy in these next four 
years, present to the people of Puerto Rico and the Congress, 
statehood, yes or no.
    Mr. Pierluisi. The ballot results will speak for 
themselves. Whatever percentage commonwealth or the territory 
gets will be there, and the Congress will have it. The same 
happens with the three recognized and viable status options. I 
don't believe anybody can deny that either. As a matter of 
international law and U.S. domestic law, the three viable, 
permanent options for Puerto Rico, status options, are 
independence, statehood and sovereignty in association with the 
United States. Do you disagree with that?
    Mr. Dalmau-Santiago. No, but the United Nations also 
permits the covenant between council countries, not the only 
definitions that you put in the bill are the correct. The 
United Nations has another, the four, in the United Nations 
resolution, has four manners.
    Mr. Pierluisi. I am not going to belabor it. I believe Mr. 
Berrios was eloquent about that and he is so recognized in the 
se carea of international law, but I am not going to belabor 
it. I don't agree with you. Let me ask a question of the 
distinguished President of the Senate of Puerto Rico.
    Mr. Rivera-Schatz, I see that you would like to amend the 
bill. I, as I see it, I don't have any reason to believe that 
once we have these plebiscites, the Congress will take the 
results very seriously and will act upon them. Yet, I noticed 
that you have reservations. Can you explain the purpose of your 
amendment?
    Mr. Rivera-Schatz. I am convinced that everybody in this 
room wants to get the job done, our Resident Commissioner, the 
House of Puerto Rico, but if the language is clear, absolutely 
clear, nobody can have any doubts about it, and I believe it 
makes a better bill if we have the compromise, the commitment 
in clear language in this bill.
    Mr. Pierluisi. Thank you.
    Ms. Bordallo. I thank the gentleman from Puerto Rico, and I 
would like now to recognize the gentleman from American Samoa, 
The Honorable Eni Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair. If there is one 
thing that I admire most of our friends and leaders from Puerto 
Rico, it is your absolute passion for this issue now that has 
been with us for how many years, as the good Senator Bhatia 
shared with us earlier. I had indicated earlier that you did, 
Puerto Rico held a plebiscite in 1993 where the results of that 
plebiscite was 48 percent were for commonwealth, 46 percent 
were for statehood, and the balance with independence and 
others, and what I was curious about, why wasn't the second 
plebiscite held with the two highest vote getters here to then 
make a decision between statehood and commonwealth, since 
independence is only, or other options were only less than 6 
percent?
    Can anybody answer me that question?
    Mr. Bhatia. I mean, there are two answers. The first answer 
is I don't know, but the second answer would be the fact that 
what happened in 1993, historically, and I will try to be very 
brief, I know your time----
    Mr. Faleomavaega. And it was a fair plebiscite too.
    Mr. Bhatia. It was a fair plebiscite, but it was 1992, 
Governor Rossello won by a landslide. It was actually the first 
time in the history of Puerto Rico that we had to put into 
effect a provision of the constitution allowing for the Popular 
Democratic Party, the Commonwealth Party, to come in and add 
more members in the House because they swept, it was a 
landslide victory for Governor Rossello. Now, a year later, the 
perception was statehood was going to win.
    With so much support built around Governor Rossello, 
something happened. Statehood didn't win, and I think the idea 
was that there was no need for a second vote. So I think it was 
a local vote, it was done by the Puerto Rico legislature, and 
it was crafted in such a way--now, I think the lesson from that 
result is the fact that a statehood majority, a statehood party 
wins an election doesn't mean that statehood has a majority of 
the votes, and I think that is a lesson in 1993.
    Mr. Faleomavaega. Other members of the panel would care to 
comment on that? Is your mic on?
    Mr. Rivera-Schatz. That opportunity, we have it right now 
with H.R. 2499. We have two chances. The first one, for those 
who support commonwealth as it is, they, Mr. Ferrer said here a 
few minutes ago, they want to get out the territory clause. 
Well, the first plebiscite gives them that opportunity, and 
then in the second plebiscite, they can defend the definition 
they got in the platform. These guys always oppose, they 
opposed in '93, they would oppose in '98, and also in this one, 
they don't want to do nothing. And you are right, we are 
passionate.
    [Laughter.]
    Ms. Gonzalez-Colon. I want to add something.
    Mr. Faleomavaega. Madam Speaker, please.
    Ms. Gonzalez-Colon. Congressman, there is an important 
issue about what you bring here. In the plebiscite of the 1967, 
the plebiscite of the 1993, the plebiscite of the 1998, never 
were made by Congress. That is why we need you to speak. That 
is why we need this H.R. 2499, because we want something to 
happen, and the first step to make that decision will reside in 
the people of Puerto Rico to choose if we want to continue in 
the status quo, if we want to move forward, and in the second 
ballot, we will have those options, real options defined by 
you, not by me, not by Bhatia, to let Puerto Rico have real 
opportunity to be heard by this Congress.
    Mr. Faleomavaega. I might suggest that just beware, you may 
not want Congress to do this for you, and might also keep in 
mind that, and this is nothing in relation to whatever option 
or decision that the people of Puerto Rico will make, there is 
nothing in the Constitution that mandates the Congress to say 
that it will accept statehood for Puerto Rico, even thought the 
people of Puerto Rico say, we want statehood. So, we must keep 
that in mind as well.
    Ms. Gonzalez-Colon. Neither independence or commonwealth.
    Mr. Faleomavaega. Well, independence, I think Congress 
would be more than happy to work out a relationship, if that is 
what the people of Puerto Rico want.
    Ms. Gonzalez-Colon. That is why we want to decide that.
    Mr. Faleomavaega. Well, OK, I will accept that, but I do 
want to say to Senator Bhatia, in terms of your statement, we 
do have a very unique, as you said, under the Constitution or 
the Congress, we have a very unique political relationship 
existing between the Republic of the Marshall Islands, 
Federated States of Micronesia, and the Republic of Palau, with 
the United States. They are not U.S. citizens, but they are 
entitled to join the military, they can travel on U.S. 
passports, and they can also become U.S. citizens if they want 
to.
    They have complete freedom to immigrate to the United 
States just as if they were citizens, and yet they are not. So, 
I just wanted to add that uniqueness about a commonwealth, and 
by the way, the usage of compact of free association, the term 
or the phrase originated from Puerto Rico. The commonwealth, as 
I understand the Spanish translation of commonwealth, is estado 
something?
    Mr. Rivera-Schatz. Estado libre asociado.
    Mr. Faleomavaega. OK, you got it, but I wanted to share 
that with you that there is that in between or gray area where 
it is not cut and dry where the Congress uniquely can provide, 
like I said, it is not independence, but it is kind of 
independence, but yet, very unique political relationship with 
the United States.
    Mr. Rivera-Schatz. That is a problem with the Popular 
Party. That is a problem, but I want to make clear the record. 
Any who ask to become a state, it become a state, so you said 
that the Congress doesn't have to plan the statehood. That is 
true. But it is true also that everyone who asked to become a 
state and struggled to become a state has achieved as a state, 
and we are going to achieve to become the 51st state of the 
United States in Puerto Rico.
    Mr. Dalmau-Santiago. But in the last 57 years, we have 
maybe three or four plebiscites in Puerto Rico, three 
plebiscites, and we have demonstrated a firm rejection to 
independence and statehood. It is the people of Puerto Rico 
vote to get independence and statehood. I think that a project 
that has a process of conscience maybe, I think, that the 
commonwealth with modifications win to Puerto Rico. We work 
together to make the commonwealth better, is my concern.
    Mr. Faleomavaega. And I want to say, Madam Chair, to the 
Minority Leader, I understood everything that you said in your 
testimony. I meant that in humor. I do recommend, Madam Chair, 
that we do go to Puerto Rico and hold more hearings on this 
very important issue. Thank you.
    Ms. Bordallo. Oh, I think we--I am all for that. I thank 
the gentleman from American Samoa. I would like to recognize 
the gentleman from Maryland, Mr. Sarbanes, for any questions he 
may have.
    Mr. Sarbanes. Thank you, Madam Chair. This is a critical 
hearing, and we have had a number of panels come forward and 
clearly, it is a very contentious and emotional issue. Anytime 
the conversation is joined on this question, you can see the 
well of feeling that people have for their particular point of 
view, that it goes back decades and decades, and so, all of 
that leads me to be extremely humble about how we should 
approach this and the design that makes the most sense, because 
I think we need to have a humility when the issue within the 
Puerto Rican community is so hotly debated.
    I want to thank the panelists that I have had the privilege 
to listen to for their testimony. I apologize for running back 
and forth, but we are doing a vote-o-Rama today.
    Ms. Bordallo. You are very fortunate. You can vote.
    Mr. Sarbanes. Fair enough, and I want to particularly 
acknowledge Eduardo Bhatia, who is a longtime friend and 
colleague and someone who has helped me develop a perspective, 
I think a pretty broad perspective on this issue, and I want to 
commend him for acknowledging very candidly that the 
commonwealth structure as it currently exists is not perfect, 
and I wanted to ask Eduardo actually two questions, and others 
are free to respond as well.
    The first is on the point he made, and what would you 
identify as some of the ways that you think the commonwealth 
structure could be improved, you know, according to the process 
that you recommend going forward?
    Mr. Bhatia. Thank you, thank you for the question. I think 
the main, the crux of the problem right now is to find a way, 
and I think that is why we have suggested, Congressman, to have 
a constitutional convention and conversations with the United 
States where the White House participates actively. There is 
certainly a problem when we are not validating the existence of 
Federal laws in Puerto Rico, and I think commonwealth as a 
structure, we have to find a way of, even if it is on an annual 
basis, even if it is on a--there must be a structure set up so 
that Puerto Ricans give their consent to be governed and to be 
part of the United States, and I think that consent is at the 
crux of this issue.
    Otherwise, the label of colony, the label of territory, the 
label of continuously receiving the criticisms, you know, will 
be forever. So to the extent that we can craft, and I think 
there are law professors, constitutional law professors from 
throughout the nation, NAU, Georgetown Law School, the Dean of 
Georgetown Law School, who have actually stated that there are 
ways of doing it. There are ways of constructing a mechanism to 
give that consent without Puerto Rico having to be a state or 
independent nation.
    I think that is sort of the heart of it and I think we 
could go specifically into each one of those issues.
    Mr. Sarbanes. The other question I had was, the term 
``consensus'' is being used a lot, heard it in the testimony, 
and I gather the discussion there is over what level of support 
one should see before a particular option is chosen. Is that 
essentially what the consensus debate is about, or am I getting 
that wrong?
    Mr. Bhatia. Well, it is really--I mean, I think anyone can 
talk about it, but I would say the consensus that we are trying 
to achieve is basically a consensus on the process. I mean, how 
should we proceed about asking Congress to deal with this? So 
it is not really a consensus on the definitions. I think it is 
more a consensus on what process should take place.
    Mr. Sarbanes. OK. Yes?
    Ms. Gonzalez-Colon. I want to answer that too. I am glad to 
hear that, because in the last processes, there were not 
consensus about the definitions they brought. Right now, they 
don't even have an internal consensus in their own party 
regarding their own definitions. That is why our point of view 
of what they mean is consensus is to continue to delay to the 
people to vote or to have a real option. So, I think the option 
is not a constitutional assembly. To write what constitution?
    We can't even decide yet what we want. That is why we 
understand that the real process must be, have an easy way, an 
easy first ballot, we want to continue the status quo, we want 
to continue in the commonwealth, or we want to move to another 
option. What those options are, they will be defined by 
Congress. They will be independence, statehood, any kind of 
free associated state or whatever they want that can be 
accordingly with the U.S. Constitution, and that is the real 
issue here.
    If you want all the people of Puerto Rico to decide which 
is going to be the process, we are not going to have that, and 
because of that, are we not willing to have the vote? Of course 
not.
    Mr. Sarbanes. I don't have any more questions. I just want 
to observe, Madam Chair, again, at least to my level of 
understanding, this is a very complex issue, so my mind remains 
open on the approach that ought to be taken, and I welcome the 
testimony that was offered today and I yield back my time. 
Thank you.
    Ms. Bordallo. I thank the gentleman from Maryland for his 
comments and as Chair of the Committee standing in for The 
Honorable Nick Rahall, who is the Chair of the Resources 
Committee, I want to thank all of the witnesses, not just from 
this panel but the previous panels. You are all so very 
passionate, and in my listening here on everybody's views on 
this, it reminds me so much of my home, because in Guam we 
still have an unsettled status question and we have been 
agonizing over this for many, many years just like you folks.
    So it seems that as territories, we always have to work a 
little bit harder for everything. I have found this ever since 
I entered Congress, so I want to thank you all and to remind 
you that the hearing record will be open for 10 days, so if 
there are any further questions that the Committee members 
have, this will remain open and we can wait for your answers to 
the questions, and I want to thank all of the witnesses again 
and I want to thank members of this Committee for their long 
hours that they have spent in this hearing, and there being no 
further business, the Committee on Resources now stands 
adjourned.
    [Whereupon, at 1:10 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by J. Aloysius Hogan, 
Esq., Government Relations Director, English First, follows:]

    Statement submitted for the record by J. Aloysius Hogan, Esq., 
              Government Relations Director, English First

    To The Committee on Natural Resources:
    With all due respect, today's hearing is not designed to flesh out 
the numerous substantive issues associated with the prospect of Puerto 
Rican statehood, though that should be the charge for a legislative 
hearing.
    The panelists are largely cosponsors and supporters of the bill.
    The committee did not take the opportunity to invite the groups who 
have waved a cautionary flag on this issue before. English First is 
such a group.
    As the Government Relations Director of English First, it is my 
responsibility to raise some of these issues again.
    I say ``again'' because the concept of statehood for Puerto Rico is 
like a bad penny that keeps turning up. The issue arose during the late 
Nineties when I served as Counsel to this House Resources Committee, 
then chaired by Congressman Don Young.
    The issue also arose about ten years before that and received much 
attention in the press and elsewhere around 1989 and 1990. The issues 
raised twenty years ago are valid today, and the attached issue brief 
from English First pertaining to that era is as fresh and pertinent 
today as it was then.
    Let me just highlight a few notable points and raise a few 
questions that are addressed in more detail in the attachment:
     1.  Americans by huge margins favour making English the official 
language of the UnitedStates. This issue must be addressed when 
discussing Puerto Rican statehood.
     2.  The example of Quebec's bilingualism is not favorable.
     3.  A mandate of translation is astronomically expensive.
     4.  The United States Supreme Court has decided on multiple 
occasions that conditions on statehood must be determined BEFORE 
admittance to the union.
     5.  Congress could settle this matter in the same way that it 
resolved the question of French-speaking Louisiana. The Louisiana 
Constitution accepted by Congress when the state was admitted to the 
Union clearly stated:
             All laws that may be passed by the [state] Legislature, 
        and the public records of this state, and the judicial and 
        legislative written proceedings of the same, shall be 
        promulgated, preserved, and conducted in the language in which 
        the Constitution of the United States is written.
     6.  The people of Louisiana, then and now, are free to speak 
whatever language they choose, but the government and courts of 
Louisiana are required to function in English.
     7.  Puerto Rico may have numerous Members of Congress were it to 
be admitted as a state. Just how many would it have? Might it be twice 
as many as represent West Virginia, the Chairman's state? How do the 
people of West Virginia feel about that?
     8.  A large percentage of Puerto Ricans receive the equivalent of 
food stamps.
     9.  The average per capita income of Puerto Ricans has been quite 
low, less than half that of our poorest state.
    10.  How much does Puerto Rico currently cost federal taxpayers 
each year?
    11.  Puerto Rico's former Governor and Resident Commissioner, 
Carlos Romero Barcelo, has written, in his book, Statehood is for the 
Poor, that ``the island would take billions more out of the federal 
treasury than it would put in,'' according to Professor Antonio M. 
Stevens-Arroyo, writing in the January 22, 1990 issue of The Nation. 
Professor Stevens-Arroyo adds, ``[t]his is the bottom line statehooders 
try not to mention when in Washington.
    12.  How devastating would the loss of U.S. corporate tax exemption 
be for Puerto Rico?
    13.  What percentage of Puerto Rico's revenue derives from industry 
versus tourism?
    14.  What is the unemployment rate of Puerto Rico?
    15.  What would the total budget affect be of admission of Puerto 
Rico as a state? Even U.S. Senator Kent Conrad was dubious of rosy 
estimates.
    Thank you for the opportunity to raise these important points and 
questions. Satisfactorily addressing each and every one of these points 
is essential to moving forward with this bill. Frankly this hearing 
will not accomplish this task. More attention and perhaps more 
hearings, such as in the Committee on Ways & Means, are necessary.
    [NOTE: An attachment entitled ``English First Issue Brief'' has 
been retained in the Committee's official files.]
                                 ______
                                 
    [A statement submitted for the record by Hon. Steny H. 
Hoyer, a Representative in Congress from the State of Maryland, 
follows:]

 Statement of The Honorable Steny Hoyer, a Representative in Congress 
                       from the State of Maryland

    Mr. Chairman, all peoples are entitled to a form of government that 
provides for equal voting representation in the making and 
implementation of their laws. Puerto Rico's current status remains as 
unincorporated territory of the United States, subject to the control 
of Congress under Article IV of the U.S. Constitution. That status 
should be revisited for the treatment and opportunities it provides to 
the people of Puerto Rico.
    As both Chairman Rahall and former Chairman Young have 
acknowledged, residents of Puerto Rico, despite having a population 
size equal to or greater than almost half the states, have no 
representation in the Senate. The Puerto Rican people send only a 
single member to the House of Representatives who may only vote in 
legislative committees and in the Committee of the Whole, a change we 
just made last Congress. Over the past century, Congress has passed 
legislation governing Puerto Rico's relationship with the United 
States. For example, residents of Puerto Rico hold U.S. citizenship, 
serve in the military, and are subject to federal laws. Although they 
participate in the presidential nominating process, they do not vote in 
the general election.
    This legislation, in which the Congress calls for taking the 
question of Puerto Rico's status to voters in at least one plebiscite, 
is an important step to address fundamental questions of fairness and 
democracy. Mr. Pierluisi has taken careful steps in this bill to ensure 
that the plebiscite asks questions more representative of the diversity 
of views on Puerto Rico's status as it seeks to determine voters' 
positions on those questions. Those changes have resulted in additional 
cosponsors for the legislation this Congress, and I commend him for his 
work.
    In my view, the current status between the United States and Puerto 
Rico was forged under circumstances that belong to a different time and 
a different era. Today, with the direct participation of the Puerto 
Rican people, our relationship must mature and the status choice 
affirmed. In this effort, Congress has the responsibility and the duty 
to offer to the Puerto Rican people an honest process for self-
determination that is true to our democratic principles and our 
Constitution. The Puerto Rico Democracy Act of 2009 offers that kind of 
process by calling for a direct vote of Puerto Ricans and by giving 
them sound alternatives. I am proud to be an original cosponsor of the 
Puerto Rico Democracy Act of 2009 and I look forward to working with 
this Committee to move it forward.
                                 ______
                                 
    [A statement submitted for the record by Hon. Nydia M. 
Velazquez, a Representative in Congress from the State of New 
York, follows:]

  Statement of The Honorable Nydia M. Velazquez, a Representative in 
                  Congress from the State of New York

    I appreciate the opportunity to offer my views on this latest 
effort to discuss the future of Puerto Rico, H.R. 2499, The Puerto Rico 
Democracy Act of 2009, and to clarify what is truly at stake here.
    If this was not such an important issue for eight million Puerto 
Ricans, I would say that this debate is worthy of a Shakespearean line 
such as, ``Once more unto the breach, dear friends.'' One would think 
that since Congress has been talking about Puerto Rico since the end of 
the 19th century, this body would have found the proper way to finish 
this debate in the 21st century. Unfortunately, it seems we have not.
    I could have begun my statement by stating my opposition to H.R. 
2499 because of previous determinations that this approach is unfair to 
the people of Puerto Rico. I could have further told you that as of 
today, none of the three members of Puerto Rican descent with 
constituencies in New York City and Chicago support this bill. And, 
lastly, I could have reminded members that previous legislative efforts 
that were deemed biased or un-inclusive have never succeeded.
    However, for today's hearing, these arguments may not be enough to 
sway well-intentioned people to think calmly about what we are debating 
today: Puerto Rico and its people. We are not debating a mere vote. 
This debate is about whether the people of Puerto Rico are ready to 
join us as a full partner of this Union and what sort of partner we 
want. It is about allowing them to decide whether or not to go on their 
own and what that would mean to every Puerto Rican. It is also a debate 
about what other options may be worthy of consideration. Whatever 
decision is made by them, it must be one that is made knowingly and 
willingly. This is essential, for any status-changing decision will not 
be an easy one. That decision must be taken with a clear understanding 
of the consequences and with the determined commitment to carry it 
forward.
    A bill drafted without consensus will always be under suspicion by 
a large segment of the population in Puerto Rico and, therefore, lack 
legitimacy. For Congress to push forward such an initiative ignores the 
historic words and the lessons from Lincoln's time, ``A house divided 
against itself cannot stand.'' How do we expect to find a solution to 
this Puerto Rico issue if we give merit to proposals that promote and 
foment mistrusts and divisions?
    The issue here that makes this legislation unacceptable was present 
in its previous incarnations in the 104th, 105th, 109th & 110th 
Congresses--the process. The process promoted by those bills has been 
perceived to be skewed in one form or another. It is now time to break 
this cycle. Thomas Paine once wrote, ``A long habit of not thinking a 
thing wrong gives it a superficial appearance of being right.'' This 
bill is not right and we should begin investing Congress' time in doing 
what is right.
    We cannot sanction this insistence in keeping a people blinded to 
facts, deaf to analysis and muted from expressing their opinions on 
what is being bargained, supposedly on their behalf. It is time to try 
a new approach to resolve this issue in a manner that does not allow 
one side to shut other positions out of the process. Lack of consensus 
equals lack of legitimacy.
    I have advocated that a Constitutional Convention is an appropriate 
option, but it is not the only open process and I believe there can be 
other options that have not been discussed. However, any fair and 
transparent process must allow for hearings to be conducted in Puerto 
Rico and include the Puerto Rican community in the States in the self-
determination process. It is my deepest conviction that a true 
democratic path to self-determination for the people of Puerto Rico 
must be forged first by Puerto Ricans; and it is up to them to decide 
what their options are for the future.
    President Obama fully understands the difficulty of this issue and 
has indicated his willingness to be engaged. This President deserves to 
have the opportunity to take a look at this issue and formulate 
proposals on how to move forward. I suggest that this Committee afford 
the President the opportunity to act and seek the expertise of this 
committee as well as other stakeholders. I look forward to working with 
the Obama Administration and the Committee in providing the people of 
Puerto Rico with an approach that guarantees a true expression of their 
wishes. Thank you.

                                 <all>

</pre></body></html>
